<html>
<title> - PUERTO RICO STATUS</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
                           PUERTO RICO STATUS

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                   on

                                H.R. 856

A Bill To provide a process leading to full self-government for Puerto 
                                  Rico

                               __________

                     MARCH 19, 1997--WASHINGTON, DC

                               __________

                           Serial No. 105-16

                               __________

           Printed for the use of the Committee on Resources



                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 40-445                      WASHINGTON : 1997
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               NICK LAMPSON, Texas
JIM GIBBONS, Nevada                  RON KIND, Wisconsin
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held March 19, 1997......................................     1

Text of H.R. 856.................................................

Statement of Members:
    Burton, Hon. Dan, a U.S. Representative from Indiana.........    00
    Christian-Green, Hon. Donna, a U.S. Delegate from the Virgin 
      Islands....................................................    00
    Deutsch, Hon. Peter, a U.S. Representative from Florida......    00
    Gutierrez, Hon. Luis, a U.S. Representative from Illinois....    00
        Prepared statement.......................................
    Lagomarsino, Hon. Robert J., a U.S. Representative from 
      California.................................................    00
    McCollum, Hon. Bill, a U.S. Representative from Florida......    00
    Miller, Hon. George, a U.S. Representative from California...    00
    Romero-Barcelo, Hon. Carlos A., a U.S. Resident Commissioner 
      from Puerto Rico...........................................    00
    Serrano, Hon. Jose, a U.S. Representative from New York......    00
    Velazquez, Hon. Nydia, a U.S. Representative from New York...    00
    Young, Hon. Don, a U.S. Representative from Alaska; and 
      Chairman, Committee on Resources...........................    00
        Prepared statement.......................................
Statement of Witnesses:
    Acevedo-Vila, Anibal, President of the Popular Democreatic 
      Party......................................................    00
        Prepared statement.......................................
    Berrios-Martinez, Ruben, President of Puerto Rican 
      Independence Party.........................................    00
        Prepared statement.......................................
    Farrow, Jeffrey L., Co-Chair, The President's Administration 
      Working Group on Puerto Rico...............................    00
        Prepared statement.......................................
    Ferre, Luis, President of the New Progressive Party..........    00
        Prepared statement.......................................
    Rossello, Pedro, Governor of Puerto Rico.....................    00
        Prepared statement.......................................
    Zeder, Fred M., II, Rancho Mirage, CA (prepared statement)...    00
Additional material supplied:
    Administration Shelves Plan To Give Guam More Autonomy, by 
      Peter Baker (Washington Post)..............................    00
    Hill Panels to Probe China Influence Buying Allegations, by 
      Robert Suro (Washington, Post).............................    00
    House Concurrent Resolution 2 (PR)...........................    00
    Introducrion of the United States-Puerto Rico Political 
      Status Act--Hon. Don Young (Congressional Record)..........    00
    Letters between Clinton, Young could bode ill for `bilateral' 
      pact, by Robert Friedman (STAR Washington Bureau)..........    00
    Memorandum on the Commonwealth of Puerto Rico, George Bush...    00
    Oversight Plan for the 105th Congress, Committee on 
      Resources, and Legislative History.........................    00
    Press Releases of Committee on Resources.....................    00
    Puerto Rico's New Self-governing Status (Dept. of State 
      Bulletin...................................................    00
    Resolutions adopted by the General Assembly (UN) at its 
      Eighth Session.............................................    00
    Resolutions from the Popular Democratic Party................    00
    Signs of Policy Shift on Status of Guam Appeared After 
      Contributions to Democrats, by John Pomfret (Washington 
      Post)......................................................    00
    Summary of the United States-Puerto Rico Political Act.......    00
    Updated United States-Puerto Rico Political Status Act, by 
      Hon. Don Young (Congressional Record)......................    00
    Zeder, Fred M., II: Understanding Free Association as a Form 
      of Separate Sovereignty and Political Independence in the 
      Case of Decolonization of Puerto Rico......................    00
Communications submitted:
    Clinton, President Bill: Letter of January 21, 1997, to 
      Chairman Don Young.........................................    00
    Romero-Barcelo, Hon. Carlos, and Hon. Robert A. Underwood: 
      Letter to Hon. William J. Clinton dated January 13, 1997...    00
    Young, Hon. Don: Letter to Hon. William Jefferson Clintom of 
      December 11, 1996..........................................    00



             UNITED STATES-PUERTO RICO POLITICAL STATUS ACT

                              ----------                              



                       WEDNESDAY, MARCH 19, 1997

                          House of Representatives,
                                    Committee on Resources,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 11:07 a.m. in room 
1324, Longworth House Office Building, Hon. Don Young (Chairman 
of the Committee) presiding.
    The Chairman. The Committee will come to order.
    It is a pleasure to welcome the witnesses here today as the 
Committee on Resources considers H.R. 856, the U.S.-Puerto Rico 
Political Status Act.
    I am going to ask the audience if you would please try to 
restrain yourselves. This is going to be a hearing that may 
take a great deal of time. I want to offer as much courtesy as 
I can to the witnesses who appear today.

  STATEMENT OF THE HON. DON YOUNG, A U.S. REPRESENTATIVE FROM 
          ALASKA; AND CHAIRMAN, COMMITTEE ON RESOURCES

    The Chairman. Today, we begin an important part of the 
congressional consideration of legislation to resolve Puerto 
Rico's political status by hearing from some of our colleagues 
in the House, the Governor of Puerto Rico, leaders of the three 
political parties of Puerto Rico and the Clinton 
Administration.
    Last month, the top leader of the Puerto Rico Legislature 
presented copies of House Concurrent Resolution 2 asking the 
Congress to authorize a political status referendum to be held 
before the end of 1998. This legislation responds to the 
legislature's request to provide the necessary framework 
leading to full self-government for Puerto Rico.
    I thank the witnesses from Puerto Rico for traveling to 
Washington to personally present their views on this 
legislation to the Committee. Your views today, and others 
later in Puerto Rico, are a crucial part of development of 
final legislation to resolve Puerto Rico's political status.
    Next month, the Committee will go to San Juan and Mayaguez 
to hear from the people of Puerto Rico.
    We will start today's hearings with a Members panel, whose 
comments I know will be very helpful to the Committee. I want 
to mention that the Committee has received a statement 
regarding this legislation and Puerto Rico's political status 
from a former member of this Committee, Bob Lagomarsino. I 
would like to ask unanimous consent to submit his comments.
    [Statement of Mr. Lagomarsino follows:]

  Statement of Hon. Robert J. Lagomarsino, a U.S. Representative from 
                               California

    On January 23, 1997, the Legislature of Puerto Rico adopted 
Concurrent Resolution 2. This measure called upon the 105th 
Congress to establish a self-determination process which will 
enable the Congress and the people of Puerto Rico to complete 
the decolonization of the territory which began in 1952. It was 
in 1952 that an earlier joint self-determination process 
approved by Congress and the people pursuant to U.S. Public Law 
600 culminated in establishment of internal constitutional 
self-government for Puerto Rico.
    The Chairman of the Resources Committee and all the co-
sponsors of H.R. 856 are to be commended for responding in a 
timely and bipartisan manner to the Legislature's request by 
introducing this historic legislation on February 27, 1997. I 
support the bill without reservation, and in my own view every 
Member of Congress who joins the sponsors of this bill in 
securing its early approval will be serving the national 
interest in a very significant way.
    For far too long Congress acquiesced in the deferral of 
self determination for Puerto Rico. I had always hoped we could 
deliver on the American idea of equality and full self-
government for the 3.8 million U.S. citizens of Puerto Rico 
when I was in Congress. Of course, that could only be 
accomplished by offering the people of Puerto Rico accurately 
defined choices between the status quo, statehood or separate 
nationhood, and then determining if Congress and the people can 
agree on the terms for implementing the option chosen.
    While that somehow never seemed possible in the past, I 
believe H.R. 856 will accomplish this goal. Thus I welcome the 
opportunity to submit this statement in support of the measure.

the moment of truth for the united states and puerto rico: more perfect 
      union through statehood or an end to union through separate 
                              nationality?

    In the U.S. system of constitutional federalism, statehood 
is the most perfect form of political union. For any territory 
within the sovereignty of the U.S. and having a U.S. citizen 
population, only statehood constitutes full self-government 
based on the principle of equality with all other citizens. 
Short of statehood, the less perfected but next most complete 
condition of political union is that of an incorporated 
territory to which the U.S. Constitution and political rights 
have been extended to the fullest extent possible for a non-
state area within U.S. sovereignty. Historically, this is the 
conventional path to statehood.
    Unincorporated status with internal self-government under a 
local constitution, including the ``commonwealth'' structure of 
local self-government, is the status which occupies the next 
lower position in the scheme of political union under the 
constitution. While the federal constitution applies in full to 
the states, and incorporated territories can achieve ``virtual 
statehood'' through integration into the constitutional process 
on the broadest level possible, under the territorial clause 
and the court-invented legal status theory of the Insular Cases 
an unincorporated territory is integrated into the union in a 
far more narrow sense. Downes v. Bidwell, 182 U.S. 244 (1904); 
Dorr v. United States, 195 U.S. 138 (1904).
    Thus, even where statutory U.S. citizenship is extended and 
there is elected local government under a constitution or an 
organic act, only ``fundamental rights'' under the federal 
constitution apply of their own force in an unincorporated 
territory. Balzac v. People of Puerto Rico, 258 U.S. 298 
(1922). Otherwise the U.S. Constitution and federal law apply 
only temporarily to the extent Congress determines in its 
discretion under the territorial clause. Reid v. Covert, 354 
U.S. 1 (1957).
    These U.S. Supreme Court decisions establish that the 
unincorporated ``commonwealth'' relationship is temporary by 
nature, and disenfranchisement and less-than-equal 
discriminatory treatment of citizens of the territory is deemed 
constitutionally permissible. Harris v. Rosario, 446 U.S. 651 
(1980). Even in the organized and locally self-governing 
unincorporated territories, including Puerto Rico, the plenary 
nature of the territorial clause power reduces the operation 
and effect of the principles of limited government, national 
uniformity, and rule of law as practiced in the states.
    The only more imperfect form of union than that of the 
unincorporated U.S. territories is that of unorganized 
possessions (Example: Wake Island). While residents of 
incorporated and unincorporated territories and possessions can 
enjoy many of the blessings of American citizenship to the 
extent Congress determines, including economic benefits and 
security through various degrees of political union with the 
United States, only statehood confers a condition of permanent 
and constitutionally guaranteed equal citizenship and full 
self-government.
    Thus, for the population of any territory which wishes to 
remain within U.S. sovereignty, completion of the process of 
integration through statehood is the only path to full self-
government. The only alternative within the framework of the 
U.S. Constitution is to continue indefinitely in a less than 
fully self-governing status, which is plausible only as long as 
Congress deems that to be consistent with the national interest 
and the people concerned do not themselves make the choices 
required to seek a change of status.
    The only other path to full self-government for the peoples 
of the unincorporated U.S. territories is to seek though self-
determination to achieve equal citizenship and full self-
government based on separate sovereignty, nationality and 
citizenship. The options of separate sovereignty in the form of 
simple independence or free association are the two forms of 
full self-government through nationhood recognized under both 
international and U.S. law. See, Compact of Free Association 
Act of 1985 (U.S. Public Law 99-239).

    understanding the constitutional process for self-determination

    Obviously, there is a cultural dimension to the process for 
full and compete decolonization of Puerto Rico. However, the 
process for sustaining cultural identity and achieving social 
integration in our nation will continue to be played out 
through the evolution of American civilization at the cultural 
level.
    Without minimizing the importance of the cultural 
reconciliation that is essential to successful decolonization, 
it must recognized that as a political transaction 
decolonization is accomplished through the legal and 
constitutional mechanisms by which the inherent sovereignty of 
our people is established, recognized and exercised. Until the 
ultimate status of the people of Puerto Rico is resolved 
through sovereign self-government based on either statehood or 
separate nationality, the manner in which sovereignty is 
exercised in the case of Puerto Rico will be dysfunctional to 
the extent that it is constitutionally incomplete and less than 
equal.
    To promote recovery by Puerto Rico and the nation as a 
whole from the dysfunctional dynamics of the colonial 
relationship, it is necessary to recognize that in our 
political economic system prosperity and a higher quality of 
life must never be taken for granted. Rather, as Ronald Reagan 
told the General Assembly of the United Nation in 1987, all the 
things we identify with the ``good life'' in America are the 
product or results of the rights we have under our 
constitutional system.
    These includes equal justice under the law, freedom of 
expression and conscience, limited government, consent of the 
governed, rule of law, an ordered scheme of liberty and due 
process. Once these rights are secured we must exercise them 
vigorously and meet the responsibilities of citizenship in 
order to preserve the national interest and pursue individual 
happiness.
    In the case of Puerto Rico, however, the full rights of 
citizenship have not yet been secured, and the residents of 
Puerto Rico have not yet experienced in their homeland the full 
responsibilities and rewards of equal citizenship. The 
conditions that have prevented completion of decolonization in 
favor of a recognized form of sovereign self-government have 
been more political and legal than cultural.
    Full decolonization has been delayed for so long that the 
failure to resolve the underlying political status issue has 
become the most problematic element of the overall process of 
cultural and economic integration as well. In other words, the 
incomplete political status process is impeding the social, 
economic and cultural process of decolonization and 
reconciliation.
    Thus, in 100 years the people of Puerto Rico and the other 
peoples of our nation as a whole have developed strong and 
positive cultural and economics inter-relationships, but the 
failure to resolve the political status question in a legal and 
constitutional sense is preventing the achievement an ultimate 
social reconciliation which can be sustained through either 
statehood or separate sovereignty in accordance with the wishes 
of the people.
    In order for the people to express their wishes as to which 
political status will be adopted to sustain their identity as 
well as their relationship with the U.S., there must be a 
constitutionally valid process in which the options are defined 
clearly. That is what H.R. 856 will provide.
    Thus, rather than focusing here on the cultural dimension 
of the decolonization process, it is imperative that we examine 
more closely the legal and constitutional mechanics of the 
process. For it is through these mechanisms that the people 
will be empowered to express their will at the political, as 
well as the cultural, levels. This is how the true identity of 
a people is translated through self determination into full 
self-government.
    Definitions of status options that are not realistic or 
which can not be implemented disempower the people and 
undermine the decolonization process. That is what happened in 
1993, and the following discussion reflects my judgment that 
H.R. 856 will establish a process that will produce results 
which both Puerto Rico and the Congress will be able to 
understand. This will provide the basis for completion of the 
decolonization process that began with adoption of the local 
constitution under P.L. 600 in 1952.
    It is significant, therefore, that, like the provisions of 
Public Law 600 which established the process for approval of 
the local constitution in 1952, H.R. 856 would establish a 
multi-staged process for completing the next--and final--phase 
of decolonization. Thus, H.R. 856 recognizes that until the 
decolonization process is completed the political union between 
the U.S. and Puerto Rico is defined constitutionally as 
impermanent, and both of the two parties to the present 
political relationship retain the right of self-determination 
with respect to its future.
    Recognition that there are two parties to the self 
determination process--Congress and the residents of the less 
than fully self-governing territory, is entirely different from 
and contrary to the assertion of a ``bilateral'' relationship 
between an ``autonomous'' Puerto Rico and the U.S. based on an 
unalterable pact. The notion of a formal and legally binding 
``bilateralism'' between the Congress and an unincorporated 
territory with the framework of the federal constitution is 
untenable.
    Indeed, putting aside for the moment only the cultural 
bonds which exist after 100 years of close albeit impermanent 
political union, the U.S. has the sovereign power 
constitutionally, as well as a right under applicable 
international law, unilaterally to terminate the relationship 
at any time in favor of independence for Puerto Rico. 
Nevertheless, the U.S. clearly intends, prefers and--in the 
absence of currently unforeseen circumstances--is committed to 
resolution of the status of Puerto Rico through a cooperative 
self-determination process.
    Thus, as a legally non-binding but voluntarily assumed 
obligation consistent with international standards of self-
determination recognized by the United States, every Congress 
and every U.S. President since 1952 has recognized that the 
current status of Puerto Rico can be terminated in favor of 
permanent union or separate nationhood on terms approved by 
Congress and the people of Puerto Rico. As a consequence, only 
if Puerto Rico exercised the right of self-determination in 
favor of unilateral action on its part to terminate the 
relationship without an agreed succession process would the 
excellent prospects for a very orderly and cooperative process 
perhaps be changed.
    In addition to demonstrating that decolonization and a 
permanent status have not been achieved, the willingness of 
Congress and the President to recognize an on-going right of 
self-determination for both parties to the existing temporary 
form of political union confirms the need to include in any 
further self-determination process the same multi-staged 
decision-making mechanism as Congress employed in P.L. 600. For 
just as Congress recognized in Section 1 of P.L. 600 and must 
continue to recognize, the principle of consent of the governed 
applies in this case to both the people of the United States as 
a whole and to the people of Puerto Rico.
    It is required, therefore, that in resolving the status of 
Puerto Rico the Congress must exercise the right of self-
determination on behalf of the U.S. citizens in the nation as a 
whole, while the U.S. citizens of Puerto Rico whose status and 
relationship with the U.S. will be decided also have a right to 
self-determination. For as a distinct body politic in an 
impermanent political union with the United States, the U.S. 
citizens of Puerto Rico also must have the opportunity to 
express freely their wishes as to the status of Puerto Rico.
    Because H.R. 856 is grounded firmly in the historical 
process through which the people of an unincorporated territory 
can achieve full self-government through a legitimate process 
of self-determination, I strongly endorse and support its 
enactment. Upon approval, it will enable Congress and the 
people of Puerto Rico to enter the next century on a path to 
liberty and equality.

         self-determination based on dignity and mutual respect

    Within the evolutionary cultural process in our society 
there can exist many peoples and many nations in the cultural 
sense. Respect for this ethnic diversity and dignity, cultural 
pluralism, and transcendence of ethnocentricty in its negative 
forms is one of the difficult but essential lessons through 
which any civilization comes of age. The learning of this 
lesson through conflict and reconciliation, a drama played out 
in our open society for all the world to see, has been but 
another of the ways in which the United States of America has 
been a leader of world civilization in this century.
    Again, the resolution of Puerto Rico's political status 
remains the last act in the drama of decolonization and social 
reconciliation for our citizenry of the territory and the 
nation as a whole. In addition to the political and social 
dimensions of this process, economic integration is also an 
element of the evolving relationship. Luis Munoz Marin realized 
that continued political union with the U.S. was in Puerto 
Rico's economic interest, and that has been proven in recent 
years.
    Whether self-determination leads to statehood or separate 
nationhood, Puerto Rico would do well to stay with market-
oriented reforms and private sector led development which have 
emerged after years of command economics and government managed 
markets. Only the market-driven economic model can be sustained 
without undue dependence on the discretion of Congress--which 
didn't prove too reliable in the case of the experimental 
economics of Section 936. Through strategic economic 
diversification Puerto Rico will recover from the Section 936 
corporate welfare scheme which was the economic engine of the 
colonial status quo--perpetrated in the name of the poor for 
the benefit of the powerful.
    In this cultural and economic context, the social 
integration between the people of Puerto Rico and the other 
peoples of this great nation has been one of the most enriching 
and rewarding of the major cultural processes which have shaped 
the American experience as our nation come of age in this 
century. It is a complex and challenging process, and there 
have been miscalculations and mistakes made by federal and 
territorial leaders which have not served well the people of 
the territory or the nation as a whole.
    However, in the territory and in the larger nation we have 
never given up on finding a solution, and while the momentum 
toward an ultimate status has been slowed at times it has never 
been broken. Now as the century draws to a close, it is time 
for the anachronistic political, legal and constitutional 
relationship between Puerto Rico and the nation as a whole to 
be brought into alignment with the more evolved social, 
cultural as well as economic relationships.
    Thus, as noted above, in drafting legislation to prescribe 
a self-determination process it is necessary to focus on how to 
resolve the political, legal and constitutional status of 
Puerto Rico in both procedural and substantive legal terms, 
rather than in cultural and ideological terms.
    Having underscored that point, I also want to note that it 
has been suggested to me on numerous occasions that there is 
little which is philosophically resonant about the legal 
mechanics of the constitutional process for self-determination. 
The lack of a poetic dimension to the politics of solutions 
instead of protest is something that has been pointed out to me 
frequently.
    I could not disagree more. For in my mind the Declaration 
of Independence, the Preamble of the U.S. Constitution, and the 
Preamble to the Constitution of the Commonwealth of Puerto Rico 
all contain the poetry of freedom.
    Some people may be more moved or have their passions more 
aroused by the literature of political alienation and cultural 
anger over past grievances. However, that kind of vitriolic 
self-indulgence and ideological solipsism often is a luxury 
that can be afforded by those who like to taste of fruit of 
freedom but have never had to pay for it.
    Perhaps we all need to stop and remember that in this 
century Puerto Rico's best and bravest have joined the best and 
bravest from throughout our nation and gone in harm's way so 
the rest of us can continue to live free. To honor their 
sacrifice, we have a duty to do the hard and sometimes tedious 
work of democracy and self-determination within the ordered 
scheme of liberty under our constitutional documents of 
freedom.
    Even if it is not always as glamorous or exhilarating as 
making pedantic pronouncements or reciting poetry about 
abstract notions of political philosophy, we owe it to those 
who saved all of us from the common enemy to resolve the status 
of Puerto Rico because that is what they would want us to do.
    So the next time some cultural separatist or ideological 
elitist condescendingly notes that there are no poems about the 
constitutional process for resolving the legal and political 
status of Puerto Rico, we should remember that in liberating 
strife the blood of Puerto Rican born Americans has mixed with 
that of Americans of all other backgrounds in the sands of 
Somalia and the muddy soil of Sicily. Apparently, these heroic 
people who made everything we have in America possible found 
the literature in the documents of our democracy inspiration 
enough to march into the gaping jaws of annihilation to 
preserve liberty for our common patria-pueblo.
    You want poetry about the difference between perpetual 
colonial status and constitutional equality? Have you read the 
words to the ``Star-Spangled Banner'' re-

cently? Are you longing to hear the poetic expression of 
dignity through full participation in democracy? Try listening 
to a group of kids sing ``...God shed His Grace on thee, and 
crowned thy good with brotherhood, from sea to shining sea...'' 
That does not mean we have never fallen short of that ideal in 
the past, but it expresses what America--including Puerto 
Rico--has the potential to become if we all take the solemn 
work of democracy seriously.

collapse of the ``unalterable bilateral pact'' doctrine of commonwealth

    Recognition by Congress in Section 1 of P.L. 600 of the 
principle of consent was ``in the nature of a compact'' 
involved joint consent only with respect to the process for 
approval of the constitution. When the people voted to approve 
the terms of P.L. 600 on June 4, 1951, the agreement which was 
``in the nature of a compact'' was that the constitution would 
be approved in the manner prescribed by P.L. 600. It was an 
agreement to organize local constitutional self government 
through the P.L. 600 procedure to which both parties consented.
    Contrary to what has been asserted for forty years by those 
who seek to deny both the U.S. and the people of the right to 
further self determination, the agreement ``in the nature of a 
compact'' related to the process of approval of the 
constitution by joint consent and did not convert the 
relationship into a permanent form of union that can be altered 
only by ``mutual consent.'' Those who espouse that ideological 
doctrine do not want the people of the U.S. as a whole, or the 
people of Puerto Rico in their own name and right, to have a 
choice to change the current status.
    This attempt to convert the commonwealth structure for 
local self-government into a political status straight-jacket 
for Puerto Rico has become an impediment to completion of the 
decolonization process that began in 1952. The adoption of 
local constitutional self government at that time was a 
historically significant stage in the decolonization process, 
but it was not intended to be the final stage. Those who argue 
that the current status is the best that the U.S. and Puerto 
Rico can do merely usurp the power and diminish the meaning of 
the local constitution as an instrument through which the 
continuing right of self-determination can be redeemed.
    Indeed, adoption of a local constitution in 1952 was 
historic because it enabled the people of Puerto Rico to act in 
their own name and right as to the internal affairs of the 
territory, as well as in legal and political relations with the 
national government. This, of course, was on the basis of U.S. 
sovereignty and within the framework of our American system of 
constitutional federalism, meaning that Congress retained its 
territorial clause authority and responsibility until the 
decolonization process commenced in 1952 was fulfilled through 
statehood or separate nationhood for Puerto Rico.
    Through the institutions of internal self-government 
established in 1952 Puerto Ricans were empowered, among other 
things, freely to express their wishes regarding a permanent 
and fully self governing political status. Thus, establishment 
of the ``Commonwealth of Puerto Rico'' structure for local 
constitutional self-government in 1952 was a great democratic 
self-determination accomplishment, one which afforded the 
residents of the territory the ability to govern their own 
internal affairs and achieve an ultimate status consistent with 
a recognized form of full self-government through informed self 
determination.
    That this decolonization process would be fulfilled in 
accordance with the U.S. federal constitutional process was 
entirely consistent with the continuation of U.S. sovereignty, 
nationality and citizenship in Puerto Rico as provided under 
the Constitution of the Commonwealth of Puerto Rico approved by 
Congress and with the consent of the people in 1952. Indeed, in 
1953 the U.S. circulated to the General Assembly of the United 
nations a written legal statement which informed Puerto Rico 
and that world that under the commonwealth structure of local 
self-government Puerto Rico was subject to ``...compliance with 
the applicable provisions of the Federal Constitution, the 
Puerto Rico Federal Relations Act and the acts of Congress 
authorizing and approving the Constitution [of Puerto Rico], as 
may be interpreted by judicial decision.''
    On that basis, the U.N. General Assembly accepted the U.S. 
decision to cease reporting to the U.N. on the status of Puerto 
Rico. See, G.A. Resolution 748 (VIII), September 27, 1953. The 
Committee on Resources documented these matter quite thoroughly 
in House Report 104 713, Part 1, so I will not elaborate 
further here.
    However, the attempt of some Puerto Rican leaders and 
political groups to create ``bilateralism'' within the U.S. 
federal system has been perpetrated under a ``nation-within-a-
nation'' interpretation of the commonwealth structure of local 
constitutional self-government which must fail.
    That doctrine of an illusory bilateralism between the 
people of Puerto Rico and the larger national community is the 
product of tortured intellectualism which has been harnessed in 
service to paternalistic and anti-democratic attitudes. Those 
who do not trust the people, or do not want them to have a free 
choice, have used the myth of an ``unalterable bilateral pact'' 
to perpetuate their own power and prevent the decolonization 
process from being fulfilled.
    Having been involved in the question of Puerto Rico's 
status for many years as a Member of Congress, I continue to 
study developments in the relationship with keen interest. My 
sense is that with the end of the Cold War and the demise of 
the command economics-social engineering policies epitomized by 
the Section 936 tax credit provisions, the time for completion 
of the decolonization process for Puerto Rico finally is at 
hand.
    For so many years it seemed that those who sought 
fulfillment of the promise of self-determination might never 
overcome the influence of those whose economic and political 
power was derived from the ``invisible'' colonialism of the 
Section 936 tax credit regime. However, the neo-colonialist 
nature of that political-economic model was revealed when 
Congress exercised its territorial clause power to unilaterally 
eliminate one of the pillars of the ``unalterable bilateral 
pact'' ideology.
    No one can take any personal pleasure whatsoever in the 
disillusionment of all those honest and patriotic Puerto Rican 
born Americans who were misled into believing in the 
revisionist interpretation of commonwealth. It is no 
coincidence, though, that the advocates of the mythological 
version of commonwealth in many cases also profited from it. 
For those who chose self-interest over self determination for 
their own fatherland, the path to redemption and reconciliation 
is to choose one of the legitimate paths to full self 
government as defined in H.R. 856.
    In this regard, I recently was told of the article in El 
Nuevo Dia which quoted former Governor Hernandez Colon as 
comparing Resources Committee Chairman Don Young to the Spanish 
General Palacio, who was described in the article as a tyrant 
who inflicted brutality on the people of Puerto Rico. The 
occasion of the former Governor's remarks was the 107th 
birthday of Roman Baldotioty de Castro, who espoused autonomy 
for Puerto Rico.
    This causes me to ask, who is the oppressor? Who are the 
victims?
    During the 1996 elections, Mr. Hernandez Colon told the 
people that the election should be viewed as a referendum on 
the Young bill, and that the voters should support candidates 
who stood with him in defense of the bilateral pact doctrine. 
By historic margins the voters elected candidates who are 
willing to roll up their shirt sleeves and work with Congress 
to forge acceptable self-determination legislation based on the 
Young bill--without pandering to those who will not recognize 
that the ``unalterable bilateral pact'' doctrine has been 
discredited ethically as well as politically.
    Who, then, is seeking social justice and self-determination 
by the truest course? Who seeks most directly and without 
device or presupposition to empower the people of Puerto Rico 
to achieve decolonization? Who accepts the verdict of the 
people and who resists the democratically expressed will of the 
voters?
    It is one of the confirming symptoms of prolonged albeit 
benevolent colonialism that those who thrived financially or 
wielded great power under the less than fully self-governing 
status develop elaborate theories to justify the continuation 
of that status. Thus, a whole host of lesser known commentators 
have become the spin doctors of commonwealth, administering 
almost daily doses of the tortured logic of the bilateral pact 
theory of ``autonomy.''
    What would Luis Munoz Marin do if he were alive today? What 
about Roman Baldotoity de Castro? Would they turn their backs 
on a U.S. Congressman who thinks it is time for Puerto Rico and 
Congress to determine if Puerto Rico should become a state on 
the basis of equality or a nation based on separate 
sovereignty? Would they insist on a form of ``autonomy'' that 
does not protect the rights or the dignity of the people of 
Puerto Rico?
    Has ``autonomy'' as Mr. Hernandez Colon defines it become 
the enemy of the people's inherent sovereignty and their right 
to make a choice between equal citizenship or separate 
nationality? Has the vision of Mr. Munoz Marin which started 
the process of decolonization in 1952 been hijacked by those 
who can not believe the hour has come to fulfill that vision?
    Are the apologists, protectors and defenders of the 
accommodations made to colonial realities in the name of 
``autonomy'' in 1952 so completely beguiled by their own 
rationalizations for the current status that they are resisting 
completion of the decolonization process now that the it is 
possible to do what could not be done in 1952?
    Who is really playing the role of Palacio in this more 
enlightened era? Who seeks to retain power at the expense of 
liberty?
    Who is withholding the keys to freedom from the people? Who 
is telling them that what they have is the best they can hope 
for? Who is telling them that waiting for the political elite 
to bestow enhancements is safer for the people than taking 
control of their own destiny?
    Who are the victims of the bilateral pact myth? Who was 
diverted from the path to decolonization by the schizophrenic 
doctrine that gave the current status one name in Washington 
and another in San Juan?
    The answers to these questions are now self-evident. We all 
were victims, even as we all were beneficiaries in some degree. 
However, for the people of Puerto Rico and the nation as a 
whole the point of diminishing returns on our political, 
economic and social investment in ``commonwealth'' was reached 
even before Section 936 was repealed.
    It is just as self-evident that statehood, if chosen freely 
by the people in a legitimate act of self-determination, is not 
a form of ``annexation.'' Similarly, living under the false 
doctrine of empowerment which is not recognized or respected by 
the colonial power is not ``autonomy.''
    Rather, statehood is just as valid, ethical and patriotic 
way to sustain the individual and collective dignity and 
identity of the people of Puerto Rico as separate nationality.
    The love which people born in Puerto Rico have for patria 
pueblo can be expressed through either statehood or nationhood. 
If the U.S. Congress is ready to recognize that reality, why 
are some in Puerto Rico unwilling to do so?

    Mr. Miller. Mr. Chairman, if I might, I would like to 
submit the comments of Former Governor Hernandez Colon.
    The Chairman. Without objection, it will be submitted for 
the record.
    [The statement of Mr. Colon may be found at end of 
hearing.]
    The Chairman. Mr. Lagomarsino served on this Committee as 
Ranking Republican on territorial issues for a decade and dealt 
with insular issues for almost 20 years and was intimately 
involved with Puerto Rico's political status.
    In reviewing Mr. Lagomarsino's statement, one should 
remember he introduced legislation in 1988 authorizing a 
referendum on Puerto Rica's political status and was heavily 
criticized by some for raising what many considered to be a 
very difficult issue that should be left alone. The only 
hearing on Lagomarsino's Puerto Rico political status 
referendum legislation in the 100th Congress was a forum in the 
Capitol sponsored by Senator Strom Thurmond and former Senator 
Spark Matsunaga.
    However, Bob Lagomarsino's foresight and leadership 
regarding Puerto Rico's political status was affirmed the next 
year in 1989 when President Bush asked the Congress in his 
first State of the Union address to authorize a referendum on 
Puerto Rico's political status. In addition, a number of the 
same voices who criticized Lagomarsino's 1988 call for a 
referendum on Puerto Rico's political status began early in 
1989 to urge the Congress to pass a bill for a federally 
authorized status referendum.
    However, no Puerto Rico political status legislation was 
enacted into law during President Bush's term in office. That 
was in spite of tremendous efforts by individuals like Bob 
Lagomarsino, who of course was in the Minority at that time, 
and many others on both sides of the aisle in the Capitol.
    The 1989 to 1991 legislative initiatives of the House and 
Senate to resolve Puerto Rico's political status were 
unsuccessful primarily because they did too little or required 
too much.
    In contrast, I believe the three-stage process in the 
United States-Puerto Rico Political Status Act provides a 
manageable and practical approach to resolving Puerto Rico's 
political status. Budgetary, legal, political concerns are 
dealt with as necessary in the appropriate stages of the 
process and are consistent with past precedents of the United 
States in dealing with the evolution of ter-

ritories to permanent forms of full self-government. Perhaps 
most importantly, the legislation incorporates the principles 
of self-determination for the United States and Puerto Rico, as 
both the Congress and the people of Puerto Rico must approve of 
each stage in order for the political status process to 
advance.
    In 1998, we will observe the 100th anniversary of the 
United States administration of Puerto Rico. During this 
century, the residents of Puerto Rico and the United States 
have enjoyed the benefits of U.S. sovereignty and nationality 
in Puerto Rico as an unincorporated territory, including 
increasing levels of self-government and statutory U.S. 
citizenship since 1917.
    However, the time has come to complete the self-
determination process so that a recognized form of full self-
government can be established for the islands. The degree of 
local constitutional self-government established under Federal 
law in 1952 has allowed the Federal-territorial relationship to 
evolve, but it can't be sustained forever in the absence of an 
informed act of self-determination in which the options are 
defined accurately.
    Currently, Puerto Rico remains in political, but not 
permanent, union with the United States and is governed under 
the territorial clause authority of Congress defined in article 
IV, section 3, clause 2 of the U.S. Constitution. Surely after 
a hundred years of U.S. sovereignty Congress also has the 
responsibility under the territorial clause to define the terms 
under which it would be willing to bring the 3.8 million U.S. 
citizens of Puerto Rico into the more perfect State of the 
Union enjoyed by the citizens of territories which have 
achieved statehood such as Alaska and Hawaii.
    Similarly, Congress has a responsibility to define the 
basis upon which it would approve termination of Puerto Rico's 
territorial status in favor of separate nationhood as an 
independent country or a separate sovereign in free association 
with the United States. Only when these options for full self-
government--as Congress is willing to consider them--have been 
accurately defined can the people make an informed choice.
    The current process and status definitions embodied in the 
United States-Puerto Rico Political Status Act is a result of 
the record established in the last Congress through hearings in 
Washington, D.C. on October 17, 1995, and in San Juan, Puerto 
Rico, on March 23, 1996, as well as the deliberative process of 
subcommittee and Committee actions during the balance of 1996. 
These cumulative efforts resulted in the legislation being 
placed on the Union Calendar at the end of the 104th Congress 
and the introduction of an updated U.S.-Puerto Rico Political 
Status Act, H.R. 4281, which served as the basis for and with 
text identical to the that of the current H.R. 856.
    The year of 1997 is the year to act, to empower the people 
of Puerto Rico in 1998 to choose their final political status 
destiny. No more excuses and delays to the resolution of Puerto 
Rico's political status. Puerto Rico has demonstrated the 
ability to function democratically under local constitutional 
self-government for 45 years. Even more significantly, the 
people of Puerto Rico have overwhelmingly and loyally supported 
this Nation in every armed conflict with enormous personal 
sacrifice for nearly a century. They have earned the right many 
times over to seek separate nationality and citizenship or full 
and guaranteed U.S. citizenship as a permanent part of the 
United States.
    Now we have a moral obligation to deliver, finally, to the 
Americans of Puerto Rico the blessings of liberty and democracy 
which General Miles proclaimed to have brought upon arrival of 
the United States in Puerto Rico in 1898. This can be 
accomplished through a federally authorized status referendum 
in 1998 as provided in the United States-Puerto Rico Political 
Status Act, H.R. 856.
    I am very proud to be the cosponsor of this legislation 
along with Mr. Miller.
    I yield to him for an opening statement.

STATEMENT OF THE HON. GEORGE MILLER, A U.S. REPRESENTATIVE FROM 
                           CALIFORNIA

    Mr. Miller. Thank you, Mr. Chairman.
    I ask unanimous consent that my statement be placed in the 
record, and I will yield to Carlos Romero-Barcelo of San Juan 
for the purpose of an opening statement, and then my 
understanding is we will go to the questions.
    [The statement of Mr. Miller follows:]

 Statement of Hon. George Miller, a U.S. Representative from California

    We are here this morning to receive testimony from the 
three political parties in Puerto Rico as well as the 
Administration regarding H.R. 856, the United States-Puerto 
Rico Political Status Act.
    This issue and its resolution is of great importance not 
only to the 3.4 million U.S. citizens in Puerto Rico but to All 
of us as Americans. It tells us that this Congress has a moral 
obligation to seriously consider all aspects surrounding 
status. This bill will mandate that a vote be taken in one 
year's time to decide a political status option for the future. 
The options in the bill are between the current status of 
commonwealth, admittance into the union as the 51st state, or 
an independent nation.
    This is not a symbolic exercise. We can not demand a vote 
by Federal law and then refuse to carry out the wishes of the 
voters. If you are not willing to offer commonwealth, 
statehood, or independence, then we must not proceed further 
with this bill. To the voters of Puerto Rico I pledge that I 
will do all that I can to make sure that what is written into 
law will become reality if you so chose and within a reasonable 
transition period.
    As many of you know I was not a cosponsor of similar 
legislation last year, I am however, a cosponsor of H.R. 856 
because important changes have been made. A major concern is 
that the political parties have the opportunity to submit what 
they believe to be appropriate definitions for their status 
option. A request went out from Chairman Young and myself, and 
I expect to see definitions at the end of the month. These will 
be given serious consideration and Congress will ultimately 
determine the definitions.
    During the hearing and mark up process, I will address the 
transition time frame for I believe the ``minimum of 10 years'' 
now in the bill is far too long. The voters of Puerto Rico 
deserve to know that we are serious in offering this status 
plebiscite, and that the transition to a new status, should 
that be chosen, will occur expeditiously.
    I want to commend my colleagues, Chairman Young and 
Resident Commissioner Romero-Barcello for keeping this 
important issue before us. I also serve on the Economic and 
Education Opportunities Committee with Carlos where he has 
taught me much about the way education programs are extended in 
Puerto Rico.
    I thank all those here this morning and look forward to 
what I'm sure will be a lively and enlightening debate.

    The Chairman. The gentleman from Puerto Rico is recognized.

STATEMENT OF THE HON. CARLOS A. ROMERO-BARCELO, A U.S. RESIDENT 
                 COMMISSIONER FROM PUERTO RICO

    Mr. Romero-Barcelo. This morning I got up and looked out 
the window and saw it was snowing; and I commented to my wife, 
joking, perhaps that this was an omen to have a hearing on the 
status of Puerto Rico.
    I would like to begin my remarks today by commending you, 
Mr. Chairman, for your initiative in scheduling this hearing of 
H.R. 856, the United States Puerto Rico Political Status Act, 
and for your commitment to the force of government in ending 
the disenfranchisement of the 3.8 million U.S. citizens of 
Puerto Rico.
    I want to thank our Ranking Minority Member, Mr. Miller, 
for his efforts to have the opportunity to decide freely, 
without ambiguity and decisively what the island's political 
relationship with the 50 States should be. The leadership on 
this issue has been instrumental in allowing us to reach the 
point where we are today.
    Last, but not least, I want to publicly thank the 80 
Members from Congress on both sides of the aisle who 
cosponsored this legislation. Their support is certainly 
appreciated and needed.
    Mr. Chairman and fellow Members, it was almost 100 years 
ago that in 1898 Spain ceded Puerto Rico to the United States 
at the end of the Spanish-American war. In 1917, Puerto Ricans 
became U.S. citizens, a citizenship we have cherished and 
valued ever since and a citizenship that we have defended with 
our lives and with our blood.
    Then, in 1952, the island adopted a local Constitution and 
gave us a name of the Commonwealth of Puerto Rico, a purely 
cosmetic change that did not in any way affect the island's 
status as an unincorporated territory of the United States, 
subject to the authority and powers of Congress under the 
territorial clause of the Constitution. In international terms, 
Puerto Rico remained a colony.
    Many of the advocates for commonwealth have testified in 
the congressional hearing on March 4, 1950, that the proposed 
changes to the island's status, quote, ``did not change the 
fundamental conditions of Puerto Rico's nonincorporation and 
only permitted Puerto Rico to develop its own self-
government.''
    Since that moment, a former Chief Judge of the Supreme 
Court and member of the Puerto Rico Constitutional Assembly and 
one of the legal architects of the Commonwealth commented, even 
after 1952, Puerto Rico clearly continued suffering colonial 
status; and he said Puerto Ricans have the distinction of 
having the longest history of colonialism in the whole world. 
What a sad distinction to be commended.
    There is a famous Chinese saying that a journey of a 
thousand miles must begin with a single step. But to reach the 
destination a traveler must be headed in the right direction.
    H.R. 856 is not only the most important step we have taken 
in this journey to resolve the disenfranchisement of the 
citizens of Puerto Rico, it is also the first measure affecting 
self-determination to come before the House since the Alaska 
and Hawaii admission acts of the 1950's.
    I have devoted most of my adult life to leading my people 
in this long journey. As former Mayor of San Juan, Puerto 
Rico's capital city, Governor and now Member of Congress, I 
have heard my peo-

ple's voices and shared their dreams and aspirations. These 
voices resonate loudly in the island, although to most 
Americans living in the continental United States they might 
seem as distant echoes, reflecting the deep unease and 
disenchantment with the current relationship that would deny 
them equal treatment in Federal education programs that they 
desperately need to succeed in today's competitive world.
    Young couples ask me why they have to move to the States in 
order to search for opportunities that are not available in 
Puerto Rico.
    Veterans who have fought in all of the Nation's wars in 
this century ask me why they cannot vote for the President 
that, as commander-in-chief, may tomorrow also send sons and 
daughters to fight and die. The elderly ask about support 
programs that are less than if they resided in New York, 
Illinois, California, Florida, or any State of the Union.
    I have heard a mother ask why her son died in Vietnam and 
gave his life for a country that denies her and her 
grandchildren the right to participate on equal terms.
    The answer to these questions is clear. We are unequals 
because we are not partners. We are unequals because we are 
submerged in a colonial relationship in which our economic, 
social and political affairs are controlled to a large degree 
by a government in which we have no voting influence and in 
which we do not participate.
    We are unequals because we cannot vote for the President of 
the Nation of which we are citizens and because we do not have 
a proportional voting representation in the Congress that 
determines the rules under which we conduct our daily lives and 
the rules that influence and determine our future.
    Mr. Chairman, this great Nation of ours, the example and 
inspiration of democracy throughout the world, inspiration in 
the peaceful revolt in Tiananmen Square and the revolt of 
Poland against Communism, revolt in Russia, the Soviet Union 
against Communism and other nations of Eastern Europe and 
throughout the world, cannot continue to uphold a policy that 
denies political participation and disenfranchises 3.8 million 
of its own citizens. We cannot continue to hide our heads in 
the sand like ostriches and pretend nothing is happening. The 
lives and well-being of 3.8 million U.S. citizens is at stake 
here. Their dignity and democratic heritage is the issue.
    I am encouraged by the fact that we have been able to 
gather so much bipartisan support for this legislation in so 
little time. As a matter of fact, Senators Bob Graham and 
Senator Larry Craig will introduce a similar version of this 
bill later. The initial support in the Senate seems to be 
growing, to be as strong and bipartisan here in the House.
    Mr. Chairman, we are more than halfway through the 1990's, 
a decade that the United Nations General Assembly declared to 
be the international decade for the eradication of colonialism. 
Next year, Puerto Rico will commemorate 100 years as a U.S. 
colony. Should we celebrate or should we mourn? Will we see a 
silver lining in the sky by 1998 or will we be seeing more of 
the same?
    The United States cannot seek to promote and at times 
enforce democracy elsewhere in the world while it relegates 3.8 
million of its own citizens to an indefinite second-class 
status, disenfranchised, discriminated against and unable to 
exercise the most basic right in a democracy, the right to vote 
and participate in its government. To ignore the situation in 
Puerto Rico is to betray the spirit of our democratic values 
and heritage.
    Mr. Chairman, I feel honored with having the opportunity to 
find myself in the center of this important process. Once 
again, I want to thank you for your lead and your vision in 
filing this bill and for holding this hearing. And I look 
forward to the testimony of our distinguished panel.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Governor. Thank you for your 
eloquent statement.
    At this time, I would like to call the first panel up.
    For the other members, your statements, by unanimous 
consent, will be submitted for the record at this time, because 
I have--in all due respects, I wanted to try to get this thing 
moving along because of the other members--we may have a vote 
here after while.
    The Honorable Dan Burton, Luis Gutierrez, Bill McCollum, 
Jose Serrano, Peter Deutsch, Nydia Velazquez. They all are 
there? Everybody there but Dan Burton. All right.
    Mr. Miller. Mr. Chairman.
    The Chairman. Yes, sir.
    Mr. Miller. I would ask unanimous consent that at the end 
of their testimony those members of this panel who desire to 
sit with the Committee be allowed to do so. I know some of them 
have scheduling conflicts, but some of them expressed a desire 
to do to.
    The Chairman. Without objection, so ordered.
    Luis, I believe we will go right down the line, if we can 
do that, in the way I called you out. Dan Burton is not here, 
so we will go with you first.
    Mr. Gutierrez. I am sorry, Mr. Chairman?
    The Chairman. You are up.

 STATEMENT OF HON. LUIS GUTIERREZ, A U.S. REPRESENTATIVE FROM 
                            ILLINOIS

    Mr. Gutierrez. Thank you very much, Mr. Chairman. Chairman 
Young, Congressman Miller, distinguished colleagues, 
distinguished witnesses, I wish to begin by expressing my 
sincere gratitude to Chairman Young and the members of the 
Committee for allowing me the opportunity to participate in 
this hearing today. In a democratic society, we must allow for 
differences of opinion, even strong differences of opinion, to 
be truly expressed and freely discussed in search of truth.
    As a Member of Congress of Puerto Rican origin, and as a 
Member of Congress with a large Puerto Rican constituency, I 
feel it is my duty to participate in the discussion about the 
future of Puerto Rico and the future relationship of Puerto 
Rico and the United States. The outcome of these discussions 
will directly affect the lives of many of my constituents.
    As you know, Mr. Chairman, I strongly favor for Puerto Rico 
the status we in this country celebrate every 4th of July, the 
status that allows us to enjoy the benefits of our 
Constitution, that allowed us to write and to adopt our own 
Constitution in the first place, the status we have enshrined 
in the Declaration of Independence, the status of independence, 
the inalienable right of all people on earth.
    I also fully respect yet another inalienable right, the 
right of a people to self-determination. Therefore, I have 
never sought to impose my views on the people of Puerto Rico.
    Mr. Chairman, the time to resolve the colonial situation of 
Puerto Rico is now. The time for decisive action on this matter 
is long overdue. This is a situation that should never have 
arisen.
    In 1898 American troops invaded Puerto Rico, a non-
combatant in the Spanish-American War. This could have been 
done in the long-held American anti-colonial tradition, to rid 
the island of any Spanish military and turn the island over to 
its rightful owners, the Puerto Rican people. Unfortunately, 
the United States not only invaded Puerto Rico, it occupied it 
and annexed it.
    In 1917, while saying that this action did not constitute 
an offer of statehood to Puerto Rico, the U.S. granted U.S. 
citizenship to Puerto Ricans. You know only too well the rest 
of the story.
    Mr. Chairman, at this time I would like to ask that the 
rest of my testimony be submitted for the record. I would just 
like to make the following points.
    Mr. Chairman, I think that as we enter this debate and 
discussion about a future Puerto Rico and its relationship to 
the United States we need to ensure that all the different 
political perspectives and parties and their opinions be 
offered full and fair consideration--and we need to ensure that 
we reach consensus, Mr. Chairman, so that no one feels that 
this process is a process which favors one status or political 
option over another as it is presented to the people of Puerto 
Rico.
    In that vein, Mr. Chairman, let me make a few suggestions. 
Number one, Mr. Chairman, I think that if Puerto Rico has a 
colonial relationship with the United States and you are going 
to go into a process of decolonization, then we must 
distinguish between American citizenship, which was offered to 
the people of Puerto Rico and granted to the people of Puerto 
Rico, and nationality. Who are the nationals of the island of 
Puerto Rico? Who are the nationals of Puerto Rico?
    Let me suggest that because there is a colonial situation, 
that we should do everything possible, Mr. Chairman, to insure 
that all of the nationals, whether they happen to reside on the 
island of Puerto Rico or whether they reside in the continental 
United States be offered the opportunity--all Puerto Ricans be 
offered the opportunity to participate fully, and to vote in 
any process of plebiscite to solve the colonial status of 
Puerto Rico. And let me quickly suggest a quick definition of 
who qualifies as a Puerto Rican national. Those who were born 
on the island of Puerto Rico and the immediate children of 
those born on the island of Puerto Rico.
    I think later on you will hear testimony that will be 
supportive of that definition, because we have a continuing 
migration in Puerto Rico to the island and back. Mr. Chairman, 
I lived on the island of Puerto Rico when my parents returned 
in 1969 after living 15 years in the United States. I returned 
there. I graduated from high school there. I went to college 
there. I returned there once again, Mr. Chairman, to be married 
with my wife Soraida 19 years ago.
    So I too have been going back and forth and back and forth. 
Many Puerto Ricans do that, Mr. Chairman, and many of us are 
interested in being able to participate in deciding the future 
of Puerto Rico.
    Indeed, Mr. Chairman, if we leave it as it is today, 
everybody who goes to Puerto Rico 70 days before the plebiscite 
could register to vote and participate and then leave the 
island anytime thereafter. I think we should look for a more 
expanded franchise, Mr. Chairman, that will allow more of us to 
participate.
    Because of the limitation of time, Mr. Chairman, let me 
just say the following. I think that Don Luis A. Ferre, who was 
here, who has fought valiantly and with distinction for 
statehood for Puerto Rico, should be allowed to see the day 
when Puerto Rico--when there is a vote before this Congress 
should the people of Puerto Rico so request statehood, where he 
can see that day where it is admitted as a State. Let us not 
wait ten years after such a vote. Justice delayed is justice 
denied for Luis A. Ferre and for any of the proponents of any 
of the different options.
    Let us offer the people of Puerto Rico not another opinion 
poll so that we can gauge their sentiment. We think we know 
what their sentiments are on the different status options, Mr. 
Chairman, so I respectfully say to you, Mr. Chairman, and the 
members of this Committee let us make the result of the vote 
self-executing. Let us have respect for the people of Puerto 
Rico. Let us have respect, Mr. Chairman, for our fine 
institution, the Congress of the United States. And should 
statehood win or independence win or free association win, that 
those things can be executed.
    Finally, Mr. Chairman, if you would allow 30 additional 
seconds more, unanimous consent for 30 seconds, I just want to 
quickly speak about independence, Mr. Chairman.
    I think that if we are going to be fair and we are going to 
live in the 21st Century, let us give them, the 
independentistas from Puerto Rico, an option that is not 
burdened, Mr. Chairman, an option that they can go and promote 
among the Puerto Rican people that is not burdened, an option 
that says, you know, maybe Luis's mom and dad and Nydia's mom 
and dad in Puerto Rico can still come to the United States of 
America should there be independence, and maybe they can 
continue to have their citizenship and their rights and their 
Social Security and their military benefits, because they 
fought for them, Mr. Chairman, and they gained them rightfully 
so, and other kinds of economics so that we can build a 
cooperation between an independent Puerto Rico and the United 
States.
    I would like to see an independent Puerto Rico, Mr. 
Chairman, that lives in peace and in harmony and in unity with 
the United States of America. And we should offer them such an 
option that they can go to the people of Puerto Rico and raise 
it among them.
    Mr. Chairman, thank you so much for your indulgence. And I 
submit my complete statement for the record.
    [Statement of Hon. Luis Gutierrez may be found at end of 
hearing.]
    The Chairman. Thank you, Luis, very well done. Bill 
McCollum.
    Mr. McCollum. Thank you very much, Mr. Chairman. I would 
like to request unanimous consent that my statement be 
submitted for the record.
    The Chairman. Without objection, so ordered.
    Mr. McCollum. Thank you.

  STATEMENT OF HON. BILL McCOLLUM, A U.S. REPRESENTATIVE FROM 
                            FLORIDA

    Mr. McCollum. I have to follow a very eloquent statement by 
a native of--at least a person who has a generation going back 
to Puerto Rico and has the immediate blood connection that I do 
not have, but I have a great interest in this bill. As you 
know, I am an original cosponsor.
    I have a very large number of constituents in my district. 
I have perhaps the second largest, something of that nature, 
number of Puerto Ricans in my Congressional district. And I 
have spent a lot of time discussing this issue of statehood, 
independence, and commonwealth with them. I have heard their 
views. I have been to Puerto Rico. I am going down there again 
on April 3 to hold a drug hearing because I am Chairman of the 
Crime Subcommittee, and the drug issue is very important to the 
people of Puerto Rico, as it is to all of us. So I have some 
views. And I just want to express them briefly.
    First of all, I think the idea of making this decision and 
doing it now as this bill that you produced describes and sets 
out is very important. It needs to be done. We need to let the 
people of Puerto Rico speak. It should be their voice. I for 
one believe that they will choose statehood when they vote, but 
they may not. It is their choice to at least give us their 
advice. If they do choose statehood, I think we should grant 
them that statehood, and I think it should be swift and there 
should not be a significant question about it. And there 
shouldn't be any question in their minds when they vote that 
that is the sentiment that most all of us have in Congress.
    Now when I say that I personally favor something, I want to 
make it very clear that this is not my choice. This is the 
choice of the Puerto Ricans, not Bill McCollum and not those of 
us who are from Florida or Minnesota or wherever. But there is 
an advantage to statehood, in my judgment. And let me describe 
a couple of the reasons why I think statehood would be an 
advantage to the Puerto Rican people.
    First of all, Puerto Rico is today part of the United 
States. The Puerto Rican culture is part of what is uniquely 
American. And I think it is understood innately by most of us, 
if not specifically. Yet without statehood, something is 
missing. Every school child in America is taught about the 50 
States. Sure there are the territories, but they are never 
firmly implanted in the mind of a young person as being 
integral to the whole as when thinking of the United States and 
each of the States.
    I personally want to see the day when every school child 
learns about 51 States and thinks of Puerto Rico as much a part 
of the American family as Texas or Minnesota. Puerto Rico, in 
my judgment, will be stronger for this, and our nation will be 
stronger.
    Again, however, my opinion doesn't matter, and the 
plebiscite is the opinion of the people of Puerto Rico.
    And another area that I think that Puerto Rico would 
benefit from would be the economic area. I believe there will 
be an increase in investment and economic growth if Puerto Rico 
becomes a State.
    I think that such things as efforts to get support for 
fighting the war on drugs, which I have been engaged in for a 
lot of reasons, as well as the governor and the officials of 
Puerto Rico and the Puerto Rican people, would be much easier 
in this Congress and with the Executive Branch of the 
government.
    No longer would some people think Puerto Rico simply is the 
gateway for drugs to the U.S. mainland. Instead, people would 
think first, as they should now, of the horrors of the drug 
scourge on the people of Puerto Rico, equal partners in all we 
share and all we do as a nation.
    So I do have a strong opinion, but it is understood, in my 
mind, again, this is a judgment that should be made under this 
bill and would be between commonwealth, independence or 
statehood by the people of Puerto Rico.
    And one thing I want to add in this comment is something I 
am very strongly opposed to. I am very strongly opposed to any 
suggestion--and I have heard it made, not by the Chairman, but 
I have heard it made by other Members of Congress--I am 
strongly opposed to any suggestions that this bill be amended 
to include a condition of statehood on Puerto Rico for adopting 
English as its official language. It is a divisive and a 
destructive proposal.
    English, in my judgment, should be the official language of 
the United States, but no State, be that New York or California 
or Florida or Puerto Rico, should be singled out and told it 
must adopt English as its official language. When and if Puerto 
Rico become a State, if and when English becomes the official 
language of the United States, it will apply to all 51 States, 
to Puerto Rico just as well as everybody else.
    I believe the rights of the Puerto Ricans should be 
respected, the sovereign rights, just as we respect the 
sovereign rights of the other States of the Union and our 
territories.
    So those are my thoughts to you today, Mr. Chairman. I 
support the bill in its present form. I am sure it could be 
modified and improved in some ways, but let's get on with it. 
It is time for the people of Puerto Rico to get a chance to 
voice--one more time. And I believe this is a critical time and 
I believe that they will voice it in favor of statehood. And 
when they do, it is time to bring it back here and take that 
vote in this Congress that will ratify that and make Puerto 
Rico the 51st State.
    [Statement of Hon. Bill McCollum follows:]

  Statement of Hon. Bill McCollum, a U.S. Representative from Florida

    Good morning, Mr. Chairman and members of the committee. I 
want to thank you for the opportunity to give a statement as 
part of your hearings on H.R. 856, the United States-Puerto 
Rico Political Status Act. Chairman Young, I appreciate your 
efforts on behalf of this legislation and I am proud to be an 
original cosponsor. It is certainly my hope to see progress 
made on this legislation in the 105th Congress.
    I have a natural interest in Puerto Rico as there is a 
significant Puerto Rican community in my district. However, I 
have also had the opportunity to visit Puerto Rico in my 
capacity as the Chairman of the Crime Subcommittee on drug 
interdiction matters. I will actually be returning to Puerto 
Rico in about a month for hearings with the Crime Subcommittee. 
Meeting people both in my district and in Puer-

to Rico has given me the opportunity to hear many points of 
view on the issue of Puerto Rican statehood. Although there is 
a range of views, it is clear that we should allow the people 
of Puerto Rico to decide their fate.
    As we know, H.R. 856 would require a plebiscite in Puerto 
Rico where the people of Puerto Rico would have the ability to 
decide the future of their beautiful island. The choices would 
include Puerto Rican independence, U.S. statehood or 
maintaining the status quo of commonwealth government under the 
authority of the U.S. Congress. A clear majority, as opposed to 
only a plurality, would be needed for definitive action. If 
statehood or independence were chosen, Congress would then have 
to affirmatively enact legislation in order to pursue the 
option. If commonwealth status receives a majority, or if no 
majority is achieved, then the plebiscite is revisited four 
years later.
    Mr. Chairman, under a plebiscite conducted pursuant to this 
bill, I am convinced the people of Puerto Rico would choose 
statehood. Puerto Rico is part of the United States. For years 
the rich Puerto Rican culture has been part of what is uniquely 
American. Yet, without statehood, something is missing. Every 
school child in America is taught about the 50 states. Sure, 
there are territories, but they are never as firmly implanted 
in the mind as being integral to the whole when thinking of the 
United States. I want to see the day when every school child 
learns about 51 states and thinks Puerto Rico is as much a part 
of the American family as Texas or Minnesota. Puerto Rico will 
be stronger for this. Our nation will be stronger. However, my 
opinion would not matter in the plebiscite and I believe the 
people of Puerto Rico need the option to choose.
    The commonwealth status was never intended to be a 
permanent status. I realize that some will try to claim 
otherwise, but I respectfully disagree. Furthermore, we must 
remain flexible in improving upon the status quo. If a majority 
of Puerto Ricans want statehood, then we should facilitate 
that.
    Certainly there is the possibility that the voters of 
Puerto Rico will choose to keep the commonwealth status. That 
is fine, and there will be chances in the future to change this 
decision, but the relationship between Puerto Rico and the U.S. 
has been changing of late. It is time to reassess the wants and 
needs of the island, even if it is still the desire to remain a 
commonwealth.
    Assuming that statehood is the path chosen, I believe that 
Puerto Rico would enjoy increased investment and economic 
growth as investors would be assured of economic and political 
stability in the region. Under statehood, Puerto Ricans would 
be guaranteed all the rights, privileges and responsibilities 
of U.S. citizens. Furthermore, support for such efforts as 
fighting the war on drugs would be easier to achieve. No longer 
would some think of Puerto Rico simply as the gateway for drugs 
to the U.S. mainland. Instead, people would think first (as 
they should now) of the horrors the drug scourge is bringing to 
the people of Puerto Rico--equal partners in all we share and 
all we do as a nation.
    Independence would not bring these gains, but there may be 
advantages that the people of Puerto Rico would rather have. 
Regardless, we need to work on this situation to bring 
resolution to the issue. Past plebiscites have not been 
especially helpful, mainly because the unconstitutional option 
of an enhanced commonwealth was offered. This time, a clear 
choice put to the voters in Puerto Rico should provide a clear 
result.
    One thing I strongly oppose, Mr. Chairman, is any amendment 
to this bill conditioning statehood on Puerto Rico adopting 
English as its official language. This is a divisive and 
destructive proposal. English should be the official language 
of the United States. But no state, be that New York, 
California, Florida or Puerto Rico, should be singled out and 
told it must adopt an official language. If and when Puerto 
Rico becomes a state, and if and when English becomes the 
official language of the federal government, it would apply in 
Puerto Rico, just as it is in the other 50 states. The 
sovereign rights of Puerto Ricans should be respected in the 
same manner as all states already admitted into the Union.
    Mr. Chairman, I want to commend you for the patience you 
have had with this legislation. I remember that things got a 
little difficult with it at the end of the 104th Congress when 
it looked like movement was possible. I strongly urge you to 
report H.R. 856 favorably to the full House in the very near 
future. I will give you my full support in getting it scheduled 
for House floor action. Again, thank you for holding these 
hearings.

    The Chairman. Thank you, Bill. I thank you--and again, an 
excellent job. I see we have been joined by Mr. Burton, and I 
know he has other things on his mind right now. Mr. Burton, if 
you would like to go forth, you have got five minutes.
    Mr. Burton. Well, thank you very much, Mr. Chairman. I 
apologize to my colleagues for interrupting these hearings. I 
will have a more complete statement I would like to submit for 
the record.
    The Chairman. Without objection.

   STATEMENT OF HON. DAN BURTON, A U.S. REPRESENTATIVE FROM 
                            INDIANA

    Mr. Burton. Mr. Chairman, I want to thank you for allowing 
me to testify regarding H.R. 856, The United States-Puerto Rico 
Political Status Act. As a senior member of the International 
Relations Committee, I am a cosponsor of this bill, and I have 
worked with Chairman Don Young and the Subcommittee Chairman 
Elton Gallegly to help them put together a fair and balanced 
bill. This bill is based on complete and open dialog with all 
the affected parties, and is the result of approximately 30 
changes, 30 changes, from H.R. 3024, which was introduced in 
the 104th Congress.
    The status quo in Puerto Rico cannot be maintained. The 
people of Puerto Rico have lived for far too long under a 
colonial status with second-class citizenship.
    This is not a statehood bill for Puerto Rico, as some 
people seem to believe. It is not a pro-independence bill. It 
is not a pro-commonwealth bill. This is a balanced bill that 
allows the Puerto Rican people to exercise their right to self-
determination. It lets the people of Puerto Rico make an 
informed choice about their political future.
    We have compromised with all parties concerned by changing 
from a two-ballot format to a three-ballot format, thereby 
giving the citizens of Puerto Rico three options, namely 
statehood, separate sovereignty, and commonwealth, and giving 
the options equal positioning.
    I have concerns with this change, given the inherent legal 
differences among the three options. The purpose of the 
previous two-ballot format was to make certain the voters 
understood that two of the options were for a new and permanent 
status consistent with full self-determination.
    Those two options, statehood and separate sovereignty, 
would complete the decolonization process consistent with the 
commitments the United States made to the people of Puerto Rico 
and the United Nations when local constitutional government was 
established in 1952.
    The option to continue the current commonwealth structure 
of local government was presented separately on the ballot 
under H.R. 3024 because it is not a constitutionally guaranteed 
or permanent status. Therefore I am afraid it could be 
misleading to the voters to present the less than full self-
governing commonwealth option as a co-equal status with the 
full integration or separate nationhood status.
    However, Mr. Young listened to the concerns of the 
political leaders of all parties in Puerto Rico, as well as the 
concerns of his colleagues in the Congress, and granted the 
change from a two to a three-ballot format. This example of 
leadership and show of good faith has not been reciprocated by 
opponents of this legislation. Disingenuousness, deception and 
in some cases outright falsehoods continue in their rhetoric 
and in their deeds.
    This is unfortunate, because it only adds confusion to the 
issue. This confusion has disenfranchised voters and has 
delayed the process of Puerto Rican self-determination.
    Mr. Chairman, I would like to end with the following 
observation. I have intentionally not publicly advocated for a 
particular outcome with respect to Puerto Rican status. My 
strong belief in a free people exercising their right to self-
determination remains unwavering. The complexities of the 
history and uniqueness of the island of Puerto Rico do not 
change that fundamental belief. The citizens of Puerto Rico 
should have their day at the ballot box without duress and 
without any impediment to their ability to act out their own 
collective will.
    Puerto Rican people also have a great responsibility in 
understanding their options and choosing the option they most 
agree with. They need to understand that there is no free 
lunch.
    If they choose independence, the United States will deal 
with them as a partner in peace and a strong ally. If they 
choose statehood, we will add another star to our flag and 
welcome them officially as an equal partner into the greatest 
union known in the history of mankind. But keep in mind that 
with that benefit comes a great responsibility. If the Puerto 
Rican people choose to maintain commonwealth status, turning 
away from self-rule, we as a Congress will maintain the supreme 
administrative control of the island.
    These are the options for the citizens of Puerto Rico to 
choose from. We as a Congress must facilitate the process in a 
fair manner. That is exactly what H.R. 856 seeks to accomplish 
and is why I am a strong supporter and cosponsor of the bill.
    Thanks again, Mr. Chairman, for affording me the 
opportunity to testify today before you and the Resources 
Committee.
    [Statement of Hon. Dan Burton follows:] ???
    The Chairman. Thank you, Dan. And I appreciate your showing 
up, even if you are late. I know you have got a lot more 
responsibilities.
    Jose Serrano, New York.

STATEMENT OF HON. JOSE SERRANO, A U.S. REPRESENTATIVE FROM NEW 
                              YORK

    Mr. Serrano. Thank you, Mr. Chairman, for this opportunity. 
I want to thank you and commend you for your work on this bill. 
I want to commend my colleague George Miller, the ranking 
member of the Committee, for his work and for his support.
    The reason I support this bill, Mr. Chairman, is because I 
believe that this bill brings about what needs to be brought 
about, a legislative confrontation between Puerto Rico and the 
Congress of the United States, a legislative confrontation that 
will allow the people of Puerto Rico to fully understand 
whether in fact the United States is willing to take them in as 
a State or whether it wishes to begin a process to let them go 
as an independent nation.
    It is interesting to know that since 1898 that question has 
truly never been asked in Puerto Rico. We were not asked, as 
Mr. Gutierrez said, whether we wanted to be part of this 
country. We were simply invaded. And that invasion is the 
longest running invasion in the world at this moment. It has 
gone on 99 years.
    In 1952, the people in Puerto Rico were asked do you want 
to become a commonwealth, or do you want to stay the way you 
are. I was seven years old and I could have answered that 
question. That was an easy one then. The question now is: in 
today's world, does the United States want to continue to ask 
that question, or do our Congress and our government want in 
fact to say to Puerto Rico what they are saying to the world? 
Do we really have the ability to continue to preach political 
changes and changes in government and in systems and in 
approaches in the world if we will not allow the people of 
Puerto Rico the opportunity to talk about their future?
    Now, I have been criticized for being very clear, I think, 
on what I think the future should be. The future should be a 
change from the present. The present status, to me, is 
unacceptable. The present status perhaps at one time served a 
purpose, an economic purpose, a political purpose. At one time 
it was the only game in town.
    The world has changed and this Congress has changed, and 
that is, perhaps, why you are sponsoring this bill, because 
this Congress has changed in some ways over times.
    I believe that Puerto Rico is a colony. I didn't arrive at 
the usage of that word lightly. I wasn't raised in a family of 
``populares'', people who believed in Luis Munoz Marin, but 
then there are people sitting behind me who are 
``independentistas'' who come from families of statehooders. 
And there are people who are ``estadolibristas'' who come from 
families of ``independentistas''. And so it is our situation in 
Puerto Rico and throughout this nation.
    I believe Puerto Rico is a colony for a very simple reason 
that I always attribute to my relationship with my own family. 
I have cousins in Mayaguez and in Bayamon who cannot vote for a 
Member of Congress, who cannot vote for a President, who have 
nothing to say about the way this country treats them. On the 
other hand, they can't a establish relationship with Columbia 
or Cuba tomorrow morning or refuse to go to war or trade with 
Mexico on their own. They can't invite the Japanese in to do 
anything that they might want to do because we don't allow it.
    Therefore, if they are not free to be a sovereign nation 
and they are not equal as a State, there is only one thing left 
to be, and that is a colony. We may deny it. It is good 
politics for us to deny it, but that is the truth. That is the 
case.
    Now if we take the 1993 results, which we will hear a lot 
about here today, and say there was a vote in '93 that was for 
commonwealth, well, let me say two things. First of all, no 
option got a majority, and the options were independence, 
statehood or a different, enhanced form of the current 
commonwealth status. Well, on the island I could have voted for 
either of the three, because it was a change from the present. 
My point is that everyone who participated in the '93 
plebescite in Puerto Rico voted for a change. No one voted for 
the status quo. So I feel that it would be a problem for us, 
although we may do it, to present to the people of Puerto Rico 
the status quo, because I think the status quo is colonial in 
nature and therefore improper for us to present.
    Some may think this is too extreme, but when Lincoln was 
trying to deal with the issue of emancipation, I don't think 
slavery was an option on the table. Either doing nothing or 
emancipating, but not reaffirming the present situation at that 
time. I don't think this Congress should reaffirm the present 
status in any way, shape, or form. And I believe that the 
people who support the present status with changes, should 
present before this Congress a separate status which would 
include the changes, but not the present status with changes, 
because the present status is what it is.
    I also want to commend the authors of this bill, because if 
and when this bill passes, you will have accomplished something 
that many of us have wanted to see for years. You will have 
stated in legal terms Puerto Rico's relationship to the U.S. 
And that is a major victory for all of us who have felt that 
the present status in fact, is colonial in nature.
    Therefore, Mr. Chairman, I come before you today in the 
hope that we can in fact pass this bill, that we can have this 
vote on the island, that as we mark 100 years since the 
invasion we get the results from that vote and Congress speaks.
    I realize that the independence people are very courageous. 
They are only have four percent, five, six percent of the vote. 
They will bet that statehood will never be an acceptable option 
for this Congress and they are willing to go to the mat on this 
one.
    The statehooders are very courageous, too, because they 
will take all the heat, all the accusations about what 
statehood will mean to the culture and the language on the 
island.
    I hope everybody else becomes courageous and understands 
that a change is necessary.
    Let me end with this point. Many of you, if not all of you, 
know that I am a very outspoken critic of our policy in Latin 
America, especially toward Cuba. I believe that our country no 
longer has any moral grounds to demand elections in any country 
as long as it won't allow a simple election like a plebiscite 
in Puerto Rico. We may not have the moral grounds any longer to 
demand political changes anywhere if we continue to hold a 
colony in the Caribbean in 1997.
    I was born on the island. I came to the U.S. because of the 
relationship between Puerto Rico and the United States, which 
the created economic situation which sent many of us away from 
home. That is why since 1990 I have said that those who were 
born on the island and those who are children of people born on 
the island should be allowed to vote on this. Not for governor, 
not for mayor, not for sheriff or any other position they may 
create in the future, but to determine the future of the 
country. And if not, at the minimum respect that migration by 
not allowing anyone who was not born on the island of Puerto 
Rican parents to vote in the plebiscite.
    Thank you, Mr. Chairman.
    [Statement of Hon. Jose Serrano follows:]

 Statement of Hon. Jose E. Serrano, a U.S. Representative from New York

    Mr. Chairman, distinguished members of the committee and 
fellow Puerto Ricans who will later address this Committee:
    I want to commend Chairman Don Young, and Ranking Member 
George Miller and all the members of this Committee for the 
bipartisan effort to develop and consider this important 
legislation. Today is a hopeful day in the history of the 
relationship between Puerto Rico and the United States. Today 
we once again begin in this House the formal proceedings to 
establish a process leading to full self-government for Puerto 
Rico.
    Thank you for considering an issue that is of critical 
importance. As one of the original cosponsors of this bill, I 
come before you today to speak in support of legislation that 
is very important to me both as a Puerto Rican, and as a 
citizen of this Nation. This Act provides to the Puerto Rican 
people a right that we as Americans cherish dearly and seek to 
share with peoples around the word--the fundamental right of 
self-determination.
    Ever since Puerto Rico became a part of the United States 
after the Spanish-American War in 1898, the Puerto Rican people 
have had a dual identity--they are an island nationality in the 
Caribbean, and a component of the American nation. Although we 
have been in this relationship for 99 years, the fact remains 
that Puerto Ricans did not choose to become part of the United 
States. For better or worse, the incorporation of Puerto Rico 
in the United States was unilaterally imposed.
    The people of Puerto Rico are citizens of this Nation by 
birth, and have fought and died in all the American wars of 
this century, from World War I to Operation Desert Storm. If 
these brave young men and women are important enough to serve 
our national interest, they surely are important enough to 
demand and receive the respect of this Congress in their 
pursuit of political self-determination.
    Out of self-respect, and out of respect for our cherished 
democratic principles, we must recognize the right of the 
people of Puerto Rico for self-determination. Otherwise, the 
basic tenets of our Nation have lost all real meaning.
    Today Puerto Rico is a colony. This means that we accord to 
Puerto Rico a citizenship with fewer attributes than that of 
other Americans. In addition, a colonial status lacks the 
ability to deal freely with other nations and to exercise full 
sovereignty. A quick study of this makes it clear that the 
Puerto Rican people are second class citizens. If I were to 
move tomorrow to the island, I would lose my right to vote in 
the election of the President of the United States, two U.S. 
senators and a voting Member of Congress. On the other hand, 
the government of Puerto Rico has no autonomy on international 
trade and immigration laws, and cannot refuse to go to war in 
the event the United States declares it. In other words, we are 
neither a full partner in the American nation, or an 
independent sovereign state. So, there is no doubt in my mind 
that Puerto Rico is a colony, even though some confusion 
exists, internationally and in Puerto Rico, about the official 
relationship of the United States with Puerto Rico.
    Since 1898 the Puerto Rican people have had three 
opportunities to express their opinion as to what sort of 
relationship should exist between Puerto Rico and the United 
States.
    In 1952 the people of Puerto Rico were invited either to 
enter into a Commonwealth relationship with the United States 
or to retain their then current status. In this instance, the 
Puerto Rican people ``chose'' what was offered to them. 
Independence and statehood were not options.
    In 1967 a plebiscite was held in Puerto Rico on three 
political status alternatives: independence, statehood and a 
continuation of commonwealth status. Unfortunately, the 
plebiscite legislation was considered unfair by a substantial 
percentage of the electorate. After a contentious plebiscite 
marred by a substantial boycott on the part of proponents of 
independence and statehood, the Commonwealth option prevailed.
    In 1993, the Government of Puerto Rico conducted a 
plebiscite initiated under local law on Puerto Rico's political 
status. In it, none of the three status propositions received a 
majority of the votes cast. However, results showed that almost 
everyone wanted to change the existing status.
    The final tally of the plebiscite results reveals that out 
of nearly two million registered voters, 1.7 million, (73.5%) 
of them participated. The results were 826,326 votes for a 
commonwealth (48.6%), 788,296 for statehood (46.3%), and 75,620 
for independence (4.4%).
    Unfortunately and shamefully, up to now we have not abided 
by the right to self determination for the People of Puerto 
Rico. Although we have deplored colonialism and paternalism by 
other nations, we continue to practice it ourselves in our 
treatment of Puerto Rico. I can only hope that with this 
legislation we will finally end colonialism in Puerto Rico.
    The Puerto Rican people are anxious for this opportunity to 
freely, fairly and collectively determine the political status 
of their island. And if I may say so, Mr. Chairman, there could 
not be a more appropriate time for this vital democratic 
exercise of self-determination than right now, going into the 
millennium.
    Section 4, paragraph (a) of this bill, the ``United States-
Puerto Rico Political Status Act,'' provides, and I quote, ``A 
referendum on Puerto Rico's political status shall be held not 
later than December31, 1998.''
    This commitment is good not only for the people of Puerto 
Rico, but for the credibility of American democracy in this era 
of stunning changes. As we in the United States strive to 
encourage and foster these developments around the world, it is 
es-

sential that we hold true to our principles at home and provide 
the people of Puerto Rico the opportunity to exercise full self 
determination and decide, a final political status of our 
island.
    I would like to express my deep satisfaction with the fact 
that we are holding this hearing today. I believe that there 
is, in sum, one great Puerto Rican community. It encompasses 
those who reside on the island, and those who live in the 
United States. I also believe that there is no question about 
the effect our status has on those Puerto Ricans who reside on 
the fifty states, in terms of their own well being, as well as 
in terms of their future prospects for a return to the island. 
Moreover, the influence Puerto Ricans in the fifty states can 
wield, no doubt, will be an important factor in moving the 
plebiscite process forward in Congress.
    Therefore, in due time I will propose an amendment to H.R. 
856 that will make any person that was born in Puerto Rico and 
is not residing on the island of Puerto Rico, eligible to vote 
in the 1998 referendum.
    As you all know, since I was elected to Congress in March 
of 1990, I have been advocating for this nonresident vote 
because I am convinced that the right of a people to determine 
its political status is so fundamental that Congress needs to 
give all Puerto Ricans the opportunity to voice their opinions 
on the issue. Just because a Puerto Rican leaves his or her 
homeland to go to the U.S. mainland for economic or educational 
reasons should not disqualify them to vote in the referendum. 
While former Puerto Rican residents, in general, are not 
allowed to vote in local elections, the issue of self-
determination is a unique and important franchise that warrants 
broader voter eligibility. Unlike general elections which are 
purely related to local issues, a plebiscite to determine the 
final political status of a country will undoubtedly affect 
both Puerto Ricans living in Puerto Rico and those living on 
the U.S. mainland.
    It is my hope that we can settle this issue as soon as 
possible because it would be a shame for this country to 
continue Puerto Rico's colonial status. This bill will afford 
all Puerto Ricans an effective, viable process of self 
determination. As a Puerto Rican, I say, ``Let us decide this 
issue once and for all,'' and as an American Congressman I can 
say, ``Shame on us that we still have a colony in 1997.'' And, 
so, let me say that it is in the interest of the United States 
to settle this issue, settle it clearly and leave no question 
unanswered as to the self-determination rights of Puerto Rico, 
with the participation of those of us that reside outside of 
the island.
    This issue is one that touches the heart as well as the 
mind of every Puerto Rican, whether they are on the island or 
somewhere in the 50 states. In Spain, Mexico, the Armed Forces, 
etc. they seek information and they are watching closely the 
decisions we make. It is clear to me that all of us, regardless 
of where we live and where we stand in terms of the final 
outcome, feel that the time has come for true self-
determination. We are politically mature. Ninety-nine years as 
an American colony and 400 years as a Spanish colony are more 
than enough.
    My friends we have no credibility in the world if we fail 
to practice what we preach, if we continue to bear the shame of 
denying a people the basic human right of political self 
determination.
    I applaud you all here today because you are taking the 
issue of the status of Puerto Rico seriously, so the 3.8 
million American citizens in Puerto Rico and over 2.7 million 
Puerto Ricans on the mainland can fulfill their right to self-
determination. I earnestly encourage you to forcefully seek 
passage of this bill so the colonial status of the United 
States citizens of Puerto Rico can end, and so we may honor 
their choice of a future, within this Nation or among the 
nations of the world.

    The Chairman. Thank you. I am in awe. We have had an 
excellent panel here.
    Peter, you are up next.

  STATEMENT OF HON. PETER DEUTSCH, A U.S. REPRESENTATIVE FROM 
                            FLORIDA

    Mr. Deutsch. Thank you, Mr. Chairman. And I also join in 
praise of you and the ranking member for this legislation. It 
is, I think, brilliant legislation besides important 
legislation.
    What it does as its premise, I think, is important for 
everyone both in this country and in Puerto Rico to understand. 
And the premise is that the present status is not a permanent 
status. That is the working principle. And I think that is 
something worth repeating and worth stating, because without 
this legislation, the il-

lusion of permanent status under commonwealth can continue. I 
think it is factually not a permanent status. And anyone who 
holds that position is just wrong. And this legislation by its 
introduction, hopefully by its passage, has the United States 
Congress make that statement. And it is no longer a debatable 
point.
    And I will join Congressman Burton's comment that I don't 
live in Puerto Rico. I wasn't born there. I obviously have a 
concern over its future for a variety of reasons, including 
being the Member of Congress on the mainland closest to Puerto 
Rico. But I think that the acknowledgement that permanent 
status is only in the options of statehood or independence is 
significant.
    And the way the bill is set up, if commonwealth is voted 
for, that there will be by definition another plebiscite and 
another plebiscite and another plebiscite by this legislation 
until a permanent status solution is determined by the people 
of Puerto Rico. And, you know, that is, number one, I think, a 
thing that is significant.
    The second thing I think which is significant is really the 
final--the challenge that you have as a Committee to work out 
the final language in terms of that plebiscite itself. I think 
that that issue is clearly a critical issue which I believe 
this Committee will be able to do. It is not going to be an 
easy task, but I think it is a task that reasonable people--at 
the end of the day you are not going to make everyone happy on 
every part of it.
    But I think that in watching the election and the 
plebiscite, the recent plebiscite, I think it is clear that not 
only was the election, as my colleague Mr. Serrano said, all 
sides were talking about change, but I think what is clear for 
someone 1000 miles away looking at commercials or reading some 
of the print ads is that there was misinformation. There were 
issues that were presented in terms of definition that just 
were not accurate. And there are factual premises that need to 
be stated. Whether people like them or not, they need to be 
stated.
    If Congress is not willing to define independence, for 
instance, the way Mr. Gutierrez suggested, then that ought to 
be stated. You know, it is an illusion to present it in a way 
that it is just not a reality. I mean, it is not--we don't want 
the debate to be a demagogue debate. We want it to be a factual 
debate. If Congress is willing to do that, then it ought to be 
presented as that as an option within the facts presented. But 
that--forcing ourselves in this process to come up with those 
languages, I think, is very, very significant as well.
    The last thing I would mention, because those of us who 
have been involved in this legislation know this is what 
stopped the legislation the last time, which is the issue of 
language. I think it is an issue that we need to speak about 
and confront and talk about. Again, for anyone who has followed 
these issues, it is just not appropriate for the Congress to be 
dictating to a State what it is--whether that is the capital of 
the State, whether that is another issue, which in the history 
of this country has been debated on and off. It is just not 
appropriate.
    And let me also make clear on the language issue, I think 
that English ought to be taught and in Puerto Rican schools 
whether or not Puerto Rico is a State, whether Puerto Rico is a 
State, a commonwealth or independent. I think that the people, 
the government of Puerto Rico is doing a disservice to the 
children of Puerto Rico in not making it bilingual. In many 
ways, the United States government in many parts of this 
country is doing a disservice to many citizens by not 
encouraging second languages.
    In 1997 to not acknowledge--and particularly if you have 
the vantage point of South Florida where South Florida truly is 
the capital of the Caribbean and South America. I mean, we 
truly are. It is not a cliche. It is a physical reality in 
terms of corporate headquarters, in terms of flight paths, in 
terms of a variety of issues. We see it on a daily basis in our 
community. And that issue, though, is something that, I think, 
needs to transcend--I was very happy to hear Mr. McCollum's 
comments this morning. And I hope that all of his Republican 
colleagues and all the Chairman's Republican colleagues join 
him in the efforts to take away that issue as a stumbling block 
to this legislation.
    [Statement of Hon. Peter Deutsch follows:]

  Statement of Hon. Peter Deutsch, a U.S. Representative from Florida

    Mr. Chairman, members of the Committee on Resources, I want 
to thank you for this opportunity to testify in support of H.R. 
856, the United States-Puerto Rico Political Status Act. As a 
representative from a state with a strong ties to Puerto Rico 
and a vibrant Puerto Rican community, I am encouraged by the 
progress you have made on this issue, both in drafting a fair 
and balanced bill and in educating Members of Congress on the 
importance of the future status of Puerto Rico.
    For too long, Congress has failed to appropriately and 
acceptably address the future political relationship between 
Puerto Rico and the United States. As a possession of the 
United States subject to the authority of Congress under the 
Territorial Clause, Puerto Rico and its future status is our 
responsibility and should be dealt with promptly. For this 
reason, it is not sufficient for us to abdicate our federal 
responsibilities with regards to Puerto Rico, rather we must 
work to define the options they may pursue.
    Many of those who are against H.R. 856 argue that the 
status issue was decided by the plebiscite in 1993. As this 
Committee is aware, however, the definition of commonwealth 
appearing on that ballot was both unworkable and 
unconstitutional. It promised unrealistic benefits for the 
people of Puerto Rico, nonetheless received just a slim 
plurality of the vote. Wisely, Congress rejected those results 
as inconclusive for the purpose of determining future status.
    Despite the failures and deficiencies of the 1993 
commonwealth definition, there are still individuals who insist 
that portions of that legislation should be incorporated into 
the current proposal, H.R. 856. For example, provisions such as 
the promise of full federal benefits without paying federal 
taxes and veto power over Congressional decisions would 
certainly appeal to many of my constituents in South Florida, 
but we all know that these wishes are impossible to grant. By 
concocting a ``have it both ways'' hybrid of statehood and 
separate sovereignty, the individuals opposed to the Young Bill 
are hoping to expand a status that was never intended to be 
permanent. Fortunately, the bill before us today distinguishes 
between the realistic and the unrealistic and provides a real 
vehicle for finally determining the political status of Puerto 
Rico.
    The appropriate way for the United States to respect the 
right of self-determination in Puerto Rico is for Congress to 
clearly and unequivocally define the options for change. To 
avoid the confusion of 1993, Congress must also confirm the 
nature of the status quo. The definitions should not include 
proposals for special benefits or possible agreements which 
could be reached to enhance any of the basic status options, 
but rather should prescribe the fundamental legal rights and 
political elements of each status option. On that basis, the 
voters will be able to make an informed choice that will be in 
a format respected on the mainland. I believe H.R. 856 meets 
these criteria and offers three distinct, realistic paths.
    Mr. Chairman, I also want to note that there is propaganda 
being circulated claiming that Congress is legally constrained 
from defining the current status in a way that is different 
from the 1993 ballot definition of commonwealth. The people 
putting forth these arguments are citing a Federal lower court 
case they perceive contains some dictum supporting their 
position. I would refer my colleagues with the opposing 
viewpoint to page 67 of House Report 104-713, July 26, 1996, 
which contains commentary from the U.S. Department of Justice 
repudiating the interpretation of the case being cited by 
opponents of H.R. 856. As the members here today are aware, the 
House Report I am referring to was the result of this 
Committee's exhaustive work on the self-determination issue 
last year and are positions that hold true today.
    Quotations from statements made by U.S. diplomats in the 
United Nations back in 1953 are being used to support the 
theory that, as a result of approving the local constitution in 
1952, Congress is bound forever by a ``bilateral compact'' that 
is unalterable without the consent of Puerto Rico. Again, I 
would refer them to the analysis of U.N. process in 1953 set 
forth on pages 11 through 23 of House Report 104-713.
    The notion that Puerto Rico has somehow been converted from 
an unincorporated territory to a permanent commonwealth status 
is erroneous and unconstitutional. In 1953, the U.S. informed 
the U.N. that the precise nature of the relationship would be 
subject to ``judicial interpretation'' and that local self-
government was limited to ``internal affairs and 
administration.'' Furthermore, in the case of Harris v. 
Rosario, the U.S. Supreme Court ruled that Puerto Rico remains 
an unincorporated territory subject to the plenary authority of 
Congress under the territorial clause of the Constitution.
    Mr. Chairman, I am encouraged by the comprehensive schedule 
of hearings on this bill both in Washington, D.C. and in Puerto 
Rico. The importance of listening to all sides in this debate 
cannot be stressed enough and will serve to produce a far 
stronger bill in the process.
    After nearly 100 years as our colonial possession, it is 
clear that Puerto Rico must either become a full, responsible 
and co-equal participant in our Union or become a separate 
nation. H.R. 856 is the first step in this long process. I urge 
my colleagues to take the time to consider the impact their 
attention to this legislation will have on the future of Puerto 
Rico and to understand their responsibility to resolve this 
issue now.
    Mr. Chairman, I want to thank you and the other members of 
the Resources Committee for this opportunity to testify.

    The Chairman. Thank you, Peter. And I can assure that block 
will be removed. We have our last Member. Nydia, you are up 
next. Best for last.

 STATEMENT OF HON. NYDIA VELAZQUEZ, A U.S. REPRESENTATIVE FROM 
                            NEW YORK

    Ms. Velazquez. Thank you, Mr. Chairman. Chairman Young, Mr. 
Miller, distinguished colleagues and distinguished witnesses, 
thank you for giving me the opportunity to come before this 
Committee. It is my hope that we will work together in a 
constructive fashion to finally reach a resolution to Puerto 
Rico's status question. We should strive to respect the wishes 
of Puerto Ricans throughout this process. Anything less and we 
would be dishonoring the memories of so many Puerto Ricans who 
gave their lives for this country.
    Puerto Ricans have put their faith in this government that 
true self-determination would one day be achieved in a fair and 
democratic manner. Indeed, my colleagues, almost 100 years 
after Puerto Rico became part of the United States it is tragic 
to see the divisiveness this debate has caused. Instead, we 
should work together to settle our differences and respect the 
wishes of the people of Puerto Rico.
    H.R. 856 was written without fully consulting the Puerto 
Rican people. Yet, status definitions have historically been 
written with such participation. The definitions in this 
legislation were not written in such manner. They are just a 
few of the many other shortcomings and unanswered questions.
    This government has told the people of Puerto Rico and the 
world that the island enjoys full self-government under the 
commonwealth. This bill simply does not treat commonwealth 
status with inherent dignity it deserves and that was duly 
enacted in 1952. We went to the United Nations and we told the 
world in 1953 that it was a form of self-government.
    One matter that is of utmost concern to all Puerto Ricans 
is the right, their right, to maintain their language, their 
language rights. And, yes, I do support the fact that the 
government of Puerto Rico should have the responsibility of 
teaching English in the schools and the Federal Government has 
a responsibility to provide the funding that they need to 
achieve such a goal. And in light of the deficits that we are 
facing in this country, I would like to see that there is a 
commitment from this Congress to provide such funding. 
Otherwise we are going to say to the people of Puerto Rico, 
yes, you should learn English, you are part of the United 
States, and yet we cannot provide the funding you need because 
we are doing programs that are so vital not only for Puerto 
Rico but also for the many citizens of this country.
    The bill mandates a long 10-year process for the people of 
Puerto Rico to choose their status. Adding to this uncertainty 
is the fact that there is nothing in this legislation that will 
actually guarantee statehood if that option prevails. Consider 
that it took Alaska decades after it voted to become a State to 
finally be incorporated. The 105th Congress must have a clear 
proposal on any commitment to resolve Puerto Rico's status 
issue.
    Instead of ensuring that the voices of all Puerto Ricans 
are heard, this bill is silent on whether stateside Puerto 
Ricans will participate in any future plebiscite. We must 
ensure that all those who were born in Puerto Rico and care 
about the future of their birthplace have the right to vote on 
such a monumental issue. Anything less would be unfair.
    Furthermore, the legislation does not even address the 
question of the full cost to the United States of Puerto Rico 
statehood. Nor have we heard an official Administration 
position on this bill. These fundamental, but essential, issues 
must be resolved or Congress will be forced to revisit this 
process again and again.
    Not only does this bill lack full consultation, it is also 
not inclusive. This bill is especially troubling to me because 
the future of the Puerto Rican people is what is at stake here. 
Think of the disturbing message we are sending to the world, 
who look to our country as a bastion of liberty and democracy.
    My colleagues, let us make a commitment to provide a dialog 
that will allow the Puerto Rican people to express themselves. 
I strongly urge this Committee and the Congress to find 
solutions that will help resolve the political status issue, 
but only with the participation of all Puerto Ricans and all 
political parties from Puerto Rico.
    Thank you very much, Mr. Chairman.
    [Statement of Nydia Velazquez may be found at end of 
hearing.]
    The Chairman. Thank you, Nydia. I will open it up for 
questions at this time. Anybody? Yes, Mr. Miller.
    Mr. Miller. Mr. Chairman, if I might. Thank you. And I want 
to thank the panel. I think it was an incredible presentation. 
I would like--if I might ask you to expand on two points. Jose, 
if you would expand on the issue about participation by people 
residing in the United States in the election. And, Nydia and 
Luis, you both raised the issue of--actually, Luis, I think, 
raised it more. Nydia was also on the voting, but on the issue 
of if independence is chosen, the issue of access, where that 
would be, how that plays out in the consideration of this 
legislation. If you might briefly expand on that.
    Mr. Serrano. Thank you, Mr. Miller. First of all, as I said 
before, I believe that the bulk of the migration from Puerto 
Rico, certainly in the '20's, '30's, '40's, '50's and '60's and 
'70's, was a direct result of the relationship between the 
United States and Puerto Rico. For a long time the United 
States Government and Congress paid very little attention to 
Puerto Rico's economic problems.
    I don't recall my parents coming to New York in the late 
'40's and denouncing Puerto Rico or its politicians. On the 
contrary, the first thing all Puerto Ricans did was to set up a 
hometown organization to start a parade, to start a festival, 
to keep those links and those ties going.
    Since I believe that our migration was a direct result of 
that relationship, then when that relationship is resolved 
forever--and I believe that eventually it will be resolved 
forever--it will be either independence or statehood. That is 
what I believe, it should either be independence or statehood. 
But then all the children of the colony, if you will, should be 
allowed to participate. And to me all the children are those 
who were born there or those who were born of parents born 
there.
    Let me just say this very quickly. Look at the situation 
you have. You have people who came to Puerto Rico from other 
countries and established a relationship with the U.S. 
Government called citizenship through application for 
citizenship, not citizenship from the island of Puerto Rico, 
not an agreement with the people of Puerto Rico but with the 
United States. Yet under our legislation, because of our 
election laws, they will be allowed to vote on the future of 
Puerto Rico while people who were born there and their children 
would not be allowed to vote.
    I repeat, I will never ask to vote for governor of Puerto 
Rico while I reside in New York. That is improper. I will never 
ask for any other kind of vote. But this vote is different. 
This vote belongs to a people and this vote may finally come 
about after imposition by the United States of a colonial 
status for a long time.
    Mr. Miller. Thank you. Luis.
    Mr. Gutierrez. Well, let me just first say that in 1917 we 
passed the Jones Act, which conferred upon the people of Puerto 
Rico, to put it in those terms, American citizenship without 
their consultation. Indeed, Jose de Diego responded to the 
Congress of the United States through the only elected 
mechanism that was on the island by saying thank you. But no 
thank you, the only other citizenship that I want other than 
Puerto Rican citizenship is the one I get after I have lived, 
which is the entrance into heaven, so that is the only other 
citizenship I ever want. So I think that we need to understand 
that in terms of how it is we participate in this process.
    So I would like to echo the sentiments of my friend Jose 
from New York to allow a greater expansion of this franchise, 
to allow those Puerto Ricans in the United States to 
participate, because, Mr. Miller, I read and I believe that Mr. 
Young believes that he sais so in his opening statement--that 
in 1898 when the United States invaded Puerto Rico as part of 
the Spanish-American War, that somehow Puerto Rico lost its 
nationality, that somehow Puerto Rico lost its sense of nation 
because we were adopted by the United States of America.
    I would suggest that Puerto Rico is a Latin American 
country, has continued to be a Spanish-speaking, Latin American 
country that happens to have American citizenship. So the 
nationality is Puerto Rican. The citizenship is of the United 
States, which we all share, so therefore all Puerto Ricans 
should all be able to participate.
    Let me quickly answer your second question. I think, Mr. 
Miller, that knowing the way this works obviously if you are a 
statehooder in Puerto Rico, you can say that your status or 
your position guarantees Social Security and medicare and 
expansion of the franchises, lots of goodies and lots of good 
things and a lot of the things that the Puerto Rican people 
have fought for and worked and sacrificed for.
    Can't we just be a little fair in terms of our relationship 
with Puerto Rico by saying under independence those American 
citizens that are part of the Nation of Puerto Rico will 
continue to receive those benefits they have earned? We have to 
say that clearly and unequivocally so that if an argument is 
raised in Congress that to continue granting these benefits to 
Puerto Ricans is too expensive, that we say, look, you know, 
there's been American bases in Puerto Rico for which we paid 
nothing for all these years.
    Puerto Rico's economy, as Jose stated earlier, has suffered 
because we haven't been able to enter into international trade 
with other countries because our economy is somehow false and 
fictitious because it is a colonial situation. Here is what we 
are going to do, but we want to enter into a new partnership so 
that we can structure it in such a way that it is real, Mr. 
Miller, not false, that it is real and a partnership so that we 
can say to the rest of Latin America when Puerto Rico, which I 
am sure it will, achieves its full independence one day; ``look 
at the jewel of the democracy and the relationship we have 
crafted with Puerto Rico after 100 or so years of a colonial 
situation.'' That would be our jewel and our way of presenting 
to Latin America our new relationship with Puerto Rico.
    The Chairman. Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman. A witness who will 
speak shortly says that one crucial question regarding 
statehood for Puerto Rico is--comes about--the way he puts it, 
he says would statehood be a realistic option so long as Puerto 
Rico's per capita income remains as it has for the past 50 
years, one-third of the United States and one-half of that of 
your poorest State, considering the repercussions of that 
reality on the Federal treasury. That is a statement from 
Senator Ruben Berrios-Martinez, President of the Puerto Rican 
Independence Party.
    What--that does raise a question, I think, we should look 
at that at some point. What would be the impact on the Federal 
treasury? Can any of you help me in that regard?
    Mr. Gutierrez. Let me just--quickly, the GAO released a 
study, and I am sure we are going to debate it and discuss it 
quite a bit. It said statehood would cost the Federal treasury 
$3 billion, but let me just quickly add----
    Mr. Duncan. $3 billion?
    Mr. Serrano. $3 billion a year.
    Mr. Duncan. Over?
    Mr. Serrano. A year. Because of increased Medicaid and 
Medicare. But let me make two quick points. I think that 
Congress is going to have to consider this as it balances the 
budget at the same time. It is looking at a new entry, a full 
participant in the Nation. So we are definitely going to have 
to do that. That is the situation that we are going to have to 
fall on statehood, but we should tell the people of Puerto 
Rico.
    Mr. Gutierrez. But let me just quickly add that, 
Congressman, if the Congress of the United States enacts the 
bill and our plebiscite occurs thereafter and statehood would 
win that plebiscite under the rules, as a Member of Congress 
from a Congressional district which is the poorest in the State 
of Illinois and one of the poorest in the nation, if you are 
willing to go back to your district and tell the people of your 
district that we need self-determination, we need to respect 
that position, I will tell you one thing. I will go back to the 
poorest people in my district and say the $3 billion is just 
something that we are going to have to pay as a Nation.
    Mr. Duncan. Nydia.
    Ms. Velazquez. I would like to also react to that, because 
I think it is important when I mention that the cost of 
statehood has not been clearly stated throughout this 
legislation because once we are committed as the United States 
Congress to recognize the rights of the people of Puerto Rico 
to self-determination, and if in fact the people of Puerto Rico 
vote for statehood, I want to see a commitment from this 
institution that we will respect that will expressed freely by 
the people of Puerto Rico, so that we don't come back here and 
then in the debate, during the debate process we are discussing 
here how much it is going to cost, statehood is going to cost 
to the United States treasury. And then there might be some of 
us who supported the process of self-determination for the 
Puerto Rican people, but when we find out how much it is going 
to cost and when we have to determine whether or not we will 
support it--because here we are balancing the budget and 
dealing with the deficit of this Nation and then you have to 
say well, in order to achieve this we might have to cut certain 
vital programs in our own districts.
    The Chairman. Would the gentleman yield?
    Mr. McCollum. If I could respond just very quickly that I 
think that there are two issues. One is I assume you are going 
to have economists who are going to say the exact opposite, 
that the economy of Puerto Rico is really--that there is a 
weight on it right now in commonwealth status. The uncertainty 
of commonwealth status is really a hindrance to capital 
formation. I mean, if you have been to Puerto Rico, you can 
just literally see with your eyes the economic potential that 
exists in that country, in that island at this point at time, 
incredible.
    And I would also point that you can find economists who are 
going to disagree on the economic impact to the Federal budget, 
but I think history tells its lessons well. Florida's income 
was far less, the percentage points, than Puerto Rico when 
Florida became a State. And there are examples and examples and 
examples of ter-

ritories becoming States where what has happened on a 
historical basis and that those economies have grown and have 
ultimately become incredible positive impacts to the treasury.
    The Chairman. I would like to make one comment. Be very 
careful about reporting GAO reports. I have one in my 
possession, in fact, that shows that we--the treasury gains $50 
million a year, because there is a lot of money going down 
there. Regardless of the cost, there is a justice question 
here, I think, that has to be addressed. I want to suggest one 
other thing. I am the last person other than my good friend 
Neil from Hawaii that went through this process. And if you had 
looked at the income of Alaska and the people that were 
employed in Alaska at the time of statehood, we were in dire 
straits. Now I want to suggest we are in much better shape now 
than most any other State in the union. We could not have been 
that unless we were an independent nation. I will tell that. 
And I could be king instead of Chairman.
    Mr. Romero-Barcelo. Will the gentleman yield?
    The Chairman. I am going to yield to----
    Mr. Romero-Barcelo. Mr. Duncan, will you yield, sir? Mr. 
Duncan, can you state what your--just for your information, 
because of the hearing. When you asked what would be the cost 
to the Federal Government for Puerto Rico to become a State, 
the comment that Mr. McCollum made is partly true. It is true 
that when we become a State the additional programs that will 
go to Puerto Rico that are not being paid over now would 
represent, I think, a little bit more than 3 billion, would 
represent 3-1/2 billion additional funding, but at the same 
time we are not paying any Federal income tax. If we pay 
Federal income taxes fully, we would pay about 4 billion to 4-
1/2 billion. So they--it would be a--and that is for 
everything, for the Federal Government, Puerto Rico becoming a 
State; so we will be paying in taxes and the corporations will 
be paying in taxes and what Puerto Rico will be receiving.
    The Chairman. Gentlemen, let us see, who is next? I would 
say the gentleman from Guam because he was here early.
    Mr. Underwood. Thank you. Just a quick clarification. I was 
very interested in the determination of the franchise for 
participation in these plebiscites. And, Jose, you mentioned 
that you thought that the franchise--you alluded to it, but it 
wasn't in your written testimony. What are your sentiments 
about the franchise in Puerto Rico itself? Who should 
participate in Puerto Rico?
    Mr. Serrano. Well, obviously in all of my comments I have 
always said that we should--. Let me back up and say a lot of 
people have said the reason you can't have a vote outside is 
because you can't carry out that vote. It is hard to carry it 
out. But it is hard for me to believe that the most democratic 
nation on earth cannot conduct an election outside Puerto Rico 
for people who would be eligible to vote. But those people who 
live in Puerto Rico now who were born in Puerto Rico would be 
allowed to vote. There are laws that cover that currently. What 
I want is, this one time, to have Congress state that we would 
add something to this bill which would allow people over here 
to vote.
    Mr. Underwood. So if I moved to Puerto Rico before this, 
you wouldn't anticipate that I should be part of the franchise?
    Mr. Serrano. Well, I am very honest about this. My 
statement is very simple, and if it contradicts law, so be it. 
I don't have a problem with it.
    Mr. Underwood. No, actually I like the idea. I am just 
trying to get you to say yes.
    Mr. Serrano. No, I don't have a problem with you voting if 
I am allowed to vote, but I have a serious problem with you 
voting when you weren't born there if I am not allowed to vote.
    Mr. Underwood. But you are a very special person, so of 
course we would make special considerations----
    The Chairman. All right, I believe, Patrick, you are next 
if you have any questions.
    Mr. Kennedy. No.
    The Chairman. No questions. Donna, you are up.
    Ms. Christian-Green. Thank you, Mr. Chairman. And I would 
like to add my commendation to the Chairman and the ranking 
member for bringing this bill forward and thank my colleagues 
for coming today and giving that important testimony. I want to 
say that I support this process. And my concern here is that 
the people of Puerto Rico be given a process in which they can 
freely and fairly vote and realize their hopes and aspirations 
through this process.
    [Statement of Hon. Donna Christian-Green follows:]

 Statement of Hon. Donna Christian-Green, a U.S. Delegate in Congress 
                        from the Virgin Islands

    Mr. Chairman, Ranking member, thank you for this 
opportunity to give brief opening remarks on H.R. 856, a bill 
to provide a process leading to full self government for Puerto 
Rico.
    This process is an important one, and one which I am 
committed to see go forward.
    My only concern, and what I see as my duty, as we move 
forward, is to insure that the people of Puerto Rico have a 
process in which they will be able to choose freely and fairly 
the status which most realizes their hopes and aspirations.
    In order to have this happen, it is important that each 
option be presented objectively and be given equal treatment in 
the bill.
    It would be a travesty for the people of Puerto Rico to 
choose an option based on misunderstanding the issues involved, 
or on limited or lack of knowledge of how the proposed change 
would impact their lives.
    I take special interest in this process, not only on behalf 
of the People of Puerto Rico, our neighbors and our friends, 
but because of the importance of this process to all of the 
off-shore possessions. Each one of us is or will be traveling 
the path of redefinition of our relationship to the U.S.
    What happens here will set the precedent and the tone for 
us.
    I want to take this opportunity to welcome the witnesses, 
and to express my confidence that we can work together to make 
this vehicle of Puerto Rican self-expression one that will 
truly result in the future that its citizens desire.

    Ms. Christian-Green. I am not sure if the question was 
that--my questions was along the lines of Guam. I would like to 
address it to Congressman Gutierrez. You said that people who 
had resided in Puerto Rico for 70 days should not really be 
allowed to participate in this process. Do you have----
    Mr. Gutierrez. Let me--thank you, Congresswoman, for the 
question. The way I read the bill, and Congressman Young is 
here and I am sure he will correct me quickly.
    The Chairman. Especially when I have got the gavel.
    Mr. Gutierrez. The way I read the bill is that those who 
would be allowed to participate in the electoral process, that 
we would use provisions of the local laws of Puerto Rico. We 
would not establish our own electoral law in this decolonizing 
process, that we would just adopt the laws of--the local law in 
Puerto Rico. And I understand, and I could be mistaken, that if 
70 days prior to an election I would--thank you.
    The Governor has just--OK, you have to establish residency. 
The point is that this is a very short period of time that I 
can arrive on the island of Puerto Rico and I can participate. 
My point is my mom and dad may be in Chicago. Nydia's mom and 
dad may be in New York. We don't know--I mean, the franchise of 
the Puerto Rican people. And my point is this, and I think it 
is a very important point. As you go through a process, you 
have to figure out who the nationals are of the Nation that are 
going through the process of decolonization as it is adopting 
self-government and self-rule.
    So let us just figure out what that definition--for 
example, Mexico has adopted dual nationality. The government of 
Mexico has stated that if you were born in Mexico or you are 
the child, first-generation child, of a person born in Mexico, 
you are a national. Now you can become and adopt American 
citizenship, as many Mexican nationals have done, and become 
citizens of this country, yet Mexico still regards you a 
Mexican who has been naturalized as an American citizen as 
their national. So I think we can figure out a way of doing 
this, and I think that it is very, very important.
    I met a young man from Eritrea, and he got to vote, even 
though he was in Washington, D.C., on the ultimate status 
resolution of Eritrea, because he was a national of Eritrea. 
Although he had become a citizen of the United States of 
America, he was still a national of that country. So that is 
all I want to determine, who the nationals of Puerto Rico are.
    We may expand the franchise. I was fortunate enough to read 
the comments of the senator from Puerto Rico, Ruben Berrios, 
where he suggests, you know, maybe some people who have lived 
there for a while--let us just figure out what the rule is so 
that we can make it more inclusive.
    Ms. Christian-Green. And one other question. There are 
several of us territories that also feel that the history as it 
is written and studies in schools--I believe that was 
Congressman McCollum's statement, that the history of all of 
the territories should be included. Some of us are not yet 
going through this process. Do you believe that the process in 
this bill is one that can set a precedent for the rest of us 
such as the Virgin Islands, American Samoa?
    Mr. Gutierrez. I think if we adopt this bill, regardless of 
how I believe, it will set the precedent. And let me just 
quickly add, because you bring up the question of territory, I 
think one of the greatest points of consternation, especially 
for me, is this debate and the struggle that I have of being an 
independentista on one hand and struggling for independence and 
knowing that that is the rightful place of the people of Puerto 
Rico to enter into, and then the issue of self-determination 
and consultation with the people of Puerto Rico. And the 
problem that I have there is that it seems to me--and there is 
a big debate.
    If indeed in 1952 we enacted legislation and we went to the 
Unit-

ed Nations and we said to the United Nations and to their 
Committee on Decolonization, excuse me, the government of the 
United States of America has entered into an agreement with the 
people of Puerto Rico for self-rule, please remove us from 
having to report before the Committee on Decolonization. And 
that was a process that was adopted by the Congress of the 
United States and accepted by the people of Puerto Rico. It 
seems to me that in the early 1950's the people in Puerto Rico 
made a decision, and it may be a decision that clearly stated 
we are a separate, distinct people who want a relationship, an 
autonomous relationship with the United States.
    But the other thing that the United Nations--and sometimes 
we forget, the United Nations said, you know something, that is 
really not enough, because we don't really think this whole 
process has been completely decolonized, so we want you to 
continue to perfect it. The problem has been that the Congress 
of the United States has rejected many of the perfections 
proposed for the autonomy status of Puerto Rico. So I think we 
should consider that as we evaluate the current situation.
    Mr. Serrano. If I may, Mr. Chairman.
    The Chairman. Just--she is about out of time, and I am 
going to suggest one thing.
    Mr. Kennedy. Mr. Chairman.
    The Chairman. Yes.
    Mr. Kennedy. I would like to hear Congressman Serrano's 
response to that, because this is----
    The Chairman. I was going to do that, but if you would like 
to be recognized for that purpose, go ahead, because you said 
you didn't want to be recognized. Go ahead.
    Mr. Kennedy. Thank you, Mr. Chairman. I do think this is 
the point that I want to hear, sort of, resolved through 
talking it out, because it is hanging over us with Nydia's 
comment that we haven't recognized fully the commonwealth 
portion of this debate. And what it means to the people of 
Puerto Rico to have independence, do they maintain their 
citizenship, as I believe they should if they were--they are 
citizens of this country. They will remain citizens. And their 
rights with respect to their benefits that they have earned and 
the like. I want to understand that within the context of 
independence as opposed to maintaining commonwealth status 
where it seems, according to you, Jose, that you are still in a 
period of limbo because this Committee and this Congress is 
still deciding a lot of the issues with respect to Puerto Rico. 
So, Jose----
    Mr. Serrano. Sure, and it ties into the answer to your 
question in that what this bill does is--and the reason I 
applaud this bill is--by the time this bill passes Congress and 
the vote is taken in Puerto Rico, every American who pays 
attention to these issues will know there is a Puerto Rico, 
there is a territorial situation, there is an issue to be dealt 
with. The world will be commenting on it. Some pressure will be 
coming on us. We will have to work on it. Right now that 
doesn't exist.
    Secondly, I believe that after 100 years of a relationship, 
if Puerto Rico determines that it wants to be an independent 
nation, it would not be improper. But it would also be fair, 
out of this relationship, to say, that everyone who was born up 
till 12:00 noon on the day of independence is an American 
citizen forever, till death. That at minimum as a payment for 
what they did in wartime and in other times throughout the 
history of----
    Mr. Kennedy. I agree with you. Now how would that be 
reconciled with Nydia's concern about commonwealth, some 
aspect? Because I have the feeling that independence while 
maintaining the rights and benefits earned by citizens of this 
country during this limbo period is what is also being confused 
with commonwealth. So what I am trying to understand is we 
probably have a question instead of sort of splitting the hairs 
between independence and maintaining rights and commonwealth--
--
    Mr. Serrano. To me, Mr. Kennedy, it is totally different.
    Mr. Kennedy. OK.
    Mr. Serrano. And the way I break it down is the way nobody 
wants to hear it. If they were independent, they could 
establish relationships with Cuba tomorrow. They can't right 
now.
    Mr. Kennedy. OK.
    Mr. Serrano. As a commonwealth, they can't do that. Now 
citizenship if you expand commonwealth as some people would 
like, you really create an associated republic. Independence is 
clear. All I am saying is if independence comes out of the 
process--I hate to use this paternalistic approach, but when my 
children leave the house after they get married, they never 
stop being part of the family. There is always room for them. I 
always look out for them. If they need some cash, I try to help 
with that too. So after 100 years being used as a colony, the 
least you should do is keep your citizenship. You paid for it 
in Korea, Vietnam and everywhere else.
    Mr. Kennedy. Is this--I am interested--Nydia, would you say 
that what Jose is talking about would satisfy your concerns----
    Ms. Velazquez. No.
    Mr. Kennedy.--about whether commonwealth is properly 
recognized in this----
    Ms. Velazquez. I would say that in 1952 and in 1950 and '52 
and '53 when we went to the United Nations, this government, 
the United States government, went to the United Nations and 
stated very clearly that the people of Puerto Rico achieved 
self-government through a bilateral compact. And all of a 
sudden we come here and we delete history after we went there. 
We told the people that government was there, and it has been 
unfair, the fact that people--44 percent of the people of 
Puerto Rico in 1993 voted in a plebiscite that wasn't polled by 
the Popular Democratic Party because they didn't--they weren't 
in power. They didn't control both houses like the NPP, and 
this is what happened. They went and they said those 44 percent 
of the population of the voters, they voted for the 
commonwealth. Are you going to go and tell them that you don't 
have any say in the definition of the commonwealth? And this is 
the way that we comply with the aspirations of 44 percent of 
the people of Puerto Rico, and this is the way that we will 
achieve decolonization and full self-government? I don't 
believe so.
    Mr. Kennedy. As to----
    The Chairman. We are going to have a vote in ten minutes, 
and I have got some Members who would like to ask questions. 
Governor.
    Mr. Romero-Barcelo. Mr. Chairman, thank you. First of all I 
would like to--for the matter of the record, I would like to 
mention a couple of things. There is a discrepancy in Puerto 
Rico as to what happened in 1898, whether we were invaded or 
troops were asked to come in. And the vast majority of 
historians seeem to think, and the people who remember seem to 
think that the troops were actually--the United States was 
actually asked to come in, because the people of Puerto Rico, 
the vast majority, were not happy with their relationship with 
Spain at that time. So that is a matter of history and the 
record should be put straight, set straight on these issues.
    Then regarding who should vote, you have already seen a 
little bit of discrepancy between what the panel--Congressman 
Serrano says and what Congressman Gutierrez says and what 
Congressman Velazquez says. Congressman Gutierrez will extend 
to the children of those who were born in Puerto Rico, whereas 
Congressman Serrano says only those who were born in Puerto 
Rico. I have to----
    Mr. Serrano. No, that----
    Mr. Romero-Barcelo. You assent to the children of those who 
were born?
    Mr. Serrano. Absolutely.
    Mr. Romero-Barcelo. And would deny people who were not born 
in Puerto Rico?
    Mr. Serrano. Not if I would get it. They should get it.
    Mr. Romero-Barcelo. OK, that means virtually that my wife 
could not vote. My wife has been in Puerto Rico now for 30-some 
years, has children in Puerto Rico and grandchildren.
    Mr. Serrano. And neither should my wife.
    Mr. Romero-Barcelo. Well, your wife doesn't live in Puerto 
Rico.
    Mr. Serrano. I am saying, Congressman, that, if we come to 
the conclusion to include us, we will work it out.
    Mr. Romero-Barcelo. Well, let me--what right does somebody 
that is not going to live the benefits of dire consequences of 
the decision, because he is going to live up here in the 
mainland, have to tell--influence the decision of the people of 
Puerto Rico who are the ones that are going to be affected by 
that decision? What right do you have to tell me and others in 
Puerto Rico that you should do this and you actually 
participate in the decision when you are going to be outside 
Puerto Rico and you are not going to be living in Puerto Rico? 
I think--isn't that the position? Isn't that treating us also 
like a colony? The Puerto Ricans here now are going to treat us 
as a colony?
    Mr. Serrano. You want an answer to that, Carlos?
    Mr. Romero-Barcelo. Yes.
    Mr. Serrano. This whole process is an imposition. Luis was 
correct. If this was about fairness and justice, the United 
States should get out now, tomorrow morning. But that is not 
going to happen. The whole process is an imposition. But it is 
a little imposition in a big imposition to include all of us. 
It is not a problem, really. It is really not a problem. I 
think we could work it out.
    Mr. Romero-Barcelo. Let me ask another question. You say 
that the children can go and those that were born. Those who 
were born in Puerto Rico should vote even though they are 
living here. Now supposing somebody was in Puerto Rico visiting 
from the States and they had a child and they were there for a 
few weeks and then they left and the child left and they came 
over now and they have been living in Wisconsin. Now that child 
grew up in Wisconsin. He is not going back to Puerto Rico. He 
has children here. Then he and his children should be able to 
vote in Puerto Rico on that decision.
    Mr. Serrano. If I could answer----
    The Chairman. If I can, we are in a voting process. And 
this is a very interesting discussion and debate. It is not 
going to be solved right now at this time. I am going to 
suggest that--I am going to thank the panel, number one. I 
think it was a very excellent presentation. I am proud of this 
legislation. I think everybody knows that I want the change, 
because I will agree with the Governor and Congressman Serrano 
about the status quo is no longer acceptable. So we are going 
to go forth in this legislative process. And I am hoping 
everybody will take the opportunity--I am sure the people of 
Puerto Rico will participate in this discussion, and so will 
the members of this Committee. But in due respect to the next 
panel, I would suggest at this time that this panel be excused 
and we will go vote and then the next panel will be on when we 
get back so we can expedite this process. This hearing is 
recessing till 20 minutes to one o'clock. Thank you.
    [Recess]
    The Chairman. It gives me a great honor at this time to 
introduce the Honorable Governor, Governor Pedro Rossello of 
Puerto Rico. He will be on the witness stand. And I just want 
to welcome you, Governor, as one that has dealt with many other 
governors over a period of time. And being in your great 
territory, I certainly have enjoyed your hospitality and your 
willingness to share your views as well as those of the people 
in Puerto Rico. So welcome, Governor, at this time.

STATEMENT OF PEDRO ROSSELLO, GOVERNOR OF PUERTO RICO, SAN JUAN, 
                          PUERTO RICO

    Mr. Rossello. Thank you very much, Chairman Young, and 
members of the Committee on Resources. For the record, my name 
is Pedro Rossello. Since 1993 I have been Governor of Puerto 
Rico. And in that capacity on two occasions I presented 
statements to the 104th Congress that may be of interest to 
each one of you.
    On October 17, 1995, here in Washington I addressed a 
hearing conducted jointly by this Committee, the Committee's 
Native American and Insular Affairs Subcommittee, and by the 
Subcommittee of the Western Hemisphere of the House Committee 
on International Relations. Then on March 23, 1996, I appeared 
before the Native American and Insular Affairs Subcommittee at 
a hearing conducted in San Juan. My October 1995 statement 
pertained to a November 1993 political status consultation 
organized by the government of Puerto Rico with the full 
support of all three Puerto Rican political parties. My March 
1996 statement pertained to H.R. 3024, a bill filed by Chairman 
Young which bore the same title as the measure before us today.
    Because of their relevance and because they may be 
particularly useful to members of this Committee that did not 
serve on the aforementioned Subcommittees of the last Congress, 
I shall be grateful if the Chairman will make copies of those 
statements available to every member of the Committee on 
Resources of this 105th Congress.
    Although I am the president of a political party, and 
although I do strongly advocate one specific solution to Puerto 
Rico's status dilemma, I wish to emphasize at the outset that 
my declarations at this hearing shall be solely in my role as 
chief executive of the government of Puerto Rico and on behalf 
of the people of Puerto Rico as a recipient this past November 
of the largest electorate mandate granted to any gubernatorial 
candidate in Puerto Rico since 1964.
    In addressing you as Governor and as a spokesperson for a 
strong mandate from the people of Puerto Rico to move toward 
the final definition and decision on our political status, I 
see it as my duty to concentrate exclusively on offering my 
assistance as you commence to the profoundly important process 
of evaluating H.R. 856, the United States-Puerto Rico Political 
Status Act.
    For the past eight years all the people of Puerto Rico and 
the United States Government have manifested a commendable 
commitment to addressing this issue seriously, responsibly and 
in an impressively nonpartisan manner. In 1989 a pro-
commonwealth governor enlisted the backing of all three Puerto 
Rico political parties in soliciting action from the Federal 
Government. That petition produced an earnest and positive 
response from a Republican President and a Congress that was 
controlled by Democrats. More than two years of dedicated 
effort resulted from that initiative.
    The effort fell short, but we must say it did not fail. 
Rather it left behind a valuable foundation upon which we have 
been building ever since. And so it was that my administration, 
led by a pro-statehood governor, succeeded four years ago and 
maintained a united front of Puerto Rico political parties in 
resuming the quest for a solution to the status dilemma. And so 
it was, too, that with a Democrat in the White House and 
Republican majorities on Capitol Hill, Washington has remained 
equally united since 1995 in pursuit of a mutually satisfactory 
remedy to the universally acknowledged inadequacy of Puerto 
Rico's current relationship with the rest of our fellow 
citizens of the United States of America.
    President Bill Clinton reiterated his commitment at the 
beginning of this year in a letter that was read aloud by his 
personal representative during my second term inauguration 
ceremony in January. The President wrote, and I quote, ``I will 
work with you, the island's other elected leaders, the Congress 
and all concerned to establish a process that would enable the 
fundamental issue of Puerto Rico's political status to finally 
be resolved.''
    Here in the House, for their part, Chairman Young and 
Ranking Member Miller have localized a broad bipartisan 
coalition with the solid backing of Speaker Newt Gingrich and 
the gentleman from Puerto Rico, Congressman Carlos Romero-
Barcelo. On the Senate side, Chairman Frank Murkowski visited 
Puerto Rico this past weekend, leading a bipartisan delegation 
from his Energy and Natural Resources Committee. The senators 
held lengthy meetings with senior officials from the political 
parties representing Puerto Rico status options.
    In light of these developments, I can state for the record 
that the people of Puerto Rico are looking forward with 
enthusiasm to the imminent exercise by Congress of its 
constitutional responsibility to collaborate with us on 
converting the chronic conundrum of Puerto Rico's status into a 
shining star of statesmanship. I am convinced that together we 
can do it, Mr. Chairman. Through a determined, persistent, 
unflagging effort and an unshakable allegiance to patriotic 
civility, we can indeed do it. Moreover, I suggest we can do it 
expeditiously.
    I commend you, Mr. Chairman, for having requested of each 
Puerto Rico political party that it submit by March 31 a 
proposed definition which it believe will be most appropriate 
for the status option it supports. It is my understanding that 
each of the parties intends to comply with that request. You 
acted expeditiously, Mr. Chairman, in filing H.R. 856. You 
acted expeditiously in scheduling this hearing. You acted 
expeditiously in requesting status definitions. And I urge you 
that we likewise expedite the entire process contemplated by 
this bill.
    A year ago this week in my testimony regarding H.R. 3024 I 
proposed that the process be streamlined. Like that earlier 
bill, H.R. 856 envisions, and I quote, ``a transition plan of 
ten years mini-

mum, which leads to full self-government for Puerto Rico 
consistent with the terms of this act.'' Nothing has transpired 
during the past 12 months to alter my outlook on this aspect of 
that legislation.
    Accordingly, I take this opportunity to urge once again 
that this bill's three stages, initial decision, transition, 
and implementation, be consolidated into two stages. I feel 
certain that the transition and implementation stages can be 
combined in such a way as to eliminate any need for conducting 
the interim referendum that is stipulated by the bill under the 
provisions set forth in its transition stage.
    If the people of Puerto Rico do embrace full self-
government during the initial decision stage, I see no reason 
why ten or more additional years must elapse before we are able 
to cast a definite yes or no vote on a presidentially submitted 
and a Congressionally approved implementation formula.
    A streamlining of this nature would save time, energy and 
money. It would facilitate the completion of the entire process 
with the utmost, focused attention to detail during that period 
that could easily be reduced to a maximum of four to five 
years. But more than that, by expediting matters, we can help 
to ensure that the United States-Puerto Rico Political Status 
Act achieves its purpose, because by expediting matters we can 
greatly enhance the likelihood that the momentum of this 
historic undertaking will not be weakened by unforeseen events 
that could occur as we go forward. And furthermore, it would 
send a strong message to all that Congress is ready and 
committed to act.
    When I first offered the suggestion at the San Juan hearing 
of March 1996, my exact words were these. ``Ten years, I 
respectfully submit, is an inordinately long time. Ten years 
ago there were two Germanies and a Berlin wall. South Africa 
was still under Apartheid. The North American Free Trade 
Agreement was merely a promising idea, almost nobody had ever 
heard of the Internet. A ten-year minimum, I believe, is more 
time than we need.''
    Today, in March 1997, I stand by those words. I earnestly 
propose that a mechanism be designed that will allow the people 
of Puerto Rico and our fellow citizens throughout the United 
States to conclude at the sunrise of the 21st Century an 
extremely significant item of unfinished business that has 
awaited this nation's undivided attention ever since the 
twilight hours of the 19th Century.
    To that end and in that spirit, Mr. Chairman and members of 
the Committee, you can count on me. You can count on me to work 
with you, with your Congressional colleagues, with the 
President and with the people of Puerto Rico. You can count on 
my good faith and my goodwill and my unwavering commitment to 
the fundamental principles of civil rights and human dignity 
that this bill so eloquently embodies, the principles of 
liberty and justice for all.
    And may God bless each and every person who participates in 
this noble endeavor. Thank you very much, Mr. Chairman.
    The Chairman. Thank you, Governor. I want to compliment you 
on an excellent statement. Not only that, I was willing to give 
you a little more time. It is hard for a Governor or a Senator 
or a Congressman to put anything in five minutes, so I want to 
congratulate you. Excellently done.
    Mr. Rossello. We don't need much more time.
    The Chairman. All right, excellently done. I may have some 
questions, but I will defer to my good friend from Puerto Rico 
at this time and then go right down the line if you have any 
questions. You don't have to ask questions.
    Mr. Romero-Barcelo. I don't have any questions for the 
Governor. I know we have talked a lot about this issue many, 
many times. I just want to congratulate him on his statement 
and everything that he has done to make sure that this process 
continues and we reach an agreement and have a vote by 1998 and 
then look forward to entering the new millennium with Puerto 
Rico no longer being a colony. Thank you.
    Mr. Rossello. Thank you to our Congressman.
    The Chairman. Mr. Kildee.
    Mr. Kildee. I just want to thank Governor Rossello. It is 
good to see you again. I enjoyed my trip down to Puerto Rico 
last year and look forward to come down there again. And I 
share your concern about the ten years also. I would like to 
discuss that more fully with you. Thank you very much.
    Mr. Rossello. Thank you.
    The Chairman. The gentleman from Guam.
    Mr. Underwood. Thank you, Mr. Chairman. Thank you, 
Governor, for an excellent statement. It is true that it is 
hard to encapsulate all the emotions of the people within five 
minutes.
    Much has been made of the year 1898 in some of the previous 
testimony, and you alluded to it in terms of taking care of a 
problem that has been with us since the end of the 19th 
Century. I believe earlier it was stated that Puerto Rico is 
the longest running colony under the U.S. flag. I did some 
quick research during the break and found out that Guam nosed 
you out by one month.
    So I hope that the--in a way, it is a difficult issue to 
address, because I fully respect and understand that this is 
Puerto Rico's day and this is a day to analyze and understand 
the meaning and the impact of the Puerto Rican experience and 
how this country will deal with that. And actually in support 
of that, I have submit-

ted--my earlier testimony was in support of that, and also as 
part of that I submitted a statement from Governor Gutierrez in 
his ca-

pacity as Chairman of the Commission on Self-Determination that 
is in support of that.
    So it was some surprise, Mr. Chairman, that I note that 
there were some materials in the packets distributed about 
Guam. And in a sense I was--I am expressing some of my concern 
about that, but I just want to make the obvious distinction 
between Guam and Puerto Rico. The obvious distinction is that 
Puerto Rico, because of its size and its impact, I think, on 
the American consciousness, has a fuller range of options, 
viable political options, available to it than Guam has. But 
the fervor to deal with the issue is no less on Guam, and I am 
sure you understand and appreciate that.
    And while our--it is an interesting dynamic, because we are 
really linked in terms of the Spanish-American War. It always--
I always found it fascinating that the Spanish-American War was 
fought allegedly over issues in the Caribbean, yet the first 
strikes were in the Philippines and Guam, which always leads me 
to believe that there was something else at stake in the minds 
of all the people who carried the American flag at that time. 
So while we nosed you out by a month, I look forward to 
resolving your issues and I will be courteous and hope that 
these issues will be resolved and will be patient, but I hope 
we don't have to wait too long after you. Thank you.
    The Chairman. I thank the gentleman from Guam. He has been 
very persistent in discussing this issue with me, and I believe 
the literature in your documents--I was going to ask unanimous 
consent they be submitted for the record as it was requested.
    Mr. Miller. That is granted.
    The Chairman. Without objection, so ordered.
    [The information may be found at end of hearing.] ???
    The Chairman. The gentlelady from the Virgin Islands.
    Ms. Christian-Green. Good afternoon, Governor. Thank you 
for your testimony. I am concerned about the issues raised by 
Congresswoman Velazquez. And I wanted to know from you if you 
were satisfied that within the bill the Congress gives 
sufficient commitment to supporting the decision of the people 
of Puerto Rico.
    Mr. Rossello. I think the bill addresses in a very positive 
fashion the valid alternatives that Puerto Rico should and 
would have. Essentially if we look at this from the perspective 
of answering one question, whether Puerto Rico wants to remain 
under U.S. sovereignty or not, then everything becomes very 
clear. If you want to remain under U.S. sovereignty, the 
Constitution addresses only two options. You can either be a 
State or you can be a territory under the plenary powers of 
Congress under the territorial law. Those are the two options 
if you answer the question that you want to remain under U.S. 
sovereignty with U.S. citizenship.
    If the answer is no, then you have the other panel. You can 
go toward a separate sovereignty under which you would have all 
the powers of any independent nation, or you could modify that 
by a treaty or a compact between two independent nations. But 
that would be outside the U.S. sovereignty and outside U.S. 
citizenship. In that sense, the question is very simple. You 
answer it yes or no. U.S. sovereignty and U.S. citizenship and 
then you have these two options, or outside U.S. sovereignty 
with a separate citizenship and a separate sovereignty.
    From my perspective, if the question is answered that 
Puerto Rico should remain under U.S. sovereignty with U.S. 
citizenship, the option of remaining a territory, for me, is 
not valid, but I think it is pertinent and I suggested it and 
Chairman Young has accepted including the option of the current 
status under U.S. sovereignty and under the territorial clause 
as an option. I don't think it is valid. I don't think it is 
valid, but that is my personal opinion. But I think it allows 
everybody in Puerto Rico to have a valid option which they can 
support.
    Ms. Christian-Green. Thank you.
    Ms. Cubin. Are there any further questions from anyone 
else? Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Madam Chairman, and I 
certainly would like to offer my personal welcome to the 
Governor of Puerto Rico for his fine testimony. And I want to 
say I believe, Governor, it was by your suggestion of the 
process as we were reviewing the provisions of the previous 
bill that was introduced that the option of commonwealth also 
be included, given the fact that there are some very strong 
disagreements in the whole process, just as we have heard 
earlier from some of the Members. I had hoped that Congressman 
Serrano would be here, because his preference would have been 
don't even include the commonwealth option, it is either 
statehood or independence.
    And I wanted to ask you, as you know, there are so many--so 
much a mixture of views in the Congress as far as the issue of 
Puerto Rico is concerned. I don't need to say that. There are 
some Members who have very strong feelings who are advocating 
about the--and I hate to see Puerto Rico being used as a 
scapegoat concerning the English only or the English first 
debate that is now going on here in the halls of the Congress.
    I wanted to ask you, should the Congress equate statehood 
with dollars?
    Mr. Rossello. With what?
    Mr. Faleomavaega. With dollar signs. I am unfortunate to 
say that there will be some Members who view it strictly for 
the dollar signs rather than looking at it as a matter of 
principle. I believe my good friend from Puerto Rico has given 
indications earlier that if the people of Puerto Rico were to 
become a State, that your contributions toward the income tax 
system would be a lot more than what it would cost. And I think 
that is certainly commendable.
    But I--you know, at the time that we held hearings in 
Puerto Rico, Governor, as you well remember, the former 
candidate for president, Pat Buchanan, came out with a very 
strong accusation which I strongly disagreed with that this 
would create a welfare state for Puerto Rico should statehood 
become the option.
    But I wanted to ask your response. Should the Congress 
equate statehood with dollar signs?
    Mr. Rossello. I think that in discussing this issue the 
main parameter should be the parameter of civil rights. I have 
not seen anybody in this Congress saying that because a certain 
population in Alabama or Mississippi or Iowa is deprived of 
their citizen rights, that they will not move to ensure those 
citizens' rights on the basis of cost alone. I think it is a 
valid point to argue about, but I think when we discuss this we 
should have the cost related to statehood, to commonwealth and 
to independence. Each one has a cost. Each one has an economic 
cost and each one has political or other costs.
    So if we want to discuss the issue on that scenario, we 
have to make sure that we project the cost of remaining as we 
are now. And the costs are considerable. And I would suggest 
that the costs are higher than if you would go toward 
statehood, because at some time Puerto Rico will become a 
contributing partner to the union, to the nation. So if the 
cost issue is discussed, it has to be discussed on equal terms 
for all options.
    Independence has a cost, and we will hear and we have heard 
independence proponents suggest that the United States keep 
some measure of payments to Puerto Rico. So each one has some 
costs and we should define what those costs are and what the 
net flows of costing toward Puerto Rico and for Puerto Rico to 
the United States would be. And I think, again, the main issue 
here is one of civil rights, whether we can indeed keep 3.8 
million U.S. citizens from having their full citizen rights or 
in the opposite extreme allow them to be independent and 
exercise their full rights to a separate sovereignty.
    That is the basic issue here. The cost issue, I think, is 
pertinent, but it should not be overriding, and when it is 
analyzed it should be analyzed for the three options that are 
presented in this bill.
    Mr. Faleomavaega. Governor, I appreciate you elaborating on 
that question I raised, but, you know, as far as I am concerned 
you can never equate any dollar sign to the----
    Mr. Rossello. I agree.
    Mr. Faleomavaega. [continuing]--blood the sons and 
daughters of Puerto Rico have shed for all these years in the 
wars that have been fought.
    Mr. Rossello. I agree with you.
    Mr. Faleomavaega. And I really--to me it is an insult to 
think that any option that Puerto Rican people should choose, 
that we have to put dollar signs to make that as a measurement. 
I think that the people of Puerto Rico have made the ultimate 
sacrifices, as they have already, and I sincerely hope that the 
Congress will be receptive to whatever option the Puerto Rican 
people decide for themselves in the future.
    Mr. Rossello. Thank you for your views. I share them 
totally, but since I know that we will not be able to curtail 
the debate, it will come up naturally as long as we are, in a 
sense, conscious of what the priorities are. And as long as we 
debate even those other aspects which may be economic or which 
may be others, that we keep in mind your eloquently stated 
position the rights of the people over the cost.
    Mr. Faleomavaega. Thank you, Governor. Thank you, Madam 
Chairman.
    Ms. Cubin. And the gentleman from Illinois, did you have 
some questions?
    Mr. Gutierrez. There are no other members of the Committee?
    Ms. Cubin. Oh, Mr. Kennedy.
    Mr. Kennedy. Thank you, Madam Chair. And thank you, 
Governor, for your testimony. I wanted to go back to a question 
I asked in the last panel and ask you to answer it as well. Put 
into context the plebiscite that has been the source of much 
consternation with respect to the confusion that was related to 
it so that we don't end up repeating past mistakes and further 
exacerbating the feeling of frustration of the Puerto Rican 
people about their own self-determination. Would you comment on 
Ms. Velazquez's points that she made in the last panel with 
respect to the 1953 agreement between the United States and the 
United Nations with respect to enhanced commonwealth, the fact 
that this country did not respect that and did not fully heed 
its obligations under that or whether it was part of the 
territorial status that you spoke about just in the past 
question that was asked. And is it possible to have a bilateral 
relationship as is promised by advanced commonwealth, or is 
that not possible? Could you explain whether--more about your 
opinions about these issues.
    Mr. Rossello. The 1993 referendum in Puerto Rico did have 
an effect. These hearings are the result of that referendum or 
that plebiscite. We have seen that the legislature of Puerto 
Rico on two occasions has asked the Congress to respond to 
those results of the 1993 plebiscite in Puerto Rico. It was a 
plebiscite that was locally authorized, did not have a 
commitment from Congress, and on the basis of that plebiscite 
the legislature on two occasions has asked Congress to act.
    I think this bill is a response to that 1993 plebiscite. I 
think this bill embodies the answer of Congress to the 1993 
plebiscite. And in doing its--in assuming its responsibilities 
under the Constitution of authorizing a Congressionally 
sponsored plebiscite with Congressionally defined, valid 
options, I think that is the most positive response that we 
would have expected from Congress. So I think that, yes, the 
1993 plebiscite has had its impact and the fact that we are 
immersed in this process now is ample evidence of that.
    Secondly, we have to go back to basics. It is not what each 
one of us wants, because I might be tempted to say in my 
definition of statehood that I would require the future State 
of Puerto Rico to have the landing rights to the moon, the 
lunar landing rights would be a part of the 51st State. Maybe I 
would want that, but is that valid? And so in the same sense I 
think we all, those who advocate statehood, those who advocate 
commonwealth, those who advocate independence or free 
association, should submit their views so that they be analyzed 
and finally stated as valid by the Congress, who I believe has 
the powers under the Constitution to legislate for the 
territories.
    So again, I think this process is one that allows that to 
happen. The Chairman and Ranking Democrat of this Committee 
have written to each one of the political parties in Puerto 
Rico and have allowed them to submit a proposed definition. 
Obviously, it may be different from 1993 where no limitation 
was placed on the definition that appeared on the ballot. This 
time there will be a so-called reality check. I am sure if I 
convinced my colleagues to submit a statehood definition that 
has the lunar landing rights for the 51st State, that would be 
taken out by Congress because it is not a valid option.
    So in essence I think we are seeing a process where there 
is input and there is, to a certain extent, an analysis and a 
validity check under the Constitution and under international 
law to make sure that the options that appear in the ballot are 
valid options.
    Mr. Gutierrez. Will the gentleman yield?
    Ms. Cubin. The gentleman's time is up. Are there any other 
Committee members who would have a question? I will finish with 
the Committee, and then I would love to recognize you, Mr. 
Faleomavaega.
    Mr. Faleomavaega. Thank you, Madam Chairman. Governor, 
again, another--I think one of the most difficult issues that 
was derived as a result of the 1993 plebiscite was the fact 
that there was a plurality and not a clear majority.
    Mr. Rossello. Yes.
    Mr. Faleomavaega. Now we are going through the process 
again. And let us say that the statehood obtains a 46 percent, 
commonwealth gets 42 and independentistas get 12. Do you have 
any suggestions how we resolve the continuous situation over 
plurality rather than the clear majority if it comes to that 
point in the future plebiscite?
    Mr. Rossello. Well, I think that there is almost--I 
wouldn't call it unanimous, but there is a consensus that the 
current status is one that is transitory. If we cannot make up 
our minds, then we remain in the current status, but this bill 
addresses that reality by saying that periodically the people 
of Puerto Rico would be consulted until they finally choose a 
stable and final status. So again, I hope that doesn't happen. 
If it happens, it is, you know, our own choosing. But if we 
cannot, so to speak, get our act together and by majority vote 
choose one of the paths to full self-government, then 
unfortunately we will remain in this transitory status until we 
make up our minds.
    Mr. Faleomavaega. Governor, I thank you, because one of the 
problems, as I have seen over the years, I think one other 
major plebiscite that took place in Puerto Rico was since 1967. 
And then that was just kind of put on it, in fact, on the part 
of the Congress. We just didn't do anything despite, I am sure, 
there being a lot of proposals or a lot of offers from several 
administrations on behalf of the government of Puerto Rico. 
Still Congress did not act. Am I correct in that observation?
    Mr. Rossello. That is correct.
    Mr. Faleomavaega. So this is where we are at now?
    Mr. Rossello. Yes.
    Mr. Faleomavaega. And it is very easy to put the blame, the 
finger, on it and say who it is that was at fault. And I have 
to say, Madam Chairman, that we are not exactly angels 
ourselves in terms of what we should have done. We never did 
anything. Thank you, Governor. Thank you, Madam.
    Ms. Cubin. Are there other Members who have questions? I 
came in late, so I don't know who was here first. The gentleman 
from Illinois.
    Mr. Gutierrez. Thank you so much. Number one, let me 
welcome you here to the Congress of the United States and 
congratulate you on your resounding reelection victory last 
November as Governor of Puerto Rico and to share with you that 
outside of this I look forward to working with you on those 
issues. I wish you Godspeed in your mission during this next 
four years as Governor of Puerto Rico and look forward 
specifically to discussing and working with you on making 
economic viability of jobs in Puerto Rico and other kinds of 
social/economic issues viable in working with you in that 
spirit, Governor. Welcome once again.
    Two quick questions, Governor. I agree with the gentleman 
from American Samoa that we should not equate self-
determination with dollars. But as you rightfully interpreted, 
this Congress will do that in terms of the admission of Puerto 
Rico as a State into the union should we arrive at that point.
    Let me just ask you, how do you see the process? Have you 
envisioned the process of Puerto Rico as a State, and what 
kinds of things do you see will happen differently than under 
the current status having the power of statehood that will 
allow you to grow and expand the franchise, the economic 
franchise in terms of contributions to what you will then be, 
part of the Nation as a whole.
    Mr. Rossello. Well, very basic in that respect is the power 
of participation. The same way you advocate for your district 
in Chicago, the same way you promote the development of 
business and business opportunities very forcefully for the 
people that elected you, I would see that a major component of 
allowing Puerto Rico to really compete on a equal basis would 
be the representation that Puerto Rico would have in this body. 
We would have certainly two Senators. We would have six to 
seven Congress persons here in this body that makes decisions 
about economic matters and about social matters.
    So essentially if you look at the history, if you look at 
the fact that was mentioned here before, some territories 
before like Alaska and the differences when they were territory 
to the rest of the economic parameters of the States and you 
look at Puerto Rico, 50 years ago Puerto Rico had 50 percent of 
the income per capita that Mississippi had. Fifty years later, 
Puerto Rico still has 50 percent.
    So if you are concerned about the development of Puerto 
Rico in reaching more equitable levels of economic development, 
then you should think of the current status as one that limits 
the possibilities of Puerto Rico and which by history you have 
seen many of the previous territories that have inferior 
economic parameters when they were territories move up toward 
more equitable levels of economic development.
    So I think the--it is intrinsic in being a part of the 
system if you are a part of the system and you are 
participating in decisions, the system will allow you to come 
up to the level of other jurisdictions.
    Mr. Gutierrez. Thank you, Governor, for that answer. One 
other question. As we look at--earlier I suggested, Governor, 
that sometimes I am a little perplexed at just how we deal with 
1952 and the adoption of the free association and subsequently 
going to the United Nations and independentistas going before 
the United Nations and saying, you know, that is really not 
enough, adding an extra paragraph or saying that mutually the 
United States and the people of Puerto Rico are going to have 
to develop this free association so that it can reach full 
self-determination. But that really did happen, that historical 
linkage did exist.
    Now as we go into the future, given the fact that in 1952 
it was established by Congress to the United Nations that you 
could have an autonomous version of free association between 
Puerto Rico and the United States, which would decolonize it 
because they accepted it as decolonizing at the United Nations, 
that allowed there to continue to be American citizenship of 
the nationals in Puerto Rico in that relationship, what is 
changed today that will not allow, in your opinion, for there 
to be such a status, or proposal maybe, for the people of 
Puerto Rico that would continue to allow American citizenship 
as a guarantee under that status?
    Mr. Rossello. Congressman Gutierrez, if you look at the 
records of Congress, it amply supported and was very clear that 
Congress never intended changing the basic relationship between 
the United States and Puerto Rico, that what Congress did--and 
this is in all Congressional records. What Congress did was to 
statutorily allow the people of Puerto Rico to adopt a 
constitution for internal affairs and internal government. 
External relation between Puerto Rico and the United States was 
not changed. In no--it is stated in a positive way in every 
area of the Congressional record, and in no place can you see 
where Congress said that it would be renouncing its power under 
the territorial clause.
    An interesting thing happened on the way. Both at the 
United Nations and to the people of Puerto Rico a different 
story was taken. And I think it is time that we look at that, 
and it is time to reconcile what was actually done with what 
was projected.
    Having said that, I must say that I do not wish to enter 
into a war of recriminations, who was right, who was wrong. But 
let us start from here and let us solve the problem. Let us say 
what are the alternatives that are valid internationally under 
the United Nations. And I have been to the United Nations with 
many of my colleagues here. And let us forget about the 
interpretation, because for me it is very clear. However, if we 
are really committed to solving this, let us go forward and not 
so much look backwards.
    In looking forward, the United Nations is very clear as to 
what options can be offered territorial jurisdictions. One is 
integration, full integration, which is statehood. The other is 
full independence. And the third is a form of free association, 
which has to be, again, under two separate sovereignties that 
reach an agreement. So again, I go back to my initial position 
that the basic question we have to answer is whether we want to 
be within U.S. sovereignty with U.S. citizenship or without 
U.S. sovereignty and U.S. citizenship. Very simple. And that is 
totally consistent with what the international community 
accepts today as ending colonialism.
    If you go to the United Nations and you say that you have a 
jurisdiction which does not participate and does not elect 
representatives that have a major decisional power over the 
inhabitants of that jurisdiction, they will tell you that that 
is a colony. And that is the real situation in Puerto Rico 
today.
    Mr. Gutierrez. Governor, thank you for your answers. And I 
will, after this meeting, evaluate them very carefully so that 
I can continue to work with the members of this Committee to 
see if we can't foster a relationship that will end the 
colonial situation in Puerto Rico. And I look forward to 
working with you once again. Thank you so much.
    Ms. Cubin. The gentlelady from New York, Ms. Velazquez.
    Ms. Velazquez. Thank you Chairlady. Mr. Governor, thank you 
being here and welcome. You know, it is really very troubling 
for me to listen to interpretation of what happened in 1952. 
And in some ways when you state that the United States 
government has been misrepresenting and that what occurred in 
1952.
    And what took place in 1953 was the bilateral compact was 
ratified by Resolution 748 at the United Nations and that the 
United States went--the government went to the United Nations 
and stated very clear that there was a self-government 
established in Puerto Rico by nature of a bilateral compact. So 
that happened and now you are telling us your interpretation.
    We could clearly state that what this government has been 
doing has been a political sham and a charade that didn't 
respect the people of Puerto Rico and that this government has 
a responsibility to repair the damage and the pain that it has 
caused to the people of Puerto Rico.
    When my colleague Patrick Kennedy asked you the question in 
reference to what I stated earlier, I think you didn't answer 
that because specifically he was referring to the fact that 
there was a bilateral compact that was agreed upon by the 
people of Puerto Rico and this government.
    Mr. Rossello. If you are asking me, I am still looking for 
that bilateral compact. I haven't found it anyplace.
    Ms. Velazquez. Well----
    Mr. Rossello. All I found is a statute by the U.S. Congress 
allowing Puerto Rico to establish a constitution for internal 
affairs. Nowhere--you are here in Congress. You can look at the 
records. Nowhere in Congressional Records--and this is where 
the decision was taken. It was not taken at the United Nations. 
It was taken here. And in this body nowhere does it say that 
Congress abdicates or renounces its Constitutional prerogatives 
over any of the territories, including Puerto Rico. So if that 
wasn't changed, then the relationship between Puerto Rico and 
the United States was not changed.
    Now, I cannot answer for what other people, including the 
government of Puerto Rico at that time, represented to the 
people of Puerto Rico. I think that was a misrepresentation, 
yes.
    Ms. Velazquez. And I think later on, Mr. Chairman, we are 
going to have the Administration testify presenting their 
position.
    The Chairman. Oh, yes.
    Ms. Velazquez. Yes, and----
    The Chairman. You better read their testimony. It is quite 
interesting.
    Ms. Velazquez. Yes, well----
    The Chairman. I----
    Ms. Velazquez. My concern is, Mr. Chairman, that I would 
like with your permission to request that a copy of the 
transcript that took place in 1953 be included as part of this 
hearing--at the United Nations.
    The Chairman. I don't----
    Mr. Miller. I would support that.
    The Chairman. I would suggest in all due respect--ever time 
we hear the word United Nations, I get a little antsy, so----
    Ms. Velazquez. Well----
    The Chairman. I understand. I understand.
    Ms. Velazquez. It works when it is a way for the United 
States to go and to deal with public opinion about something 
that went wrong. And this government is responsible for that.
    Mr. Romero-Barcelo. Would the Congresswoman yield?
    Ms. Velazquez. Sure.
    Mr. Romero-Barcelo. I wanted to add that it was not only 
the national government, the U.S. Government that went to the 
United Nations and misrepresented what happened, but also the 
government of Puerto Rico corroborated with that 
misrepresentation. And they collaborated in the United Nations 
and they misrepresented it also to the people of Puerto Rico 
and have been misrepresenting it to the people of Puerto Rico 
for all these years.
    Ms. Velazquez. Yes, Mr. Chairman, my minutes are still----
    The Chairman. I am not arguing that. Go right ahead.
    Ms. Velazquez. I just would like to say that is why in my 
statement before I made it very clear that it is important that 
we offer and we provide to the people of Puerto Rico every 
information and the facts about each formula that will be 
presented to the people of Puerto Rico, because then maybe two 
years later or four years later we are going to come back and 
say well, I wasn't part of that, you know. So it is really 
troubling. We need to provide the people of Puerto Rico with 
every information and every fact so that we do not come back 
and say, oh, I am sorry, that wasn't part of the record, that 
wasn't part of what we intended.
    The Chairman. I agree. I will say this in defense of the 
people of Puerto Rico. If I had as many people in my great 
State and other States as interested in the process, 
participate in the process as much as it does in Puerto Rico, I 
would be quite proud. When I see 47 percent of the people 
voting nationwide in a Presidential election, it is very 
discouraging. Puerto Rico is quite high when they have 
participation.
    The gentleman from New York.
    Mr. Serrano. Thank you, Mr. Chairman. Let me first preface 
my comments, Governor, by also welcoming you. You visit us on a 
regular basis, so it is a re-welcome. And, as you know, I grew 
up in New York. I am one of those New Yorkers who grew up, like 
so many other Americans, during the Vietnam era, in a love/
distrust relationship with my government, loving my government, 
loving my country that I was being raised in, but distrusting a 
lot of what they told me about Vietnam and about a lot of other 
things.
    So it doesn't surprise me that my government didn't tell 
the truth in 1950, '51 and '52. In fact, I know that they 
didn't tell the truth. I know they don't tell the truth now 
when they say Puerto Rico is equal. It is not. Ask my cousins. 
They are not equal and they are not independent.
    Now I notice, Governor, that--you might have answered my 
question already, but I want you to elaborate somewhat on it. 
There must have been a process for you and your party, and 
those who have been in your party before you, to reach a point 
where you can comfortably use the word ``colony'' and the 
phrase ``colonial status''. Was that done through a difficult 
situation within the party, or did the party reach that from 
the kind of comments that you brought up here today?
    In other words, how does your party agree with the 
independence party on the point that it is a colonial status?
    Mr. Rossello. I think we agree because we are looking at 
the facts. And if history shows us the different steps that 
were taken and if at the end of that route we apply a litmus 
test as to whether a jurisdiction is represented 
democratically, whether it is enfranchised or not, then you 
have to reach the conclusion no matter what happened here that 
this is a colonial status. That is why I again urge this 
Committee and Congress to put aside the historical 
contradictions.
    If we are really committed to solving this problem, and I 
think if you look around the room you see that this is almost 
100-year-old problem. We should be able to solve that. And 
again, as Governor of Puerto Rico, whatever the people decide, 
that is what it will be. I have my own choice, but whatever the 
people of Puerto Rico decide. They should know the valid 
options. If we spend so much time arguing about what somebody 
said in the United Nations, I gather we will reach conflicting 
opinions, because in the United Nations everybody said whatever 
they wanted.
    I have been to the United Nations. I have been at hearings. 
Many of my colleagues here have also. And we can argue about 
this forever, but again I urge you let us not get bogged down. 
If we feel like I think everybody here feels, that this 
continuous debate over status is holding us back, then let us 
solve it. If we, as I think all of us agree here, if we feel 
that we cannot get together on education and on health and on 
job creation because we have different views which do not allow 
us to come together on those basic issues, let us solve the 
problem now. Let us not look backwards. Let us look forward.
    And I suggest again that this is a historic opportunity. We 
will be having 100 years when this problem was first presented, 
almost 100 years. We are also nearing a new millennium, a new 
century, which also should allow us to be open in our minds and 
allow us to look at change as something natural. And when we 
look at all these things, I think everything is coming together 
so that we can finally solve this problem for the good of the 
people of Puerto Rico and also for all U.S. citizens in our 
nation. And if we take this opportunity to just squabble a 
little bit more as to what happened in 1952, I think we will be 
degrading from what I think is a very noble objective of this 
bill presented by Chairman Young.
    Mr. Serrano. Let me see, Governor, if I have some time left 
here--I just wonder if you personally have taken a look--my red 
light just went on.
    The Chairman. I will give you 30 seconds.
    Mr. Serrano. OK, on the issue of the stateside vote, and 
what feelings you have personally on whether, first of all, it 
could be carried out and if it has any merit.
    Mr. Rossello. I have problems on two areas, two levels. One 
is what Carlos Romero-Barcelo mentioned. It is very difficult 
for me to think of people that will not suffer or benefit from 
the consequences of a decision to be involved in that decision. 
If you would tell me that the people that voted that were 
outside of Puerto Rico, not residents of Puerto Rico, would 
live by the consequences, if the people that voted here and 
voted for independence would be willing to give up their 
citizenship and go back to Puerto Rico and live under a 
separate nation, then I think that would be valid. But if you 
are telling me that people will be voting and then not really 
living the consequences of that decision, that is very hard for 
me to accept.
    The other part is what you mentioned, and I think it is 
lesser of an objection, that we have established in Puerto 
Rico, I think, a very credible electoral process and structure 
which allows everybody that wants to participate to have 
participation. How will you extend that same privilege to the 
Puerto Ricans either born in Puerto Rico or children of people 
born in Puerto Rico throughout the 50 States? And I think it 
might be easy to do it in New York and it might be easy to do 
it, maybe, in Illinois, but some of the other States might be a 
little bit more difficult. So that is a practical question that 
I have. It doesn't mean that if you come up with a practical 
solution to that practical question I will----
    Mr. Serrano. I think the greatest country on earth can pull 
it off if they wish to pull the vote outside.
    Mr. Rossello. If that----
    Mr. Serrano. And, just in closing, Governor, we have been 
living the consequences. My parents are buried in the Bronx 
because we lived the consequences of forced migration. So in 
many ways we have already lived the consequences of the status. 
We are willing to roll some dice on what the future 
consequences will be.
    The Chairman. I want to thank the Governor. You have been 
on the stand now for an hour and 20 minutes and you also sat 
here all day, and I want to congratulate you on that and your 
excellent testimony. And you are excused.
    Mr. Rossello. Thank you, Mr. Chairman.
    The Chairman. Next we have the Honorable Ruben Martinez, 
President of the Puerto Rican Independence Party, San Juan, 
Puerto Rico. Mr. President, you can sit down anytime you would 
like to, and as soon as it quiets down we will proceed.
    Mr. Serrano. Mr. Chairman, may I ask a question for a 
second?
    The Chairman. Absolutely.
    Mr. Serrano. I noticed you referred to Senator Berrios as 
President. Is that an opening for future----
    The Chairman. Very frankly, I think it would be an 
excellent improvement. He is better looking, and he doesn't 
fall down as often. Go ahead.

 STATEMENT OF RUBEN BERRIOS-MARTINEZ, PRESIDENT OF THE PUERTO 
        RICAN INDEPENDENCE PARTY, SAN JUAN, PUERTO RICO

    Mr. Berrios-Martinez. Mr. Chairman and members of the 
Committee, for almost a century Puerto Ricans of all political 
persuasions have struggled unsuccessfully for the recognition 
of our full political rights as a people before a Congress that 
has for the most part been hostile or insensitive to our 
demands. Today on the verge of the 21st Century, it is a source 
of optimism that Congress finally begins to recognize its 
centennial obligation to decolonize Puerto Rico.
    But before H.R. 856 becomes an effective and acceptable 
instrument for the solution of Puerto Rico's status problem, 
certain condi-

tions should be met and certain pitfalls avoided, some of which 
require major changes in the bill. One of them is the essential 
objective and nature of the bill must be maintained at all 
costs. This bill unambiguously faces and proposes a solution to 
the fundamental issue of sovereignty by promoting a decision 
within two paths, one under U.S. sovereignty leading to 
statehood and the other under Puerto Rico sovereignty leading 
either to independence or free association. Territorial 
commonwealth, on the other hand, is viewed as a problem to be 
outgrown and superseded.
    Two, so long as this fundamental objective is preserved, 
the legitimate interest and demands of all the participants in 
the status debate must be provided reasonable accommodation. In 
this context, while independence and free association, as 
modalities of Puerto Rican sovereignty, must continue to be 
grouped under the same heading on the proposed plebiscite 
ballot, their distinctiveness should nevertheless be clarified. 
Free association and independence are members of the same 
family, but they are first cousins, not identical twins.
    I propose, therefore, that the bill be amended to flesh out 
the free association and independent modalities within the 
separate sovereignty alternative, or as I prefer to call it the 
Puerto Rican sovereignty alternative. Once free association has 
been reformulated to address the legitimate concerns of its 
proponents, it will be totally unnecessary to include the 
territorial status quo as an option. Even the Popular 
Democratic Party rejects that option of an unincorporated 
territory subject to the powers of Congress under the 
territorial clause. It would be a perversion of the concept of 
inclusiveness to include a colonial or territorial option that 
nobody favors.
    Three, this bill at least should reflect a sense of 
Congress regarding the truly critical questions which you will 
have to face and answer in case of a statehood petition. 
Congress should not convey the impression that a mere majority 
vote in the plebiscite is the only condition for statehood. I 
am convinced that if this bill is perceived in Congress as 
implicit commitment to grant statehood after a majority vote by 
the Puerto Rican electorate, it may never become law.
    In this context, crucial questions regarding statehood for 
Puerto Rico arise which should be addressed in this bill, even 
though Congress cannot answer these questions in a way that 
will bind the future Congress. Is it the sense of Congress that 
statehood for Puerto Rico would be possible unless English 
becomes the primary or common language of Puerto Ricans? Would 
statehood be a realistic option so long as Puerto Rico's per 
capita income remains one-third that of the United States and 
one-half that of your poorest State considering the 
repercussions of that reality on the Federal treasury? Is 
statehood conceivable without an overwhelming political 
consensus in its favor in Puerto Rico? Is Congress willing to 
face a Caribbean Quebec if a minority for separate sovereignty 
should become a majority in the next generation?
    At a minimum, Congress should make clear that if statehood 
achieves a sufficient majority, but does not then act favorably 
on the petition within a reasonable period of time, then 
statehood should be deemed to have been rejected. In such an 
eventuality, the bill should provide that in order to achieve 
its primary decolonizing objectives, the people of Puerto Rico 
should then choose between the remaining alternatives, that is 
between independence and free association.
    Four, fairness and objectivity should be maintained 
regarding the status definitions as they refer to the potential 
economic effects of the different alternatives. Congress has 
constitutional and international obligations with Puerto Rico's 
decolonization, in addition to moral and legal commitments 
after 100 years of U.S. occupation. In this context, Congress 
should be explicit in its willingness to obtain a smooth and 
fair transition toward independence as well as regarding the 
creation of a reparations or development fund.
    Free trade and economic cooperation are not the exclusive 
prerogative of statehood and are clearly available for 
independence in this age of globalization and regional economic 
arrangements.
    Five, it is of the utmost importance that Congress face the 
matter of U.S. citizenship under Puerto Rican sovereignty in a 
clear and realistic manner. Let us begin by separating myth 
from fact. I am firmly convinced that the principal value that 
the immense majority of Puerto Ricans attach to their U.S. 
citizenship is their right to travel freely to and from the 
United States. One should remember that free transit and free 
trade have been part of the U.S.-Puerto Rico relations since 
1900, 17 years before Puerto Ricans became U.S. citizens.
    As in the matter of trade and economic cooperation, if 
Congress expresses or implies that free transit is only 
possible under statehood, it would be promoting an artificial 
pro-statehood majority that has nothing to do with the spirit 
of patriotic commitment to the United States, which should be 
the real basis of a serious pro-statehood sentiment. Loyalty to 
one's nation and freedom to travel to other nations are, as 
Americans well know, two different things.
    As far as we independentistas are concerned, we aspire 
exclusively to our own Puerto Rican citizenship in an 
independent Puerto Rico. But as regards those Puerto Rican born 
before independence who want to retain their U.S. citizenship 
after independence, they should be allowed to retain it.
    As regard Puerto Ricans born after independence, Congress 
would be wise to allow for free transit arrangements within 
both countries. The European community stands as an example of 
this type of free transit agreement. Moreover, I remind you 
that a very large percentage of the Puerto Rican nationals 
reside in the United States. And it was the U.S. who, after the 
invasion of our nation, created and promoted free transit.
    Six, the bill should be amended to substantially reduce the 
timeframe provided for the full implementation of the different 
alternatives.
    Seven, to guarantee that all the options have adequate and 
equal access to public funding in the plebiscite campaign.
    And eight, the bill should be amended as to who will have 
the right to vote in the plebiscite. It should be obvious that 
if the plebiscite is not a general election to select public 
officials but a special election to advance the cause of self-
determination of the Puerto Rican people, only Puerto Ricans 
and not merely residents of Puerto Rico should have the right 
to vote. By Puerto Ricans I mean those born in Puerto Rico or 
of Puerto Rican parents who reside in Puerto Rico or though 
residing outside have the intention to return to live in Puerto 
Rico. As an exception, those non-Puerto Ricans who have lived 
in Puerto Rico for a substantial period of time and who intend 
to remain should have the right to participate also.
    Before concluding, Mr. Chairman, I wish to set the 
historical record straight concerning the participation of my 
party, the Puerto Rican Independence Party, in this process. 
The Puerto Rican Independence Party is convinced that statehood 
or integration into the United States as a State of the Union 
is not a valid solution to the colonial problem of Puerto Rico. 
Puerto Rico is a distinct, mature, Spanish-speaking, Latin 
American Caribbean nation. To argue that Puerto Rico is not a 
nation is as absurd as to argue that blacks in the U.S. were 
not human beings before the abolition of slavery.
    For a nation such as Puerto Rico, statehood would be a 
dilution, if not an abdication, of our right to govern 
ourselves as Puerto Ricans, no matter how intensely we exercise 
our voting franchise. The problem of Puerto Rico, contrary to 
what the Governor of Puerto Rico thinks and has expressed here, 
is not a problem of disenfranchisement of a minority or an 
issue of civil rights, as some people believe. It is not a 
problem of individual rights. It is a problem of national 
rights, of the inalienable rights of a nation, of a people, to 
govern themselves.
    Even Puerto Rican statehooders postulate our right as a 
people to our distinct identity, ``Jibaro'' statehood they call 
it. Puerto Ricans of all persuasions proudly and forcefully 
proclaim that Puerto Rico's language and culture are not 
negotiable under any status. You should be aware, therefore, 
that the primary loyalty of Puerto Ricans is to Puerto Rico, 
not to the United States or to any other nation. Quebec and 
Ireland are but contemporary reminders of the dangers that 
ensue when nations attempt to absorb other nations. Nations by 
definition cannot give up their inalienable right to self-
determination and independence, that is, their right to secede.
    Independence, on the other hand, members of this Committee, 
is the ultimate empowerment necessary to break the cycle of 
impotence and dependence which has become endemic to our 
colonial relationship, which would only become more acute under 
statehood and which inhibits our development and undermines our 
dignity and our self esteem. Moreover, it would be the 
beginning of an end of ever-increasing dependence on the 
Federal budget and a source of goodwill toward Latin America.
    We are thus convinced, Mr. Chairman, that when the process 
comes to an end here in Congress, the United States Government 
will come to the conclusion that the only true option for both 
our countries is independence, but we are not there yet. We are 
not there yet, and it is thus necessary that the process work 
its way.
    The relationship between colonizer and colonized denies the 
essential equality of nations in the same way that the relation 
between master and slave denies the essential equality of human 
beings. It denigrates the colonized and it demeans the 
colonizer. For the honor and respect of both our nations, let 
us bring it to an end. Thank you very much.
    [Statement of Ruben Berrios-Martinez may be found at end of 
hearing.]
    The Chairman. Thank you, Mr. President. I always enjoy your 
presentations. You do it with enthusiasm and belief, and I 
admire that. As I was sitting here listening to you, we have a 
party in my State that you probably could run for and win and 
do quite well, just to give you an idea. Unfortunately we lost 
our leader up there two years ago. And I will also compliment 
you on the suggested revisions of the bill. Although I may not 
agree with all of them, definitely they were very constructive 
suggestions. And I often think if more witnesses would do that, 
I think we could probably work a lot more of our problems out. 
Those that just say no sometimes give me great concern. So I do 
thank you.
    And at this time I am going to turn the chair over to 
Carlos for a few moments. I have another appointment I have to 
meet with some of my constituents. I will be right back, so if 
he--watch him. Make sure he runs this fairly. Watch this 
bipartisan relationship here. I want you to know that I didn't 
go to Hershey. I don't need to go to Hershey, you see.
    Mr. Berrios-Martinez. Before you leave, Mr. Chairman----
    The Chairman. Yes.
    Mr. Berrios-Martinez. I would like to tell you in all 
honesty that it is a real pity that Alaskans were Americanized 
before they could become a U.S. State and therefore their right 
to self-determination is a quivering subject.
    The Chairman. It is not dead yet, because we have now a new 
era in Alaska where there is approximately 110,000 American 
natives that have decided that they may want to be sovereign 
within a State. This is a very interesting discussion, by the 
way.
    Mr. Romero-Barcelo. [presiding] We will proceed with the 
questions. We will start with the Congressman from Samoa.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I want certainly 
to commend Senator Martinez, President of the Independentista 
Party for not only his eloquence but certainly his firm 
commitment to the cause that hopefully the people of Puerto 
Rico will be granted independence to become a sovereign nation. 
I did note in your comments that in the recommendations about 
some of these issues that the Congress will have to clarify, 
but it is becoming very controversial in and of itself. You had 
indicated earlier that--in your statement that commonwealth and 
independence are not identical twins but they are brother and 
sister relationship? Oh, they are cousins? First cousins or 
third cousins?
    Mr. Berrios-Martinez. I said first cousins, but not 
identical twins. Not commonwealth and independence, free 
association and independence.
    Mr. Faleomavaega. Can you elaborate a little bit on that? I 
mean, I think and I am sure that we will hear from those who 
are supportive of commonwealth. You have indicated also about 
territorial commonwealth. Is there a distinction with that of 
free association?
    Mr. Berrios-Martinez. Of course. The bill recognizes it. It 
describes commonwealth in its first part and then goes into 
free association as a different alternative. But I must add 
here that once the free association modality is fleshed out and 
it is clearly distinguished from the independence modality 
within the separate sovereignty portion, then obviously the 
territorial commonwealth as it is described in the bill becomes 
totally irrelevant, because nobody wants that, not even the 
populares.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    Mr. Romero-Barcelo. Ruben, do you think that--when you say 
that not even that populares, it is obviously that the 
leadership doesn't want it, but do you really believe that some 
of the popularity people don't want it either?
    Mr. Berrios-Martinez. Well, we will have to see about that 
in the next months, but obviously I am talking about what the 
leadership has publicly said, at least before today.
    Mr. Romero-Barcelo. When you think about free association, 
do you think about free association with citizenship, U.S. 
citizenship, or----
    Mr. Berrios-Martinez. No, that is up to the defenders of 
free association to say. I propose my ideas regarding 
independence and free transit, not with citizenship, but the 
issue of citizenship is something the free association 
defenders will have to address.
    Mr. Romero-Barcelo. Thank you. The gentlelady from Virgin 
Islands.
    Ms. Christian-Green. Thank you, Mr. Chairman. The issue of 
voting in this plebiscite came up with the prior panel, and on 
that issue, the issue of non-Puerto Ricans, as you referred to 
who have lived in Puerto Rico for a substantial period of time 
was left----
    Mr. Berrios-Martinez. Vague.
    Ms. Christian-Green. Vague. Do you have some specific 
recommendations?
    Mr. Berrios-Martinez. It was purposely left vague so we can 
talk about it here and in the Senate. But I have no--for 
example, what the now-present Chairman asked before--I have no 
doubt that people like his wife who has become an integral part 
of the Puerto Rican community, of course she would have the 
right to vote without any doubt whatsoever. What number of 
years, I am not sure about that. We have talked about 20, 15, 
25. We should talk about it, but we can reach an agreement on 
that.
    Ms. Christian-Green. Just one other technical question on 
the issue of separate sovereignty. In the interest of fairness 
and making each option equitable, would you suggest that it be 
left as separate sovereignty? That suggests a bit of 
negativity. You didn't specifically make a recommendation, but 
would you recommend that it be changed to Puerto Rican----
    Mr. Berrios-Martinez. Of course. That is what I said when--
I am sorry. I would prefer to separate sovereignty, Puerto 
Rican sovereignty. What I meant is; it should be corrected. Let 
me say that regarding the issue of separate sovereignty it 
should be clearly stated that I refer to the legitimate demands 
of the defenders of free association. What is legitimate or not 
legitimate is for this Congress to decide and for us to decide 
to propose to this Congress. I didn't want to dwell on that 
issue, either. I just wanted to make this as all-encompassing 
as possible.
    And I must add here that I don't know why commonwealth 
should be described as nothing else or nothing more than what 
it is, an unincorporated territory. Why dedicate eight or ten 
paragraphs to it. If you just say it is an unincorporated 
territory of the United States, we would avoid some of the 
discussions we have had in Puerto Rico. I mean, we would go 
into the historical discussion regarding 1950, you know.
    If we agree that this is no good anymore or doesn't serve a 
good purpose anymore, let us talk about the future. If you want 
to describe commonwealth, describe it as an unincorporated 
territory and period. Don't put any more adjectives on it, 
because then it would look unbalanced. And if it looks 
unbalanced, it won't be approved. It will be approved in the 
House but not in the Senate, because many Senators and 
Congressmen have legitimate questions regarding statehood. And 
obviously they will push for a balanced bill to be presented, 
because if not they will interpret it as a statehood bill.
    If this is interpreted as a statehood bill, I repeat, it 
won't go through Congress. And we want this bill to go through 
Congress. So we should do everything in our power to be 
flexible enough in order to accommodate all participants and to 
have a just and balanced and equitable bill. And I think that 
can be reached.
    Ms. Christian-Green. Thank you.
    Mr. Romero-Barcelo. I just want to add that as far as we 
are concerned, from my experience of talking to other Members 
of Congress, I feel very, very, very assured that this bill 
will go through at least the House. And it is gaining momentum 
in the Senate. But I can assure you that it is--there is 
support in the House for this bill.
    Regarding the right of the persons to vote that live 
outside Puerto Rico, I just want to ask a couple of questions 
for the record. We have had two plebiscites in Puerto Rico, one 
in 1967 and one in 1993. Who was allowed to vote in 1967?
    Mr. Berrios-Martinez. The voters--the franchise was 
determined by the Puerto Rican electoral law, which is the same 
way as it would be now under the bill. That is why we propose 
an amendment.
    Mr. Romero-Barcelo. In other words, the 1967 plebiscite 
when commonwealth was established, the people who voted were 
the resident--U.S. citizens who were residents of Puerto Rico?
    Mr. Berrios-Martinez. That is correct.
    Mr. Romero-Barcelo. And that was the same in 1993?
    Mr. Berrios-Martinez. That is correct.
    Mr. Romero-Barcelo. Now there is a request that the rules 
be changed for this plebiscite?
    Mr. Berrios-Martinez. That is our request. That is correct.
    Mr. Romero-Barcelo. Do you really feel that the Congress 
and the people in the Senate and House would feel that well 
about saying that your citizens who reside in Puerto Rico just 
because they were not born there do not vote? Do you think that 
would be----
    Mr. Berrios-Martinez. I don't think--I don't know how they 
will feel, but I do know in justice only Puerto Ricans should 
vote, notwithstanding the fact of how some U.S. citizens or 
some U.S. Congressmen might think. We have been feeling very 
much for what other people believe or think or feel, and it is 
about time we push for what we think should be just and 
equitable and let other people worry about their own feelings.
    Mr. Romero-Barcelo. Do you think there will be court 
proceedings if people are left out of the vote if they have 
lived--were you a citizen that resided in Puerto Rico when----
    Mr. Berrios-Martinez. Maybe there would be, but I remind 
the Chairman that under the territorial clause there is very, 
very large latitude for the U.S. Congress to act contrary to 
other types of----
    Mr. Romero-Barcelo. I think----
    Mr. Berrios-Martinez. If it were not under the territorial 
clause, we couldn't be doing what we are doing now here. So the 
same thing happens as regarding voting requirements. You can be 
lax, flexible, have latitude, refer to international law. I 
think we can manage that.
    Mr. Romero-Barcelo. There will still be a lot of----
    Mr. Berrios-Martinez. Yes, there will be. I imagine there 
will be people who will go to--but there will be people who 
might go also to court for the other reason, arguing that 
somebody who has lived in Puerto Rico for seven years and who 
is not a Puerto Rican either by birth or by virtue by being 
born to a Puerto Rican father and mother has a right to defend 
the future of Puerto Ricans. I think that can be taken to court 
also.
    Mr. Romero-Barcelo. Thank you. Mr. Kennedy.
    Mr. Kennedy. No questions at this time.
    Mr. Romero-Barcelo. Mr. Gutierrez.
    Mr. Gutierrez. Mr. Chairman, thank you very much. First of 
all, I would like to say thank you very much for the statement 
that you prepared. I read it last night and it helped me 
immensely as your statements and your positions have always 
helped me in the past to prepare for today's hearing and to 
have some clarity about just how we should proceed on the 
questions of the decolonization of Puerto Rico. So, Senator, I 
would like to thank you for that, and thank you for the long 
history of dedication and commitment that you have brought to 
the struggle for Puerto Rican independence and for justice in 
Puerto Rico. I think your contributions have been enormous and 
I thank you for them, not only in my own capacity, but I am 
sure in the name of all of the Members of Congress who are here 
today.
    Senator and President of the Independence Party, I spoke 
about and I know you spoke about independence and the issue of 
fairness. So if you could describe to this Committee how you 
see the definition of independence as proposed before the 
people of Puerto Rico that would be fair, that would give you 
equity and fairness.
    Mr. Berrios-Martinez. Well, to start with, I think that can 
be accomplished here and over in the Senate because it is to 
the convenience of both parties. If it were only convenient to 
Puerto Rico, what I propose, I venture to say we wouldn't get 
too far. But since it is convenient for both parties to have a 
prosperous, exemplary democratic republic in Puerto Rico, then 
we can be sure that we can work out a way.
    Free trade, for example, is now a reality not only in 
Europe, but in NAFTA as to Mexico and Canada. So to ask for 
free trade, it is nothing new. Besides, what is the 
alternative, free trade forever under statehood? It is not 
going to be worse under independence.
    Second, free transit; the same way. Free transit is now an 
arrangement between many countries in the world. What is the 
alter-

native in statehood? It is free transit forever and for future 
generations also.
    Mr. Romero-Barcelo. Excuse me just to advise the Members of 
Congress that was two bells. The vote on the Goodling amendment 
to H.R. 1 is now on the Floor.
    Mr. Berrios-Martinez. A reparations or development fund is 
the only way to cut dependence in a sensible manner and still 
guarantee that we are going to be full trading partners to the 
United States and a good place for investment, because what we 
propose is a reparations fund that goes across or cuts across 
ten years--or a different figure--or 12 years or 8 or 15. We 
can talk about that. And then at the end of that period, that 
ceases; but that means that we would be able to develop our 
economy through these reparations funds for a period of ten 
years.
    Besides this issue, I should for the record clarify in 
order to answer your question that if Puerto Ricans saved in 
purchases to the outside world under independence one percent 
of what they today import during ten years, and if at the same 
time they substitute by Puerto Rican production (in many areas, 
particularly food stuffs), one percent of what we import, that 
two percent over a ten-year period will be equivalent to more 
than the amount of the full Federal aid today in Puerto Rico.
    So once we have the powers of sovereignty to trade with 
other nations and to bring in Japanese, European, besides 
American capital, to develop our economy and with these new 
tools we can really make a prosperous economy in Puerto Rico. 
What is the alternative? To become a permanently underdeveloped 
region of the United States with six representatives or seven 
and two senators asking for whatever is left from the people of 
the United States? Another Appalachia; because on what basis 
would Puerto Rico be able to attract U.S. capital, not to speak 
about Japanese and not to speak about German capital in Puerto 
Rico. In the republic of Puerto Rico we would have the tools to 
fully build our economy.
    The only alternative under statehood is U.S. citizenship or 
free transit in order to have more Luis Gutierrez and more Jose 
Serrano, which are very good people, in the United States 
instead of in Puerto Rico where we would like to have you. So 
it would be the depopulation of Puerto Rico and the conversion 
of Puerto Rico into a permanent underdeveloped region of the 
United States because statehood provides no alternatives for 
the economic development of Puerto Rico save more food coupons 
or more welfare. There is no way people in Maricao, you 
understand me, can attract capital to Maricao if the factory 
can establish itself in Bayamon. They will always go to Bayamon 
and they will never go to Maricao.
    For that same reason they will go somewhere else in the 
continental United States and not to Puerto Rico. That is why 
Hawaii is a tourist and military bases economy. That is why it 
is not an industrial economy. So the real reasons economically 
for Puerto Rican empowerment under independence, is to fully 
develop our economy. And that will in exchange be beneficial 
for export to the United States and for better trading 
relations.
    So that is our idea of a fully developed economy. There are 
15 or 20 smaller nations than Puerto Rico who in the last 25 
years have passed Puerto Rico in economic development, with 
higher per capita growth annually than Puerto Rico. And that is 
what we have to look for, for the powers of a republic; to add 
flexibility; to break this dependence with the United States; 
not to break our friendship but our dependence, and to become 
interdependent with the whole world. That is what independence 
is for.
    Mr. Gutierrez. Thank you very much. And, Mr. Chairman, 
thank you. I would just like to end by saying, Mr. President, I 
noticed how well prepared--as he always is, but he seemed 
exemplary prepared this morning, Congressman Jose Serrano. And 
I would attribute it to the fact that you visited with him the 
last time you came. And without getting jealous or anything 
about the situation, since I did vote for you twice and I 
believe he has never lived in Puerto Rico and participated, I 
would hope that the next time you come you would----
    Mr. Berrios-Martinez. Well, I am sure----
    Mr. Gutierrez. [continuing]--also visit me so that we can 
continue to engage in----
    Mr. Berrios-Martinez. I hope Mr. Serrano will vote for me 
next time and that you will keep your vote as you have always.
    Mr. Romero-Barcelo. Thank you. Mr. Serrano.
    Mr. Serrano. I asked, in fact, before, when Representative 
Young called you Mr. President, if that was a message for the 
future. I have no problems. And thank you for reminding me I 
never lived in Puerto Rico; just a couple of years. But I will 
remind you I was born there.
    Senator, throughout history, at least in my lifetime of 
understanding or trying to understand Puerto Rican issues, it 
was the Independence Party and the independentistas who were 
most often persecuted, not only outside the island but inside 
the island. And yet it is interesting that today, and 
throughout this debate, we are going to hear how the people who 
were empowered all those years by the status, not the people 
but the status, feel persecuted at this juncture of the 
situation.
    So my question to you, which is related somewhat to Luis' 
question, with the changes you propose, is: is this bill a fair 
bill for the independence option? I am not asking if 
independence is fair. You already answered that. Is this bill, 
with the changes proposed, a fair bill? Would you walk away 
from this process and go back to the island and say we can 
vote, on what is up there in Washington because it is a fair 
deal?
    Mr. Berrios-Martinez. It is not fair, because we have this 
historical prejudice against us. We would need many years in 
order to be able to preach in a free way which would compensate 
for what people have been led to believe through persecution, 
through public instruction in the schools, through denigrating 
everything that is Puerto Rican; through telling us that we 
cannot stand on our own two feet. You know, that takes 
generations. But we cannot wait a generation, because we might 
not have Puerto Rico left in a couple of generations. We need 
to act fast. So within the context of these limitations, we 
would see it as a fair bill if many of our conditions or 
amendments are introduced.
    It is a very interesting thing, and I cannot resist the 
temptation--I cannot resist it. Excuse me, but those who were 
accomplices in the U.N. in 1952 now want to appear as victims. 
To me that is an incredible proposition. You know, of course 
the United States lied in 1952 before the U.N., but the vote in 
the U.N. doesn't count in order to institute the parameters of 
the Constitutional role in the United States. It is a vote in 
the House and in the Senate. So what happened in Puerto Rico 
was that a number of people came here, sat in Congress and said 
nothing was going to change and then went to the U.N. and it 
was such an absurd proposition that they had to buy everybody 
off there. It was a buy and sell proposition.
    My thesis for master of law was regarding the decision of 
the U.N. It was 22/18 with 16 abstentions when the United 
States was the owner of the world. What happened there? Arms 
were twisted, you know, all sorts of objectionable procedures 
were taken there for the United States to force a 22 to 18 vote 
in the U.N. That is what happened there, and the United States 
is guilty and the Puerto Rican government at that time is 
guilty also. They are accomplices in this enormous hoax upon 
the world.
    After that happened, in 1960 came declaration of 
independence which legally superseded whatever happened in '52/
'53. But besides those legal issues, the fact is the United 
States lied in 1952 in the U.N., in 1953, and the Puerto Rican 
government fooled the whole world and lied also in the U.N. And 
then they have been lying for 40-some odd years in Puerto Rico. 
They have been telling the Puerto Rican people that we have a 
compact here. If we had a compact, what are we doing here? What 
is the part of the compact that you people are supposed to 
keep? You know, if this is a compact, it is the worst compact I 
ever saw.
    You know, so we should--I don't want to--that is why I 
couldn't resist the temptation, you know, but that is what I 
said, let us put that aside. I am willing not to speak about 
that. I urged Congressman Young, you know, be lenient in this 
matter, don't rub it in in the findings of the bill, everybody 
knows what commonwealth is. Even they know what it is. But let 
us leave that outside. Let us describe the two paths. One 
towards sovereignty of Puerto Rico and one towards the 
sovereignty of the United States, but let us not try to fool 
anybody anymore. We are grown up in Puerto Rico. We are grown 
up here.
    The United States in Puerto Rico did things in 1952 because 
the U.S. Government was so stingy that they wouldn't grant the 
Puerto Rican autonomists even what they asked for, but instead 
of accepting that fact and coming to Puerto Rico and telling 
the people, ``this is what we got,'' they tried to make out of 
what they could get from the United States something new, a 
development of federalism. It is a real pity that we have 
wasted 40-some odd years with these big hoax in Puerto Rico. 
But let us not speak about the hoax. Let us speak about the 
future.
    Mr. Serrano. Let me end. I have to go vote. I thank you for 
your support of the non-resident vote and for clarifying that I 
left it open for negotiation, because I know what I want, but 
there are other people who may want to tailor that to the needs 
of the moment.
    Mr. Berrios-Martinez. I wanted to say that. The fact that I 
favor the non-resident vote doesn't mean that I am going to let 
those people who want this to continue under colonialism to use 
that as an excuse not to participate in the process. That 
should be made very clear. I am not saying it as an excuse but 
as a matter of justice. We are past the stage of excuses. We 
have to face the issue. Either we want to be Americans or we 
want to be Puerto Ricans. That is the real issue.
    The Chairman. We have got to go vote. When we come back--
thank you, sir. The Honorable Acevedo Vila, President of the 
Popular Democratic Party will be up.
    You know, you don't have to vote. You can go ahead if you 
want to. I will be right back.
    Mr. Romero-Barcelo. The President of the Popular Party, Mr. 
Acevedo-Vila.

  STATEMENT OF ANIBAL ACEVEDO-VILA, PRESIDENT OF THE POPULAR 
            DEMOCRATIC PARTY, SAN JUAN, PUERTO RICO

    Mr. Acevedo-Vila. Good afternoon. For the record, my name 
is Anibal Acevedo-Vila. I am President of the Popular 
Democratic Party. I commend the sponsor of this bill for his 
interest in establishing the procedure for the people of Puerto 
Rico to choose their final political status. I pledge the full 
cooperation of our party to that end.
    We have made every effort to evaluate, study and analyze 
H.R. 856 and conclude that we cannot and will not support it as 
it stands right now.
    For the majority of the people of Puerto Rico that believe 
in autonomy and self-government with American citizenship as a 
bond with the United States, this bill offers no alternative. 
It will require that the more than 900,000 persons I represent 
that are against annexation as a State, choose between the 
colonial denigrating status or loosing our American 
citizenship. To vote in this plebiscite would force us to act 
against our political beliefs. It would trample us upon our 
conscience.
    When Congress decided back in 1917 to offer American 
citizenship to the people of Puerto Rico, it was made 
completely disassociated from any thought of statehood and 
specifically contemplated that it be an element of future 
autonomous self-government development for the island. To 
unilaterally change these assumptions now would confront Puerto 
Ricans with a conscience dilemma of no precedent in American 
history.
    With this bill as it stands, statehood becomes the only 
available alternative. The people of Puerto Rico would have to 
make a choice for statehood for their own reasons, not based on 
patriotism and a real commitment to the union, but because they 
have been left with no other real alternative. On the other 
hand, the U.S. Congress will have before it a petition for 
statehood, and a request for action without having considered 
properly the cultural, national, linguistic, economic 
consequences of statehood. As you can see, this bill as it 
stands would not solve any problem, but rather create a bigger 
one.
    Let there be no doubt that we want to participate in a fair 
and democratic process. As Chairman Young stated in September 
17, 1990, with regard to another referendum bill for Puerto 
Rico, and I am quoting, ``a referendum should only be 
authorized by the Congress if it is to be fair to all parties 
and the statuses they advo-

cate.'' With all due respect, the bill under your consideration 
does not comply with the fairness standard Chairman Young 
previously established.
    History shows that full autonomy and American citizenship 
are not mutually exclusive concepts. This principle was clearly 
outlined by President Taft in his 1912 State of the Union 
address advocating in favor of granting American citizenship to 
Puerto Ricans. And I quote from President Taft. ``But it must 
be remembered that the demand must be, and in the minds of most 
Puerto Ricans is, entirely disassociated from any thought of 
statehood. I believe that no substantial approved public 
opinion in the United States or in Puerto Rico contemplates 
statehood for the island as the ultimate form of relations 
between us. I believe that the aim to be striven for is the 
fullest possible allowance of legal and fiscal self-government 
with American citizenship as the bond between us; in other 
words, a relation analogous to the present relation between 
Great Britain and such self-governing colonies as Canada and 
Australia.''
    The basic principles regarding commonwealth that this bill 
pretends to deny, the existence of a bilateral relationship 
based on mutual consent with American citizenship as one of its 
components, have been recognized by the court, by the U.S. 
Government, by the United Nations, and in all the bills that 
the Congress has seriously considered with regard to the status 
of Puerto Rico in the last 25 years.
    For example, H.R. 11200-1st Session, 94th Congress, 
introduced in Congress in 1975 approved in a subcommittee, 
recognized that we--that the commonwealth was a compact between 
Puerto Rico and the United States. S. 712, approved by the 
Senate Energy Committee in August, 1989, recognizing the 
bilaterality of the relationship and the permanence of American 
citizenship. S. 244 was also considered by the Senate Energy 
Committee in 1991. It recognized Puerto Rico's autonomy, 
bilateral compact, mutual consent, and the U.S. citizenship as 
a bond of permanent union. Final Committee vote was 10 to 10, 
although major concerns to the commonwealth definition were not 
reported. Finally, H.R. 4765 approved by Interior and Insular 
Affairs, by the Interior Committee and unanimously by the House 
of Representative in August 10, 1990, allowing the people of 
Puerto Rico to vote for a new commonwealth.
    So far, I have been talking about the historic precedents 
that clearly show that the assumptions under which this bill 
has been drafted are wrong. Now it is time to talk about the 
future.
    The definition I am about to present is made recognizing 
the sovereignty of the people of Puerto Rico to enter into a 
new relationship with the United States consistent with the 
principles of dignity, political autonomy and permanent union 
that gave birth to the present commonwealth status. With minor 
changes in order to adjust it to the implementation process 
required by H.R. 856, the Popular Democratic Party believes 
that it will be adequate to work with the definition of a new 
commonwealth adopted by this Committee in 1990, which was 
included in the report to H.R. 4765 of the 101st Congress and 
approved unanimously by the full House on October 10, 1990.
    Eleven members of this Committee, including Chairman Young 
and Congressman Miller, were members of that Committee and 
voted in favor of that definition that I will now present. The 
new commonwealth shall be defined as follows.
    A, the new Commonwealth of Puerto Rico will be joined in a 
union with the United States that will be permanent and the 
relationship could only be altered by mutual consent. Under a 
compact, the commonwealth would be an autonomous body politic 
with its own character and culture, not incorporated into the 
United States and sovereign over matters covered by the 
Constitution of Puerto Rico, consistent with the Constitution 
of the United States.
    B, the United States citizenship of persons born in Puerto 
Rico would be guaranteed and secure as provided by the Fifth 
Amendment of the Constitution of the United States and equal to 
that of citizens born in the several States. The individual 
rights, privileges and immunities provided for by the 
Constitution of the United States would apply to residents of 
Puerto Rico. Residents of Puerto Rico would be entitled to 
receive benefits under Federal social program equally with 
residents of the several States, contingent on equitable 
contributions from Puerto Rico as provided by law.
    C, to enable Puerto Rico to arrive at full self-government 
over matters necessary to its economic, social and cultural 
development under its constitution, a special constitutional 
convention will submit proposals for the entry of Puerto Rico 
into international agreements and the exemption of Puerto Rico 
from specific Federal laws or provisions thereof. The President 
and the Congress, as appropriate, will consider whether such 
proposals will be consistent with the vital national interests 
of the United States in the transition plan provided for in 
Section 4 of this act. The commonwealth would assume any 
expenses related to increased responsibilities resulting from 
these proposals.
    And that is the end of the definition we are presenting. 
The definition describes the minimum content of our 
aspirations. By offering a definition which was the subject of 
serious study, was actively supported by Chairman Young and 
Congressman Miller among others, and met with the approval of 
this Committee and of the whole House a few years ago, we mean 
to show our desire to facilitate the work of this Committee and 
bring about a plebiscite in which commonwealth supporters may 
participate with a clear conscience.
    By using the mechanism of a constitutional convention to 
implement the mandate in favor of the new commonwealth, which 
is already included in Section 4(b)(1)(B) of H.R. 856, that 
recognized the calling of a special constitutional convention, 
to implement a vote in favor of the new commonwealth, we would 
adapt it to the implementation mechanism conceived by this 
bill.
    The Popular Democratic Party is looking with enthusiasm at 
the future. It is in the process of reorganizing its leadership 
and currently involved in a healthy generational transition 
that will guarantee a strong and rejuvenated party for years to 
come. The definition I have presented today fully complies with 
the principles contained in a document adopted last week by the 
Youth Organization of the Popular Democratic Party.
    Commonwealth as an autonomic idea for the future is the 
only status alternative in Puerto Rico that harmonizes those 
aspirations and goals of the modern world by protecting our 
identity and si-

multaneously guaranteeing our relationship with the United 
States, with a common market, common citizenship, common 
defense and common currency.
    We believe that the modern tendencies show that the ideas 
that will prevail in the new century will be those similar to 
the basic principles of commonwealth of national reaffirmation 
and political integration among the people of the world.
    Thank you.
    [Statement of Anibal Acevedo-Vila may be found at end of 
hearing.]
    Mr. Romero-Barcelo. Thank you, Mr. Acevedo. I want to thank 
you for your testimony, statement and also thank you for 
staying within the time limits allowed. Now I would like to ask 
a couple of questions about your proposal. But before that, I 
would like to ask a question about the plebiscite, how the 
plebiscite is held in Puerto Rico. Do you believe that the 
plebiscite bill in 1967 was a fair bill for all parties?
    Mr. Acevedo-Vila. It was a completely different process. 
That one was basically a local plebiscite. Now we are talking 
about federally authorized plebiscite and I think that if we 
want to really have action from Congress, this is the kind of 
plebiscite we need. We had two plebiscites, one called by the 
Popular Democratic Party in 1967, the other one by the 
Statehood Party in 1993. And we haven't seen any action from 
Congress. So I don't--perhaps that one should have been done in 
a different way to guarantee that the resolve of the people of 
Puerto Rico would have been respected by Congress. I think that 
is one of the major limitations we have had till now.
    Mr. Romero-Barcelo. My question is precisely whether you 
think that the 1967 plebiscite was a fair plebiscite to the 
other parties, the parties that represented statehood and 
independence? Would you say that that was a fair plebiscite as 
far as they were concerned? Having nothing to do with the 
Federal Government, just with the other parties.
    Mr. Acevedo-Vila. Well, at that time the statehood party 
did not accept the plebiscite and a new faction was created. 
And as a result, perhaps, of what happened in '67, they won the 
elections in 1968. So the statehood was adequately represented 
in that plebiscite.
    Mr. Romero-Barcelo. But we all considered it a very unfair 
plebiscite. We participated as an independent group. The party 
boycotted and so did the independence party boycott it. Both 
parties boycotted it, and they voted against the bill in the 
legislature of Puerto Rico.
    Mr. Acevedo-Vila. I don't think that for some of that the 
1993 plebiscite was either too fair. We participated and we 
won.
    Mr. Romero-Barcelo. And the 1991 referendum, do you 
consider that--was that a fair bill for the other side?
    Mr. Acevedo-Vila. In a way it is also--you could say it was 
unfair, but you won.
    Mr. Romero-Barcelo. That is right. So sometimes what is 
unpleasant, is not fair, might be to the advantage of the other 
party.
    Mr. Acevedo-Vila. I think that what we get out of this is 
that the next time we should do it the right way.
    Mr. Romero-Barcelo. The other--when I read your definition 
of a new commonwealth, and so much emphasis is made on the 
sovereignty and the separateness of Puerto Rico, vis a vis the 
United States, my mind wonders why do you really, then, insist 
on U.S. citizenship? You don't really want to be like other 
U.S. citizens. Why do you insist on that?
    Mr. Acevedo-Vila. As I showed you with the President Taft 
quote, when U.S. citizenship was granted to the people of 
Puerto Rico, it was clearly established it had nothing to do 
with statehood, and moreover that it could be the bond of a new 
relationship based on an autonomous self-government. And that 
is what we are asking. This bill--one of the problems with this 
bill is now, 60 years later, 70 years later, Congress wants to 
unilaterally give a new interpretation, but it is too late. 
U.S. citizenship was granted in 1917 under those rules, and to 
change that now is really unfair to the people of Puerto Rico.
    Mr. Romero-Barcelo. I am not talking so much about the 
unfairness that might be or might not be in Congress. My 
question is why do you want to be a U.S. citizen if you don't 
really like being part of the United States as the rest of the 
citizens? What would you want to be?
    Mr. Acevedo-Vila. Congressman, we haven't said that. I 
haven't said that. We have a special relationship, and to enter 
into a new relationship, yes, you have--the fact that we have 
here in our self-determination process, even if we vote for 
statehood, that is basically an exercise of our sovereignty. 
This Congress will decide if the people of Puerto Rico have the 
right to vote for their future. And whatever relationship we 
will have in the future with the United States has to be based 
on the sovereignty of the people of Puerto Rico, which means 
that the ultimate source of power is the people. So I don't see 
why you want to give some different computation to my 
expression when even for statehood this Congress has to decide 
that we have the power to decide. And to have the power to 
decide means to have--to be sovereign in terms of the decision 
we are going to make.
    After the decision is made and a new commonwealth is 
established, we have provided for a mechanism so the powers 
that Congress will still exercise over Puerto Rico will be 
clearly established through this process of a special 
constitutional convention, which is the only change we are 
making to the definition that in 1990 was approved by the full 
House, by this Committee and unanimously by the full House.
    Mr. Romero-Barcelo. The issue here is not only what we 
want, but also what Congress would approve and what the 
citizens for which the Congress people and the Senators respond 
would accept. Now the reason I asked that question is how do 
you think the U.S. citizens here feel when they hear or they 
read that the U.S. citizens of Puerto Rico don't really want to 
have the same things that they have or have equality in a 
democratic system which prides itself on equality politically, 
equality economically, and that they don't really want that, 
they want something else and they want to be separated and they 
want their own authority for certain other things and they 
don't want to get into the ball game?
    Mr. Acevedo-Vila. Precisely because we know that it a two-
way relationship. We are offering an alternative that was 
approved by the full House in 1990. So we are not here with a 
new wish list or whatever. We are working on what was done 
between 1989 and 1991, and in this case what was approved on 
this Committee.
    With regard to Puerto Rico, the United States and the 
people of the United States know they have a special 
relationship with Puerto Rico. They know we have different 
culture and different language and they have advantage of that 
relationship. It is not only one way. It is two ways. Common 
defense is also in the interests of the United States, and we 
agree with that. Puerto Rico is one of the best markets for 
U.S. produce, and that is good for the American economy. So it 
is a relationship healthier for both sides. And what we want to 
do now is to get new tools for economic development for Puerto 
Rico within this special arrangement that has been working 
since 1952, but that now if we are going to address this issue 
seriously we should clarify any doubts about a relationship and 
give the opportunity for it to develop into further, more self-
government, full self-government.
    Mr. Romero-Barcelo. My time is up. I just want to make a 
statement. The problem with the whole thing is the citizenship. 
If you ask for the same things without U.S. citizenship, I 
would think that the Congress wouldn't even, you know, think 
twice about it if that is what the people wanted. It is the 
citizenship that creates the real problem.
    Mr. Acevedo-Vila. That is not negotiable. Citizenship is 
not negotiable.
    Mr. Romero-Barcelo. The Congressman from Samoa.
    Mr. Faleomavaega. Thank you, Mr. Chairman. Mr. Acevedo-
Vila, am I to understand that your statement on page 9 in the 
proposed definitions that you have alluded to earlier, this has 
been submitted to Chairman Young and the members of the 
Committee? This is what you would like----
    Mr. Acevedo-Vila. Yes.
    Mr. Faleomavaega. [continuing]--have incorporated in the 
proposed bill?
    Mr. Acevedo-Vila. We were given until the 31st of March, 
but I decided that this was the moment to present, so this 
Committee clearly understands that we are not against a 
plebiscite.
    Mr. Faleomavaega. So you are----
    Mr. Acevedo-Vila. All of the party have been committed 
since 1952, even after commonwealth was enacted, we have been 
committed to giving the opportunity of the people of Puerto 
Rico to be consulted again and also to develop commonwealth. 
But the problem with this bill is that it is unfair and 
basically if you approve this bill as it stands, you don't have 
to count the votes. You will have a petition for statehood 
here, but for the wrong reasons.
    Mr. Faleomavaega. Let me ask you just--is it your position 
that you will not have any objections to this bill if the 
proposed definition of commonwealth as you alluded to earlier 
is incorporated?
    Mr. Acevedo-Vila. If this definition is adopted by this 
Committee, that means that we have changed the assumptions 
under which this Committee has been acting. You could have some 
choice or change of course then you have to make some other 
changes on the bill, for example the findings of fact, which 
even the independentistas said they are not necessary to be 
there. And of course these definitions should be part of the 
permanent solution of this issue. It is not something to--this 
one or the one that said that if commonwealth wins we have to 
have a vote every four years, it would be part of the permanent 
solution.
    Mr. Faleomavaega. You know, as a matter of observation, Mr. 
Vila, it is interesting to note that you have stated that the 
people of Puerto Rico were not granted their American 
citizenship until 1917. The American Indians were not granted 
citizenship until 1924. My good friend here from Guam was not 
granted U.S. citizenship until 1950. To this day, we are still 
not U.S. citizens as part of the American family, as I say. So 
as a matter of observation I wanted to ask you it is your 
opinion that since granting citizenship in 1917 to the people 
of Puerto Rico, your feeling is that Congress never intended 
Puerto Rico to become a State?
    Mr. Acevedo-Vila. That is clearly on the record. That has 
been decided by the courts. And also on page----
    Mr. Faleomavaega. No, I am not----
    Mr. Acevedo-Vila. No, I want to----
    Mr. Faleomavaega. Well, I want to make an addition, an 
observation of the fact that I recall that in 1929 there was a 
U.S. Supreme Court case that emanated from Puerto Rico, which 
was Downs v. Bidwell, which by judicial legislation the U.S. 
Supreme Court then created what was called the incorporation 
doctrine, meaning that if a territory was to be described as an 
unincorporated territory, they will never see the day of 
becoming a State, but if you were an incorporated territory----
    Mr. Acevedo-Vila. In that case----
    Mr. Faleomavaega. [continuing]--like Alaska and Hawaii, 
there was some sense of future that one day those territories 
would eventually become States.
    Mr. Acevedo-Vila. In that case it was after we had become 
U.S. citizens.
    Mr. Faleomavaega. Yes.
    Mr. Acevedo-Vila. And the court decided that we were not an 
incorporated territory because of the fact that we were given 
U.S. citizenship. It had nothing to do with statehood. And 
these men tried to change all that law.
    Mr. Faleomavaega. Was there any reason when the U.S. 
finally decided to grant independence to the Philippines, was 
there any discussion in the Philippine--I mean in Puerto Rico, 
as well, as your understanding of history? Was there any 
movement by the people of Puerto Rico that a likely grant 
should also be given to the people of Puerto Rico when the 
Philippines became independent?
    Mr. Acevedo-Vila. All the evidence is that Puerto Ricans 
never, never have really been interested in independence. And 
after the creation of commonwealth back in 1952, the 
Independence Party was the second party in the island, and I 
don't remember the percentage, but they got perhaps maybe 30 
percent of the vote. Now they have been down to five percent 
for the last 20, 25 years.
    Mr. Faleomavaega. Is it your basic position that--let us 
say that this legislation goes forward smoothly, that as 
proponents of a commonwealth status, whatever the will of the 
people of Puerto Rico will decide, in fairness, if it wants 
statehood tomorrow, the commonwealth proponents will accept 
statehood? Is that basically your position?
    Mr. Acevedo-Vila. We don't have any problem with that, and 
we will respect the will of the people, and we also believe 
that if it is a fair process and commonwealth is defined in a 
way that recognizes the kind of relationship we want, we will 
win that plebiscite. The people of Puerto Rico want to be--to 
keep being Puerto Ricans and also they want to keep their close 
relationship with the United States. The only way you can 
amortize that in the reality of Puerto Rico is through 
commonwealth. Independence, then you will afford--your 
nationalistic ideas and principles will be guaranteed, but then 
you won't have the close ties to the United States. With 
statehood, you are risking, definitely, your cultural identity 
and language.
    Mr. Faleomavaega. But your point is that whatever the will 
expressed by the people will be, whether it be independence, 
commonwealth or statehood, your proponents of commonwealth will 
accept that?
    Mr. Acevedo-Vila. I go a step further. On the resolution 
that was approved by my party, which is included as an appendix 
to my written statement, we say that we want any plebiscite--a 
federally approved plebiscite should be self-executing.
    Mr. Faleomavaega. Thank you.
    Mr. Acevedo-Vila. Believing that, recognizing 1989 to 1991 
process, we were the ones requiring that any bill approved by 
Congress would be self-executing.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    Mr. Romero-Barcelo. Thank you, Mr. Faleomavaega. Now, who 
is next?
    Mr. Kennedy. Thank you, Mr. Chairman. I just want to make a 
point.
    Mr. Romero-Barcelo. Congressman Kennedy.
    Mr. Kennedy. It is interesting that I have to ask a 
question now, because I get to go over and vote on the Fair 
Labors and Standards Act because I am a--I have got all the 
rights and privileges as a Member of Congress here, and yet you 
can let me go because you can't have that same right that I 
enjoy on the Floor of the House to go leave now. And yet when 
we adopt one way or another whether we can replace comp time 
for overtime in this country, it is going to affect the 
residents of--people of Puerto Rico such that at the end of the 
year they are not going to have accrued as much social security 
time. At the end of the year, they are not going to have 
accrued the overtime dollars. They are going to be at a loss of 
nearly $1600 per family of income because of this bill if it is 
to pass, and yet your representative cannot go on the Floor and 
say that is wrong for Puerto Rico because he doesn't have that 
voting privilege.
    And from my point of view, if you want to have citizenship 
and you want to have a bilateral relationship, it seems to me 
it has to include your ability to have voting power or else to 
have full determination for your people is rendered moot 
because you don't have the governmental authority to advocate 
on some very basic issues of economic concern. And that is all 
I----
    Mr. Acevedo-Vila. As to your concerns, I have adequately 
taken care on the definition I am presenting. The solution to 
that dilemma is to allow the people of Puerto Rico an 
established mechanism so we can be exempted from Federal laws 
which has nothing to do with vital national interest. We don't 
have any problem with the laws regarding to defense and all 
that, but any other law we should would have the mechanism to 
decide whether it should apply to Puerto Rico or not. There is 
no problem with that, and that will take care of your concern.
    Mr. Kennedy. Thank you very much.
    Mr. Romero-Barcelo. The gentleman from Guam.
    Mr. Underwood. Thank you, Mr. Chairman. Thank you for a 
very interesting presentation. I have always--obviously I have 
the bill that I have introduced to make Guam a commonwealth, 
and sometimes people ask what is the distinction between this 
bill and the current status of Puerto Rico, but that will come 
for another day. And that issue, I think we deal with a little 
bit differently, because as part of the legislation that I have 
for Guam includes a mechanism for ultimately making a case for 
full self-determination. So that is not a process that is 
oblivious to that, but is actually incorporated in the context 
of the legislation which we have developed from Guam.
    The question that I have for you is that in the process of 
making a case for commonwealth and assuming that this 
legislation moves forward and it has a definition that fits 
your--is to your satisfaction, and commonwealth prevails in 
this process, is it your assumption that commonwealth will then 
be a permanent status and that there will be no further 
determination, no further electoral process involved?
    Mr. Acevedo-Vila. It will be a permanent solution, of 
course. If 25, 30, 35 years from now the people of Puerto Rico 
express the will to become a State or even independence, we 
might reconsider the whole thing, but it is like when Texas was 
independent, Alaska was a republic and it was not the end of 
the discussion, but on this--from our point of view, it is a 
permanent solution, especially until--for all the time that 
Puerto Rico wants to still be part of that kind of arrangement. 
That is the concept of mutual consent.
    Going back to the question of sovereignty, when Congress 
talks about mutual consent, it is recognizing the sovereignty 
of the other side to decide in terms of any change to the 
relationship. So that is taken care of also within the concept 
of mutual consent.
    Mr. Underwood. OK, so as I understand you, and as I 
understand the advocates of your position, then, obviously 
things can always change. It could be that what is now an 
independent republic could become admitted as a State in the 
Union. It is even conceivable that a State in the Union may no 
longer be a State in the Union, but I think we take it on 
relatively safe political assumption that once you are a State 
in the Union, that is pretty much it and that once you are an 
independent country, that that is pretty much the situation. 
But the relative permanence of what you have described for 
commonwealth is not quite as permanent as the other two 
options.
    Mr. Acevedo-Vila. It is as permanent as we want it to be 
permanent.
    Mr. Underwood. It is as permanent until you change your 
mind.
    Mr. Acevedo-Vila. As we want it to be permanent. There is 
no problem with that.
    Mr. Underwood. OK, all right, well, I am glad you say that, 
because that clarifies for me----
    Mr. Acevedo-Vila. I have to be--if you consider statehood 
for Puerto Rico, given the fact that we are a nation, you are 
going to have people telling you that the right of self-
determination of the people of Puerto Rico haven't been 
extinguished under statehood.
    Mr. Underwood. I hear that. I hear that loud and clear, 
but, you know, that is not a determination for me to make. I 
think it is a determination that will be made by the Puerto 
Rican people according to an orderly process, and so that is 
what I am most interested in. But what I am trying to 
understand is the relative permanence of what is being 
characterized as a permanent solution. And I want to state for 
the record that certainly in the process of--you know, you 
admit here or you submit as part of your testimony a quote from 
Justice Frankfurter.
    Mr. Acevedo-Vila. I was going to--yes.
    Mr. Underwood. Yes, who said that this is really 
unincorporated territory. It is a problem of statesmanship.
    Mr. Acevedo-Vila. Yes, that is a quote from 1912 when he 
was working at the War Department and Puerto Rico was under the 
jurisdiction with regard to Puerto Rican interests was in the 
War Department. And that quote, I think, is very, very 
important, because it basically tells you here in Congress that 
there are no real Constitutional constraints on establishing a 
new relationship with Puerto Rico.
    The quote is the following. ``The form of the relationship 
between the United States and unincorporated territory''--which 
we were at that time--``is solely a problem of statesmanship. 
History suggests a great diversity of relationships between a 
central government and dependent territory. The present day 
demands upon inventive statesmanship is to help evolve new 
kinds of relationships so as to combine the advantages of local 
self-government with those of a confederated union. Luckily, 
our Constitution has left this field of invention open.''
    What you have is an opportunity of statesmanship invention. 
That is it.
    Mr. Underwood. Inventiveness is one thing. Invention is 
another, and permanent status yet is still another. And I would 
submit that there is--I understand the dynamics of where we are 
today and I have no doubt that saying that this dynamic may 
serve us well for the next 25 to 30 years, but there is in your 
characterization of this permanent status an indicator that 
there is still something unresolved in that. There is still 
something unresolved, and that is a final issue of self 
determination. And until that is fully resolved in one way or 
another, it seems to me that inevitably we will come back and 
indeed the current status may serve the purposes of the 
relationship well now. But indeed at 25 years from now, 30 
years from now, 50 years from now, we will be back addressing 
the same issues.
    That is why, you know, the way we have crafted it is a 
little bit different. Thank you very much, Mr. Chairman.
    [Joint letter to the President may be found at end of 
hearing.]
    Mr. Romero-Barcelo. Thank you, Mr. Underwood. The 
gentlelady from Virgin Islands.
    Ms. Christian-Green. Thank you, Mr. Chairman. Good 
afternoon, Mr. Acevedo-Vila. Commonwealth and free association 
are status options in this bill, and I would ask you to clarify 
for me what is the difference.
    Mr. Acevedo-Vila. Well, I mean, this bill--commonwealth is 
defined--in this bill, the one we have--OK.
    Ms. Christian-Green. Well, have you seen the definition 
that is proposed for free association?
    Mr. Acevedo-Vila. The one in the bill, yes.
    Ms. Christian-Green. Go ahead and answer. Go ahead.
    Mr. Acevedo-Vila. In this bill, in H.R. 856, commonwealth 
is defined as a colonial denigrating status and free 
association is defined as independence with no American 
citizenship. And that is one of the problems with this bill. It 
wants to force my people to vote to go back to a colonial 
status or to deprive the unborn Puerto Ricans, my 
grandchildren, of American citizenship. And that has no 
precedent in American history.
    Ms. Christian-Green. I can't find it right now, but I 
thought that--I think that in what is proposed for free 
association they propose to negotiate American citizenship. So 
what would be the difference--if that was proposed, what would 
be the difference between free association and commonwealth as 
you define it?
    Mr. Acevedo-Vila. The definition of new commonwealth is the 
one that I am proposing. How you label it, to me, is not 
important. It is the essence. And the essence is that we have 
and we want a bilateral relationship based on a mutual consent 
with the American citizenship as one of its elements. That is 
not negotiable.
    Ms. Christian-Green. I understand. Thank you.
    Mr. Romero-Barcelo. Before we go to the next member, I 
would like to say something for the record. One of the things 
that you mentioned, that the definition of the commonwealth in 
the bill before that was granted by the House back in 1991, 
that was '91 or '92. I don't remember exactly.
    Mr. Acevedo-Vila. It was 1990, October 10.
    Mr. Romero-Barcelo. That bill did not include a definition 
of commonwealth. The definition of commonwealth was only in the 
Committee report, but it was not included in the bill.
    Mr. Acevedo-Vila. I clearly say in my statement that it was 
included on the report, but I can explain to you the whole 
process----
    Mr. Romero-Barcelo. Well, I was in the process. I was in 
the process.
    Mr. Acevedo-Vila. Because the law--the bill, as you know--
--
    Mr. Romero-Barcelo. There was no consensus either in those 
days for those bills.
    Mr. Acevedo-Vila. But it was approved. You were here. It 
was approved unanimously----
    Mr. Romero-Barcelo. With no consensus of the parties in 
Puerto Rico.
    Mr. Acevedo-Vila. Excuse me?
    Mr. Romero-Barcelo. With no consensus of the parties in 
Puerto Rico as to what the bill said. The bill was approved the 
way the Congress wanted to approve it, not the way we wanted 
it.
    Mr. Acevedo-Vila. OK, but of that bill----
    Mr. Romero-Barcelo. I think the way----
    Mr. Acevedo-Vila. That bill clearly says that the people of 
Puerto Rico have the option of voting for statehood, 
independence or new commonwealth and that whoever wins under 
that bill would come here and negotiate it. They said on the 
principles of the definitions that were included on the 
report--that was stated on the bill.
    Mr. Romero-Barcelo. That was not stated on the bill. We 
can--we have the bill in our records, so we will look at that. 
The other--I have copies of it, of the bill. We have copies of 
it. Are you aware----
    Mr. Acevedo-Vila. Can I read Section 4 of that bill?
    Mr. Romero-Barcelo. Let me ask you a question. Are you 
aware that Congress cannot deny another Congress its 
Constitutional authority? In other words, if a Congress says 
today I am not going to exercise this Constitutional authority, 
this Constitutional power that I have, it cannot tell the next 
Congress that it cannot exercise it. Are you aware of that 
Constitutional doctrine?
    Mr. Acevedo-Vila. That Constitutional doctrine has 
exceptions. And on my testimony, written testimony, you can 
look into Appendix A where we have a note on the power of 
Congress to enter into a compact with the people of Puerto Rico 
and in many cases where this Congress has entered into the same 
kind of compact relationship and the court has validated that 
exercise. I have said that further Congress would have to 
comply with that.
    Mr. Romero-Barcelo. There is no single case that determines 
that Congress can address itself or its authority unless they 
do it by the Constitution, and to obligate a future Congress. A 
future Congress might abide by it throughout entirety, but the 
future Congress always had the right to do away and change the 
law. If you adopt something by law, if Congress adopts 
something by law, then the next Congress can repeal and can 
amend that law. There is no such thing as a law that is 
unrepealable or unamendable. So any law by Congress giving 
Puerto Rico certain powers can be taken away by the next 
Congress, because Congress cannot deny the next Congress that 
authority, that power that it has under the territorial clause.
    Mr. Acevedo-Vila. We can discuss this for hours if you want 
to. It is basically a legal discussion. For me, this is 
basically a problem of Puerto Rico will. It is not a legal 
discussion. If this Congress wants to recognize and validate 
what it told the people of Puerto Rico back in 1952 and 
construe over it for the future--and at that time Law 600 was 
not a single law. Law 600 was approved by this Congress and 
then it said clearly that in order to enter into effect it had 
to be approved by the people of Puerto Rico. There is the 
compact that the Governor couldn't find.
    Mr. Romero-Barcelo. This is merely a rectification. The 
Congress says this is a law, if you want it, accept it. That is 
all it says, all the law says.
    Mr. Acevedo-Vila. That is not----
    Mr. Romero-Barcelo. If you accept it, we will go on.
    Mr. Acevedo-Vila. That is not what the cases say, but we 
don't want to----
    Mr. Faleomavaega. Would the Chairman yield?
    Mr. Romero-Barcelo. Yes.
    Mr. Faleomavaega. I think what we are trying to determine 
here, Mr. Vila, is the fact that there is definitely a 
permanency on statehood status as well as independent status. 
But when we discuss the issue of commonwealth, it seems to be 
an evolving process. It is not really permanent. Whatever was 
the status of commonwealth in 1917 or even in 1920, I think the 
latest now, as I understand from those who are advocating 
commonwealth, it is a continuous process in between 
independence on one extreme and statehood on the other extreme, 
so I think what we are trying to establish here is that there 
definitely is a permanency on statehood and independence, but 
commonwealth seems to be an evolving process. There is no 
finality of determining what exactly is the--what direction is 
Puerto Rico headed for. Am I correct?
    Mr. Acevedo-Vila. If it is good for the United States and 
if it is good for the people of Puerto Rico, why do we have to 
be then discussing this issue about the permanence? It is good 
for the people of Puerto Rico and it is good for the United 
States just continuing it. I don't--as I told you, even if 
Puerto Rico becomes a State, you will still have the self-
determination issue, because given the fact that we are a 
nation, people will say that we haven't extinguished our self-
determination right. So what you are asking me is that we by 
law say that it is legally important after this plebiscite we 
will say by law that it is illegal to be an independentista or 
statehooder, even--or if we become a State that it will be 
illegal to be an independentista or autonomous under statehood. 
No, the discussion might go on, but with this finished and if 
Congress finally clarifies many of the assumptions made on this 
bill, I can guarantee you that we will win that plebiscite and 
that this thing would be settled at least for one generation.
    Mr. Faleomavaega. Do you view that with the current 
definitions of the proposed bill that there definitely would be 
some very serious problems with those advocating commonwealth 
if you were to proceed with the plebiscite, or will you 
participate in the plebiscite without the form of definition 
that you now have outlined in your statement?
    Mr. Acevedo-Vila. I have to be honest with you. I can't 
make the U.S. Government, Congress and the President, approve a 
law which gives no option to 46, 48, 49 percent of the people 
down there in Puerto Rico who believe in self government with 
an autonomy with American citizenship. So I come here because 
we see the invitation, especially the letter that was sent by 
Chairman Young and Congressman Miller, as an openness, as an 
opportunity, as a willingness to revise the assumptions under 
that bill. So I really--I believe in principles. I believe in 
democracy, and I think that if a plebiscite is finally approved 
by Congress, we will be allowed to vote.
    Mr. Faleomavaega. Mr. Chairman, my time is up. I am sorry.
    Mr. Romero-Barcelo. Thank you. The gentleman from Illinois.
    Mr. Gutierrez. Thank you very much, Mr. Chairman. Well, I 
guess we are coming back to probably the crux of the dilemma 
that we have here today, I believe. As I stated earlier, Mr. 
Chairman and members of the Committee, I have the perplexing 
dilemma also, and that is that I see what happened in '52, OK, 
we got Law 600. Subsequently, we go to the United Nations. We 
say to the committee on decolonization ``tell you what, Puerto 
Rico has achieved self-determination, we have a bilateral 
agreement.'' That is our government interpreting what the 
Congress of the United States has done. Now we can argue and 
quibble into the night, but that was the interpretation before 
the world. Now, see, I don't mind looking backward from that 
position.
    I say that if the people of Puerto Rico and the Government 
of the United States, through its representatives, went to the 
United Nations and said `` we don't have to report anymore to 
the committee on decolonization,'' why are we moving backward 
to a territorial clause which is weaker, which is weaker and 
less respectful of the people of Puerto Rico to then reengage 
in a conversation where we should say ``move forward.'' And so 
it is like we have let you come this far, we told the world we 
would let you come this far, but now we are taking it all back 
and starting back at square one going back to the territorial 
clause.
    It would seem to me that even if you believe that it was a 
lie, a fantasy, and something that we misled the people of the 
world about, that it still has validity in terms of its impact, 
where it has taken the people of Puerto Rico. And we shouldn't 
really take that away. So I have a great dilemma of saying to 
myself I understand the question of sovereignty and separate 
sovereignty.
    I understand those questions, but you see, in Puerto Rico 
if you look at the history, there have been three traditions. 
There has been the annexation tradition, those who wish for 
Puerto Rico to become a State. Very well established in 
history. There has been the independence tradition, very well 
established in the history of Puerto Rico. And there has been 
the autonomous position, very well established in the history 
of Puerto Rico. Ramon Baldorioty de Castro y Luis Munoz Rivera. 
And you can keep adding names. And, I mean, maybe Munoz Rivera, 
others probably didn't speak to Jose de Diego. And they were 
together at one time and then they separated over these 
questions.
    But, you see, it is--the problem that I have, and I am 
going to have to grapple with it seriously and that I think the 
members of the Committee should seriously look at, do you now 
say given that history in Puerto Rico that we are going to lump 
two of them together? Two historically independent 
interpretations of what the will of the people of Puerto Rico 
should be historically speaking. I didn't make them up 
yesterday. So to kind of suggest that somebody is coming up and 
inventing a new formula, I think is a little disingenuous given 
the rich history of the option of autonomy and the proposal of 
autonomy which exists in Puerto Rico.
    Now the question that I think this Committee should ask 
itself--if we can see--if we can concede that Puerto Rico under 
free association, which I think was from commonwealth--because 
let me just state for the record I do not believe that under 
the current status which exists between Puerto Rico and the 
United States we have achieved self-determination. I don't 
believe that, and therefore I believe it is a colony. But I 
also believe that because the Congress of the United States did 
not--our country, our government, did not fulfill its 
obligations as it should have back in 1953 to allow the growth 
of the sovereign powers of Commonwealth--allow the island to 
develop and to give birth to new kinds of rights under that 
interpretation.
    So I say to myself OK, now, let us think about this a 
minute. If I said there would be common currency, everybody on 
the Committee might say free association, common currency, 
sounds OK to me under free association. Common defense, sounds 
OK to me, probably could do that. If I could just--since the 
green light is still on----
    Mr. Romero-Barcelo. I have been trying to say that, Luis, 
this is a time for questions.
    Mr. Gutierrez. I understand that.
    Mr. Romero-Barcelo. And I have been very----
    Mr. Gutierrez. And I am working up to----
    The Chairman. I know why it took 98 years now. Go ahead.
    Mr. Gutierrez. And if we could have all of these other 
commonalities, I guess the question I have to ask myself very 
seriously, Mr. Resident Commissioner and Mr. Chairman, all of 
you, can there be common citizenship under that relationship 
between the two parties. And then if indeed we cannot do it 
under the interpretation of this Congress under the plenary 
powers under the territorial clause, can we allow the people of 
Puerto Rico under free association to have a convention in 
Puerto Rico, a constitutional convention in Puerto Rico, and 
come back and sign a treaty with the Senate thereby allowing 
this free determination and the freedom of the people of Puerto 
Rico--we can't have a treaty which is not removable 
unilaterally by one side. Maybe laws are changeable--and then 
resolve this issue.
    I don't know--those are questions that I have and I would 
like Mr. Acevedo to please respond to that inquiry.
    The Chairman. And may I suggest one thing, that you have a 
very short time to do it, because he took all the time in 
asking the question. Do the best you can, OK.
    Mr. Acevedo-Vila. As Frankfurter said back in 1914, our 
Constitution has left this field of invention open. And what we 
can't accept is the assumption on this bill that you can't have 
autonomy and full self-government based on bilateral 
relationship that can be changed only by mutual consent and 
also have American citizenship.
    So on the definition I am presenting, which I repeat was 
approved by the Committee and by the full--the definition was 
in the report and the report was approved here. And then the 
bill was approved in the House unanimously, and included this 
definition of the new commonwealth I am presenting with some 
minor changes. Recognizing all the principles we have been 
discussing, this doesn't have to be a trial on what happened in 
1950 and '52. We believe what happened in 1952, but if somebody 
has doubts, let us clarify them now. This is the time to 
clarify them.
    The Chairman. Thank you. The gentleman, Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman. Mr. Acevedo, this is 
not a very easy moment for me, because, as I have stated 
before, I have taken some heat in the last couple of years for 
using the words colony and territory. And I know that some 
people feel offended by that, and some people feel somehow 
betrayed that anyone who was born on the island would 
charaterize the situation later in such a way. Please 
understand that my belief is that whatever agreement or lack of 
agreement was reached in '52, '53, was not a permanent 
agreement, because it was supposed to lead to something. Now 
what it would have led to is where I think we differ. Many of 
you feel somewhat comfortable with the current arrangement, but 
at the same time want changes in it.
    So my quick question to you, and I need you to give me a 
quick answer so I can give you another question, is: am I 
correct that, in the '93 plebiscite, the option presented as 
commonwealth was in fact a a different, enhanced, commonwealth, 
or was it a reaffirmation of everything that was in the 
agreement as you saw it and that the people voted 48 percent 
for?
    Mr. Acevedo-Vila The definition I am presenting today 
verifies the principle in which we believe and that Congress 
told the people of Puerto Rico we were getting back in 1950, 
'52, but if you have some doubts inside yourself, then this is 
your opportunity to do it the right way, then. But within those 
principles, within those principles.
    Mr. Serrano. Let me ask you the hard question. It might be 
easy for you. You do not believe--are you a lawyer?
    Mr. Acevedo-Vila. Yes.
    Mr. Serrano. I am not.
    Mr. Acevedo-Vila. Good for you.
    Mr. Serrano. My safety in this whole process, you know. You 
believe that Puerto Rico is not a colony of the United States?
    Mr. Acevedo-Vila. Yes, I do believe we are not a colony. I 
believe that in 1950 and '52 the people of Puerto Rico entered 
into this special arrangement with the United States. I don't 
say it is perfect, and we have always said that commonwealth 
needed further development. And that is the reason I am here 
today.
    Mr. Serrano. Do you believe that it is unfair for us to say 
in a bill, that commonwealth is based on what the Congress says 
it is, and that is what it is? It is whatever Congress says it 
is? And that commonwealth with your suggestions or the 
suggestions of people who believe in what you believe should be 
a separate option available to the people of Puerto Rico?
    Mr. Acevedo-Vila. If nobody is going to vote for that 
definition, the first one, why do you have to put it on the 
ballot? Nobody wants the definition of commonwealth that is on 
this bill. So if we want to----
    Mr. Serrano. No, no, my question is: is it that nobody 
wants the definition of commonwealth or is it that the 
definition that Congress is presenting is shameful to a lot of 
people who supported it for so many years and they are running 
away from it now? Which one is it?
    Mr. Acevedo-Vila. In my--from my point of view, that 
definition is not accurate.
    Mr. Serrano. OK, now let me tell you something.
    Mr. Acevedo-Vila. But I am not asking from this Congress 
now to make a judgment on the plebiscite from 1950, '52.
    Mr. Serrano. Right. The problem is, Mr. Acevedo, that that 
is what is holding us back. If there is a problem here, it is 
the fact that there is a segment of the leadership in Puerto 
Rico that is saying this is not what we are. Now let me tell 
you the strange and painful position that I find myself in. I 
was born in Mayaguez. My father was born in Anasco, my mother 
in Maricao. I came here to this country when I was seven years 
old. I am 53. I probably should not say that in public, but I 
am 53. When I think with my Puerto Rican hat, which is X amount 
of time during the day, I also don't want to believe Puerto 
Rice is a colony. It hurts me to admit that. But when I am a 
United States Congressman, which is a lot of the day, and I see 
how I treat Mississippi, New York, and Puerto Rico, I know that 
my cousins live in a colony.
    Now at what point do we say--maybe ``colony'' is not the 
word to use. Maybe the concept is a totally unfair relationship 
and we don't want it as an option. And let me ask you the last 
question. Do you think it would be proper for me as an American 
Congressman, forget the Puerto Rican part, to offer to people 
on the island an option that I believe to be unjust and unfair?
    Mr. Acevedo-Vila. Well, I repeat again, I am not asking you 
to offer the commonwealth as defined on the bill as it stands 
right now. I am asking you to offer commonwealth as I have 
defined on my presentation and which you voted back in 1990 in 
favor of it. You voted. You were speaker pro tempore of that 
session.
    Mr. Serrano. In a great moment.
    Mr. Acevedo-Vila. So what we are asking is something that 
already has been approved by Congress, by the House.
    Mr. Serrano. So, one last question. If an amendment was to 
come to this Committee proposing what you propose in this bill, 
and this Committee turned it down because it wasn't willing to 
give Puerto Rico that arrangement, would you then propose that 
your party participate in the plebiscite or not participate?
    Mr. Acevedo-Vila. We will fight in other forums, including 
the Senate, the White House, everywhere else. As I said before, 
perhaps the same question was made in a different way, I 
believe that the U.S. Government, Congress and the President, 
would leave 48 percent of the people in Puerto Rico without 
option and that power.
    Mr. Serrano. Well, but let us clarify that. I believe that 
that really is an unfair statement to me as a Member of 
Congress. The notion that the 48 percent voted for--and I know 
that Puerto Ricans are beautiful for analyzing numbers when it 
comes to this issue. The 48 percent voted for an option that 
this Congress feels you haven't reached yet. And so when you 
say Congress is leaving out 48 percent, yes, Congress may be 
leaving out the wishes of 48 percent, but not the actual living 
conditions and political arrangements of 48 percent.
    Mr. Acevedo-Vila. That is why I am talking now about the 
future here. And we said--we are talking about a new 
commonwealth consistent with the principle we have believed. 
And that new commonwealth was on the bill in October 1990.
    Mr. Serrano. All right, let me close by saying this. I 
don't have a problem with a new commonwealth. I have a problem 
with a new commonwealth being presented in the ballot as the 
old commonwealth, because the old commonwealth is not the new 
commonwealth.
    Mr. Acevedo-Vila. I invite you to read carefully the 
definition I am proposing today. And as I said, that was 
approved back in 1990.
    Mr. Serrano. All right. Then again, Mr. Chairman, one last 
point, any time a system of relationships allows me to run for 
Congress but doesn't allow my American citizen cousins in 
Mayaguez to run for Congress, that is not a fair relationship. 
I shouldn't see that on the ballot. Any time a system allows me 
to institute agreements with foreign countries but doesn't 
allow you the sovereignty to institute agreements with foreign 
countries, meaning you are not a State, and you are also not 
independent, then I can't see that as a fair relationship.
    Mr. Acevedo-Vila. The solution to your concern is on 
paragraph C of the definition.
    Mr. Serrano. Which is not the actual status, is what I am 
trying to get at.
    Mr. Acevedo-Vila. Yes.
    Mr. Serrano. What you----
    Mr. Acevedo-Vila. I am going to----
    Mr. Serrano.--doesn't exist right now.
    Mr. Acevedo-Vila. I am going to repeat my statement. So far 
I have been talking about the historic precedent that clearly 
showed that the assumptions under which this bill has been 
drafted are wrong. Now is the time to talk about the future.
    Mr. Serrano. OK.
    Mr. Acevedo-Vila. And I am proposing a new commonwealth 
which is the definition that was approved by this Committee and 
the House back in 1990.
    Mr. Serrano. I respect that, and I won't badger you 
anymore. I do respect you. I respect what you stand for. I 
respect what your party stands for. I think the tragedy here is 
that Congress may be ready to stop lying and some people can't 
accept that Congress will finally stop lying. Thank you, Mr. 
Chairman.
    Mr. Romero-Barcelo. One last question before we finish. If 
the Congress were to, both the House and the Senate, and the 
White House were to take a look at this suggestion that you 
have for the new commonwealth and accept everything but 
including the citizenship and the bill were adopted, passed as 
a law into law as to the new commonwealth as you define it, but 
without the U.S. citizenship, what would your party do?
    Mr. Acevedo-Vila. It would be unacceptable for us, you 
know.
    Mr. Romero-Barcelo. So what would your party do? Would you 
vote, wouldn't vote?
    Mr. Acevedo-Vila. We would have to decide at the time, but 
that definition wouldn't be acceptable for us.
    Mr. Romero-Barcelo. So you wouldn't participate?
    Mr. Acevedo-Vila. That would be another way to tilt the 
process in favor of statehood.
    Mr. Romero-Barcelo. So you would not vote?
    Mr. Acevedo-Vila. You know that statehooders and 
commonwealth in Puerto Rico, we are proud of our U.S. 
citizenship, so by defining commonwealth without a U.S. 
citizenship, basically you are preordaining the result. And I 
know this Congress doesn't want that.
    Mr. Romero-Barcelo. I have my doubts about that pride in 
the U.S. citizenship of some of the commonwealth leaders 
because of the way they talk about----
    Mr. Acevedo-Vila. I am talking on behalf of the PDP and the 
President of the PDP.
    Mr. Romero-Barcelo. And when you--my question is if that 
were eliminated from your definition, would you participate in 
the process or not?
    Mr. Acevedo-Vila. I don't see where we can vote under those 
circumstances.
    Mr. Romero-Barcelo. All right, thank you very much. For the 
New Progressive Party, Governor Luis Ferre, former governor. 
Luis, welcome to the Congress, the Committee. A couple of the 
members of the Committee have indicated to me that they have to 
go to vote, so they are trying to get back as soon as possible, 
including Chairman Young. The problem is that the bill that is 
now being taken care of in the House has certain votes that are 
pass votes one right after the other. They don't even have time 
for debate in between. That is why they have to stay there till 
those votes are taken.
    If you would like to wait for them, we can accommodate and 
we can wait for them. Would you like to start now? Whatever you 
wish.
    Mr. Ferre. I understand that, Mr. Chairman. I know that 
they are voting now, but do you think I should start now? Your 
suggestion is that we should wait?
    Mr. Romero-Barcelo. Well, if you want to wait for them to 
come--a couple of them to come back or we can start and then 
they will be coming.
    Mr. Ferre. Is Mr. Farrow going to make a statement?
    Mr. Romero-Barcelo. No, go ahead, sure.
    Mr. Ferre. Mr. Farrow.
    Mr. Romero-Barcelo. Oh, Mr. Farrow. I am sorry. Mr. Farrow 
is here also. I think we better proceed. I think we better 
proceed then.

   STATEMENT OF LUIS FERRE, PRESIDENT OF THE NEW PROGRESSIVE 
                  PARTY, SAN JUAN, PUERTO RICO

    Mr. Ferre. Mr. Chairman and members of the Natural 
Resources Committee, good afternoon. It is a pretty light day 
this afternoon, but also it's early to do things that is right.
    My name is Luis A. Ferre. I have advocated statehood for 
Puerto Rico during my adult life, which extends to more than 93 
years.
    I served as Governor of Puerto Rico from 1969 to '73, and I 
appear before you as Founding President of the New Progressive 
Party, committed to achieve statehood for Puerto Rico, which 
won in 1996 election with a majority vote of 1,006,331 or 51.4 
percent for Governor of Puerto Rico, a majority of the Senate 
with 19 seats out of 28, a majority of the House with 37 out of 
54 seats, 54 mayors of a total of 78 municipalities and a vote 
of 973,654, or majority for our Resident Commissioner who is 
presiding today at this meeting.
    I am--the New Progressive Party, of course, stands firmly 
behind the Young bill, H.R. 856. And of course today when I sit 
here before you and I see Congressman Serrano, who presided 
this House three years ago when we voted in favor of another 
bill for statehood, when I see all these Members of--the Puerto 
Rican Members of the Congress of the United States here today, 
I say I am very happy that I have stood for statehood all the 
time, because all of them who have testified here say that they 
are proud to be Puerto Ricans, but they also are very proud and 
happy to have U.S. citizenship.
    And that is the feeling that we have respect today. We have 
2 million Puerto Ricans in the United States who are U.S. 
citizens and we have 3,600,000 in Puerto Rico. The 2 million in 
the United States are all enfranchised. They can vote for the 
President and for the Members of Congress. The 3 million in 
Puerto Rico are not enfranchised, the 3,600,000.
    And those are the ones that want this thing to be defined 
finally. We cannot wait any longer. The ones who live up here 
can wait, but we cannot wait. And that is why it is very 
important to have the Young bill finally approved. A decision 
must be made, and we cannot permit that this bill be delayed 
unnecessarily.
    We are all happy in this, that you have subscribed H.R. 
856, which finally opens the road for Puerto Rico to make a 
decision on its ultimate political status in the dignified 
manner that becomes the United States Congress and the people 
of the United States, including statehood as an alternative, 
which was the implicit understanding under which the people of 
Puerto Rico welcomed the American forces of General Nelson 
Miles in 1898.
    Unless we--I would like to note the American forces did not 
invade Puerto Rico. They landed in Puerto Rico, because there 
was no Puerto Rican fighting the American forces in Puerto 
Rico. In Cuba it was a different story. In Cuba they had to 
fight with the Spaniards, a big fight. In Puerto Rico, the 
Puerto Ricans immediately welcomed them and there was no 
fighting in Puerto Rico because the Spanish had to admit that--
surrender and leave.
    And then the Puerto Ricans said we want to keep--to be part 
of the United States. We want to be U.S. citizens, because we 
want in the long run to be a State of the Union. In Cuba, they 
said no, we want independence. Well, Cuba got its independence. 
We got our U.S. citizenship. A hundred years later, here we 
are. Cuba is a Latin American country. Puerto Rico is part of 
the United States. That is the big difference. And you can see 
how different it is. That is why the people of Puerto Rico want 
to maintain their U.S. citizenship and consolidate that 
citizenship with the Nation on an equal basis and with equal 
dignity.
    I will not go into the historic elements, details of the 
landing of General Miles. It has been covered already here, but 
I would like to say the following thing. In 1950 Congress 
authorized the people of Puerto Rico to vote in referendum to 
accept or reject Law 600, which provided for the adoption of 
the local constitution, as well as to other amendments to the 
Jones Act of 1917. The Federal Relations Act remained 
unchanged, maintaining Puerto Rico as a non-incorporated 
territory under the Territorial Clause of the United States 
Constitution and the full sovereignty of Congress.
    I want to state that because it has been discussed here 
today and I want to maintain that there was no amendment to the 
territorial clause. And I am talking now from experience. I was 
a member of that constitutional assembly. And at that 
constitutional assembly, which considered Law 600, we looked 
into the matter of the way Law 600 was approved by Congress. 
And in all the years in this Congress where the law was 
discussed, it was always clearly stated that Puerto Rico was 
not being removed from the territorial clause of the United 
States.
    And the Former Governor of Puerto Rico, Luis Munoz Marin, 
said many times at these Committee hearings if Puerto Rico goes 
crazy and does something that is not quite in accordance with 
what we have agreed, you can--Congress can immediately repeal 
every thought of power it has given Puerto Rico. And that is 
why there was nothing passed.
    In order to get the law approved in Congress, the lawyers 
of the Department of Interior had to work out a solution that 
was acceptable to Congress. Congress would not accept the 
compact, but they did accept something in the nature of a 
compact. And in the nature of a compact is not a compact. It is 
something similar to a compact, but not--doesn't have the 
binding quality of a compact. And that is why after that 
Governor Munoz Marin and the Popular Party, and I have been 
fighting them since 1940, because do you know why I say so 
trying to make people of Puerto Rico believe that there has 
been a compact, that things have changed, that we were a 
different thing. But that was not true.
    Now finally Congress has said let us go, let us look into 
this matter now. There was no compact. You are still under the 
clause of territory because that was the way the Congress 
approved Law 600. So therefore, it is today necessary to decide 
the question of Puerto Rico by this Congress.
    In 1949, and many of you were not born then, I testified 
before a Committee of Congress, a subcommittee in Congress, on 
the subject of statehood for Puerto Rico. And at that time I 
said we are behind in our economic development because we are 
not a State of the Union. You have to give us our full--all the 
instruments that the States have to be able to bring Puerto 
Rico up to the same level as the rest of the nation. We don't 
want gifts, but we want the tools so that we can do it.
    And at that time, I pointed out that a State of the Union, 
Mississippi, in 1940 had a personal income of $268 and Puerto 
Rico had $122, 45.5 percent. In '49, Puerto Rico had $250 and 
Mississippi $555, 45 percent, the same ratio. Since then, the 
United States has worked with the Former Governor of Puerto 
Rico in bringing new ideas of how to solve the problem of 
Puerto Rico, but they haven't worked. The only idea that would 
work is statehood.
    If we would have two senators and six or seven Members of 
Congress, we would be able to work in Congress the solutions to 
our problem and we would have an economic position today where 
we would be similar to your States, but too much has happened 
since 1949. In 1956, Puerto Rico had $468 per capita and 
Mississippi $964, 48.5 percent. In 1996, now, this last year, 
Puerto Rico had $7882 and Mississippi $16,966, 45.8 percent of 
Mississippi. That is why we need so much help from Congress, 
because we have not been able to pull up our economy to the 
level of Mississippi at least, and not even to the average of 
the United States.
    So why? Because we are not a State of the Union. So all 
this discussion is really impractical. We have to solve the 
problem with the only way it can be done, which is by becoming 
a State of the Union.
    Now the admission of Puerto Rico as a State of the Union 
would directly enhance the position of the United States in 
foreign affairs. It would be the logical conclusion of a 
process which started in 1898 when Puerto Rico came under the 
American flag. Puerto Rico before the year 1900 had the old 
European authoritarian social structure. This structure has 
gradually evolved into a democratic society under the American 
influence, which began by teaching our youth the American 
principles of individual liberty, equality of opportunity and 
respect for human dignity, through the school system and the 
political institutions, which were established after the year 
1900.
    That is the way Puerto Rico has grown. That is why I can 
see today Mr. Gutierrez sitting here, Congressman of his 
people, Mr. Serrano sitting here in the Congress of the United 
States. Mr. Serrano, who as I said, chaired the U.S. House 
three years ago for awhile brought forth the bill on Puerto 
Rico. And that is why I think it is important to understand 
that change in Puerto Rico. We are not a Latin American country 
anymore. Cuba is, because we changed, we took a different 
route. We became part of the United States. And we have wanted 
to be--we want to work up to the same level of dignity and 
equal rights as the rest of the country.
    This, therefore, has been, to my mind, the most significant 
change that Puerto Rico has undergone under the American flag. 
The successful achievement of our economic well being is, 
therefore, a challenge to the American citizens of Puerto Rico 
and to our fellow citizens of the mainland, a challenge to show 
the world that the American way is the way to both economic 
success, social improvement and political freedom, which can 
usefully serve as a pattern to solve the vaster problems of 
other underprivileged countries of the world. A challenge of 
great political and human potentialities, which may be of great 
world significance.
    With respect to the relations of the United States and 
Latin America, statehood for Puerto Rico would have still 
greater significance. It would serve to improve and solidify 
the position of America as a friend and partner, for it would 
be the best proof that our good-neighbor policy is not a mere 
diplomatic posture, but that it is an honest and sincere 
expression of respect of North America for Latin America. It 
would make Latin America feel that through Puerto Rico and 
through its representation in Congress, their problems and 
aspirations would be better understood because of our common 
cultural origin and tradition.
    As Americans identified with the political and social 
philosophy of America and its institutions of law, we would be 
able to better interpret our foreign policy to them and help 
the United States to succeed in bringing better understanding 
and cooperation in the common problems of our hemisphere.
    And at the present moment, the need to maintain and further 
develop the commercial interchange with Latin America, which is 
our natural market, when we are loosing the European market to 
United Europe and the Pacific markets to Japan and China, is 
essential to our success and prosperity.
    The growth of statehood forces in Puerto Rico have been 
overwhelming since 1968. In 1964, the Pro-commonwealth Party 
had 487,000 votes or 59.4 percent of the vote, and the Pro-
statehood Party had 284,000 or 34.6. In the last election of 
1996, there was a complete reversal. The Statehood Party 
obtained 963,000 votes or 51.3 percent, and the Pro-
commonwealth Party 855,000 or 45.5 percent, which shows that 
statehood is the growing movement in Puerto Rico.
    And remember that the Commonwealth Party also wants to keep 
U.S. citizenship. They are not thinking of giving it up. They 
want to hold onto it, so really when you come to think about 
it, 90 percent of the people of Puerto Rico want to continue to 
be U.S. citizens.
    Now can they be U.S. citizens without statehood? That is 
the issue. That is the issue. And all this playing around isn't 
going to solve the problem, because United States is determined 
and understand that constitutionally the only way you can be a 
U.S. citizen is by being born in a State of the union. And 
therefore, that is the only solution that we can find.
    We feel, therefore, that Puerto Rico is ripe to become a 
State after almost 100 years of successful democratic 
apprenticeship and to assume its full political rights and 
responsibilities. During all this century, more than 200,000 
Puerto Ricans have served with distinction in all the wars that 
United States has been involved with more than 6000 casualties 
and in several cases with higher casualties than some States. 
More than 2000 Puerto Rican soldiers served in the Gulf War, 
amongst whom was a grandson of mine in the First Armored 
Division. Four, such as Fernando Luis Garcia, who gave their 
lives, heroically, in the line of duty, have been decorated 
with the Congressional Medal of Honor.
    Other distinguished leaders who have also served the Nation 
are Admiral Horacio Rivero, in 1968, Commander in Chief of NATO 
Forces in Southern Europe and later Ambassador to Spain; Vice 
Admiral Diego Hernandez, who was in command of the 
Mediterranean Fleet; Major General Pedro del Valle commanded 
the U.S. Marine Corps, First Division, in the Pacific; General 
William A. Navas, Jr., who is Deputy in Command of the National 
Guard; Dr. Antonia Novello served as U.S. Surgeon General, and 
Dr. Enrique Mendez, Jr., as Deputy Surgeon General of the U.S. 
Army, amongst many.
    The real test for Puerto Rican statehood should be how much 
we share common values with fellow citizens of the 50 States 
and how much Puerto Ricans believe in, honor, and defend the 
Constitution of the United States. A look at the myriad ways 
Puerto Ricans have served the United States over the last 99 
years is enough to pass the test.
    President Clinton has just appointed Mrs. Aida Alvarez, 
another Puerto Rican, to his Cabinet as head of Small Business 
Administration.
    Puerto Rico is participating, successfully and with 
distinction, in Mainstream America to enrich its economy and 
its culture. There are about 2 million Puerto Ricans, as I said 
already, living throughout the nation, doing constructive and 
creative work as factory workers and professionals, in all 
fields of activity, thousands of physicians and engineers, 
thousands of teachers and professors in schools and 
universities.
    In the arts and humanities, our rhythms and melodies have 
contributed to enrich American music. Justino Diaz and Pablo 
Elvira have been great voices at the Metropolitan Opera. Our 
great actors, like Jose Ferre and Raul Julia, have been 
American favorites.
    We are contributing to enrich our cultural patrimony 
through museum collections. Today you can see on loan by the 
Fountain Museum at the National Gallery here in Washington the 
painting ``Flaming June'' by Lord Leighton, which is the key 
painting and masterpiece of the Victorian Exhibition.
    We are also contributing to the richness of America in the 
area of civil government, amongst many others, Judge Juan 
Torruella, Chief Justice of the U.S. First Circuit of Appeals. 
Judge Jose Cabranes is a member of the U.S. Second Circuit of 
Appeals. And we have here all these members of this Congress, 
who are our pride to have them here.
    In the area of sports, we have contributed with many 
baseball players, among whom Roberto Clemente has been included 
in the hall of fame. Charles Pasarell in 1969 was the first 
number one tennis player in the U.S., and now Gigi Fernandez is 
a tennis champion. Chi Chi Rodriquez is a golf professional
    And last, but not least, and I repeat this in the last 
meeting of the past Congress, but not least, to show how much 
Puerto Rico is embedded in the American life, it was the Puerto 
Rican judge of the Southern District of New York, Sonia 
Sotomayor, who was a fearless jurist a couple of years ago, 
decided to issue an injunction that could break the deadlock in 
the baseball strike, and by doing so, sent the baseball players 
back to Americans, after more than a year, the enjoyment of one 
of their favorite sports. Nobody could be part of America more 
than this competent jurist of 40 years of age. She was the true 
image of the freedom and respect of law America stands for.
    Mr. Chairman, I think that the time has come for Congress 
to live up to the commitment of equality under which we were 
brought into its fold. It is time to do justice to more than 
3.6 million disenfranchised American citizens of Puerto Rico. 
We congratulate you for taking the proper step with H.R. 856 to 
comply with your moral duty, as it becomes the United States 
Congress and our fellow citizens of the United States.
    Thank you very much.
    [Statement of Luis Ferre may be found at end of hearing.]
    The Chairman. Thank you, Governor. And you are always an 
inspiration for me. As you get more mature, I see there is hope 
for me yet. And I want to thank you for your testimony. At this 
time, I understand, with the agreement of the other members--
Mr. Kennedy, do you have to go somewhere?
    Mr. Kennedy. Thank you. Yes, I have a caucus I have to go 
to.
    The Chairman. Well, being that you are one of the members, 
so is my good friend from American Samoa----
    Mr. Kennedy. Right.
    The Chairman. Would you let him have your time ahead of 
time?
    Mr. Faleomavaega. Absolutely.
    The Chairman. All right.
    Mr. Kennedy. Thank you. I appreciate the consideration. At 
the conclusion of the last witness, Mr. Acevedo, I was asking 
the question about whether--it was interesting that I got to go 
to the Floor of the House and vote on a very important bill on 
the fair labor--that affects the Fair Labor and Relations Act. 
And I made the point that it affects the people of Puerto Rico, 
and yet they can't have a representative on the Floor, like our 
good friend Carlos Romero-Barcelo go to the Floor and vote on 
that.
    And his answer to me as I was walking out was well, we 
wouldn't have to adhere to the Federal laws. And yet that begs 
the question well, what kind of citizen would you be. And I 
don't know if we could in good conscience allow our fellow 
citizens not to have to live with the same laws that we live 
with. And, you know, I think this--the definition of 
citizenship is the guarantee of the same rights and 
responsibilities of every other citizen. And so that is where I 
think his argument fell down.
    I wanted to state that for the record, because I was on my 
way out to vote when he made that rebuttal. And I think it is 
important, given the very proud record of citizenship and 
contribution to this country that Governor Ferre has just 
enunciated in his wonderful statement to this Committee about 
how proud Puerto Ricans have been in serving this country and 
being good American citizens. The notion that they would want 
to take anything less than all the responsibilities of that 
citizenship would contradict everything that Governor Ferre has 
talked about.
    The Chairman. Thank you for that.
    Mr. Ferre. I think I answered to some extent your question, 
because when you mentioned that we were not going to suffer 
because we had no way to prevent that bill from being passed, 
it is exactly what I have been saying. We don't have that power 
that can stop the things that harm Puerto Rico and that can 
give Puerto Rico the help that we need to solve our economic 
problems.
    The Chairman. Thank you. The gentleman from American Samoa.
    Mr. Faleomavaega. Mr. Chairman, I have no questions. And I 
do want to thank Governor Ferre for an excellent presentation 
and certainly to remind the members of the Committee and 
certainly the Members of the Congress the tremendous 
contributions that our good fellow Americans from Puerto Rico 
have contributed greatly to this Nation. So I thank the 
Governor for his statement.
    The Chairman. The gentlelady from Virgin Islands.
    Ms. Christian-Green. Thank you, Governor, for your 
presentation. I have no questions.
    The Chairman. Now, may I remind the gentleman he has the 
time to ask questions.
    Mr. Gutierrez. Yes, sir. Thank you very much, Mr. Chairman. 
You have been very good with me today. I thank you so much. I 
wish to welcome to Congress Mr. Luis Ferre. I wish to convey to 
you and to my colleagues a sense of respect and admiration that 
I feel for you. Mr. Luis Ferre, you are one of Puerto Rico's 
most respected and important statesmen of the 20th Century, and 
I can only wish and hope that at the end of my public service 
career I have achieved but a small fraction of your record and 
your stature. And I feel that it is a great honor to be able to 
share this room with you here today.
    I noticed as I read your testimony that you talked about 
Munoz Rivera.
    Mr. Ferre. Yes.
    Mr. Gutierrez. That Munoz Rivera, back in 1900 said we 
should include it in the platform and that statehood, who 
subsequently became renowned as a great autonomista in the 
history of Puerto Rico, and in 1900 said that statehood was 
indeed a dignified alternative and accepted that. But I raise 
that in the sense that today, as autonomistas and estadistas 
have to work to resolve the issues, maybe you can share with me 
and expand a little bit more on that?
    Mr. Ferre. May I clarify? You know, autonomista in Spanish 
times was not what we think today, commonwealth. Autonomista 
meant that they were trying to be a province on equal basis 
with the rest of the provinces of Spain. And we fought in the 
sense in the context of Spain. And that was a thing that was 
strong, which is exactly what we are asking. The alternative 
under statehood you are asking for, but those leaders of 1898, 
none of them wanted to be a colony, neither of Spain nor of the 
United States. They said we are willing to welcome the United 
States, and they did welcome them with flowers. There was not a 
shot fired by a single Puerto Rican, and I am talking from 
experience of my parents who welcomed all the American forces 
in a very friendly manner. And that is why Puerto Rico welcomed 
and gave landing of the American forces. Nothing ventured.
    Mr. Gutierrez. And I guess my point is that as we reach 
1997 and go into the 21st Century, and because things tend to 
change and evolve, the independence of the Nationalist Party is 
not the independence that is being articulated today before the 
Congress of the United States or that I articulate, for 
example, before the Congress of the United States.
    We heard earlier from the Governor of Puerto Rico, 
Rossello, that he talked about the United Nations and following 
the laws of the United Nations and making sure that this is a 
decolonizing process and that estado libre asociado is not a 
decolonizing process, alternative. Something that I agree with, 
but I don't think that you can't have a road that is similar to 
it that you cannot develop. I guess that is where we digress. 
But at the same time, then, statehood, if we were to follow 
international law, then the people of Puerto Rico would have 
the inalienable right to independence, something that we 
discussed earlier at the--when I testified, I think, in '93--
hearing.
    I just simply said to Chairman Young, and I think Don 
Carlos remembers when I suggested that if Puerto Rico became a 
State, that it never would give up that inalienable right to 
its independence. So I would like to just ask you one other 
question. You as the founder of the New Progressive Party and a 
distinguished statesman independent of your position on 
statehood, as a distin-

guished statesman, in 1966 you participated, it says here, in a 
status commission report. In that status commission report, Don 
Luis, that you were a signatory.
    Mr. Ferre. Yes.
    Mr. Gutierrez. How did it describe el estado libre asociado 
or the commonwealth of Puerto Rico, and did it describe it as 
it has been described today?
    Mr. Ferre. Well, if you read my testimony before this 
Committee on the Young bill, that was 724, you will see what I 
said. At that time what was understood was something that was 
supposed to have the compact, but the compact was not true. 
That is where the people were misled. There has been no compact 
with Congress. It was simply just giving us some initial local 
freedom to elect our governor and so on, but not to remove us 
from the clause of the--territorial clause of the Constitution. 
The Federal Relations Act was not amended. And by the way, the 
best--the man who was the great consultant of the Minot, who 
then became the President of the Supreme Court of Puerto Rico. 
In his book, which was mentioned here this afternoon by 
Congressman Barcelo, Romero-Barcelo, said that he was convinced 
that Puerto Rico was still a colony in 1990. And that is his 
opinion--now he was the----
    Mr. Gutierrez. In fact, we just asked him, but that status 
commission report, did it describe el Estado Libre Asociado as 
a dignified option?
    Mr. Ferre. It is a question of statesmanship.
    Mr. Gutierrez. OK.
    Mr. Ferre. In this illustration were two very important 
words.
    The Chairman. Thank you, Governor. And again, thank you for 
taking the time and presenting the views and the history behind 
it. We deeply appreciate your participation.
    Mr. Ferre. Thank you.
    The Chairman. You are excused. The next person will be Jeff 
Farrow, Co-Chairman, Administration Interagency Working Group 
on Puerto Rico, Washington, D.C. Jeff, I have great sympathy, 
but also this is what you get paid for. You waited all day 
long.
    Mr. Farrow. Mr. Chairman, this is why I took this job.
    The Chairman. Besides that, they have got great golf 
courses in Puerto Rico, don't they? Go ahead.
    Mr. Farrow. Thank you, Mr. Chairman and distinguished 
members.
    The Chairman. We have the last witness of the day. It has 
been a long hearing. If we can have Luis and Patrick take it 
outside. Thank you. Go ahead, Jeff.

   STATEMENT OF JEFFREY L. FARROW, CO-CHAIR, THE PRESIDENT'S 
  ADMINISTRATION WORKING GROUP ON PUERTO RICO, WASHINGTON, DC

    Mr. Farrow. Thank you for inviting the Clinton 
Administration to testify on authorizing the people of Puerto 
Rico to express their preference regarding their islands' 
relationship to the United States before the end of 1998 and 
the bill that you and other Members sponsored to provide a 
process leading to full self-government for the Commonwealth, 
H.R. 856.
    Let me begin by expressing appreciation for the interest 
and initiative of yourself and the other primary sponsors of 
the bill in Puerto Rico's political status dilemma. It is a 
matter of transcendent importance, concerning the political 
rights of millions of U.S. citizens and a major factor in 
determining the approach to many of the serious social and 
economic challenges faced in the islands.
    It is also, however, extremely complex and sensitive, 
involving much of the range of Federal policy, central 
questions of identity, a century of history, the interests of 
political parties that are based on conflicting visions of what 
the best status for the islands would be and differences so 
intense that they hinder action on the issue itself and other 
issues as well.
    President Clinton is dedicated to supporting the people of 
Puerto Rico's decision of what status their island should have. 
He has pledged to back statehood or independence if Puerto 
Ricans vote for either one and to do his best to make the 
Commonwealth arrangement work better for them if they want to 
continue it.
    He has also, though, recognized that the frustrating debate 
is likely to persist until the Federal Government clarifies 
what the options really are and how they can be implemented. 
The differing status aspirations that Puerto Ricans have long 
discussed largely hinge on fundamental Federal decisions that 
have not been made.
    The President has therefore favored Puerto Ricans making a 
choice in concert with Congressional action in a process that 
is developed together with the people's representatives.
    Establishing a process that would enable this matter to 
finally be resolved is his highest priority regarding Puerto 
Rico, and he is fully committed to working with you and others 
in the Congress, with Puerto Rico's leaders, and others to 
establish it as soon as possible.
    The President believes that the Federal Government should 
number one, provide the people of Puerto Rico with options that 
are serious and fair responses to their diverse, expressed 
aspirations and, number two, commit to act on implementing an 
option that is authorized by a majority vote in Puerto Rico. He 
very much hopes that such a process will be underway next year, 
the centennial of the United States acquisition of Puerto Rico. 
He looks forward to our entering the new millennium having 
concluded the debate and implementing the will of the Puerto 
Rican people.
    To facilitate the enactment of the law that is needed, the 
Administration offers the following comments on H.R. 856.
    Democratic principles require that the expressed 
aspirations of Puerto Ricans be central to the development of 
the options (which also must be viable from the Federal 
perspective). The President regards this as an integral part of 
the sound process.
    We, therefore, view Chairman Young's agreement with Senior 
Democrat Miller to give Puerto Rico's major political parties 
until March 31 to submit alternatives to the options in the 
bill and to seriously consider their proposals as a very 
constructive step. We appreciate the role that Governor 
Rossello and Resident Commissioner Romero-Barcelo also played 
in it being taken.
    Consequently, the Administration would like to work with 
the Committee in fashioning the options, considering the 
proposals of the parties and others, as well as considering 
United States necessities, after the parties have had this 
opportunity to advance their ideas to you.
    The bill would ostensibly require a referendum before 1999 
and further referendum at least every four years thereafter in 
the event of no option of obtaining a majority, a majority for 
the Commonwealth option, or Puerto Rican rejection of Federal 
status implementation legislation. Rather than suggest a 
mandate for votes, it would be more appropriate to simply 
provide a process for and facilitate the status choice.
    We also suggest giving the government of Puerto Rico 
flexibility on calling votes. Further votes might not be 
desired by Puerto Ricans so often, and in such a case the call 
for revoting at least every four years would be a burden. 
Additionally, if Puerto Ricans were to reject statehood or 
nationhood implementation legislation, it probably would not 
make sense for them to vote again absent further Federal 
action.
    The bill would call for a plan for a transition of at least 
ten years in the event of a majority for either nationhood or 
statehood.
    Since the measures that would need to be taken have not 
been specified and would change as time goes on, we recommend 
that the length of the transition be set in the transition 
plan. Congress would still have its say over the duration, 
since the plan would require Congressional approval.
    A more fundamental problem is that H.R. 856 would require 
that a law be enacted at the end of the transition to 
nationhood or statehood, in addition to beforehand, in order to 
actually implement a status change.
    The Administration favors prompt, final action on 
implementing a status change if chosen by a majority of Puerto 
Ricans. The purpose of a transition should be to permit 
significantly different policies to be implemented on an 
orderly basis. A further decision and possibly further 
requirements at the end of the transition could make the period 
only a partial transition, or even overturn the original status 
choice. That could be very problematic. The Federal Government 
and Puerto Ricans should have greater assurance of actually 
implementing a status before heading down the path toward it.
    The bill includes several provisions regarding the use of 
English that should be mentioned. One would establish a policy 
of English being the ``common language of mutual 
understanding'' in the United States.
    Such a policy is unnecessary and could create divisiveness. 
We are also concerned that it could be used to question 
statehood as an option for Puerto Rico. The language that most 
of Puerto Rico's United States citizens have always used should 
not be a barrier to full participation in the Federal system if 
they want it.
    Another provision would call for measures to enhance 
English education in public schools in a transition to 
statehood. We understand it to mean measures that would 
supplement educational practice in Puerto Rico, consistent with 
local control of schools.
    Finally, there are provisions that suggest an intent to 
make Eng-

lish the official language of the Federal Government and the 
need to use English. As you may be aware, the President 
indicated his intent to veto a bill last year, H.R. 123, that 
would have required the Federal Government to conduct most of 
its official business in English only. Legislative statements 
on a need to use English could be used by others to promote 
goals which are disharmonizing and diversionary. They could 
also unduly influence the Puerto Rico status decision.
    The bill would make some other statements or suggestions 
which would not be part of the procedure for resolving the 
status issue that are problematic. These provisions address the 
current situation and have contributed to controversy about the 
bill in Puerto Rico.
    History has given us the conflicting facts and ambiguities 
that have fueled Puerto Rico's divisive and distracting status 
debate for decades. Rather than litigate them now when there is 
a general consensus on what needs to be done to resolve the 
dilemma, we think it would be more advisable to simply 
concentrate on resolving it, establishing a process that 
includes providing the people of Puerto Rico with options that 
can end the debate and providing for Federal action on 
implementing their choice.
    Mr. Chairman, it is time for the Federal Government to meet 
its responsibilities regarding the status question and provide 
such a process. Puerto Ricans have been asking for the United 
States to act for years. H.R. 856 provides a basis from which 
to act. Working together and with others, we can ensure that 
our great country lives up to its ideals in the case of our 3.7 
million fellow citizens in Puerto Rico. It is of vital 
importance to their future that we do.
    The Administration's priority is to get a law enacted that 
will make it possible to finally and fairly resolve the 
situation. We will be flexible within the principles that the 
President has espoused so that agreement can be reached. All of 
us who are committed to settling the issue should not let this 
opportunity pass.
    Thank you.
    [Statement of Mr. Farrow may be found at end of hearing.]
    The Chairman. Thank you, Jeff. That was very good. I will 
assure that this is what hearings are all about. We will take 
your comments very seriously and hope you will still be working 
with Manase and seeing if some of these things can't be added 
and subtracted from the bill. My goal is to keep you aboard and 
the President aboard, because I would like to see this done 
very quickly. There is some comments about the length of time 
of implementing the act, et cetera. I would like to see it done 
as rapidly as possible. And we will work along the lines of 
achieving that. You have a responsibility to the 
Administration, but that Administration has a responsibility to 
this Committee to try to achieve those goals together. We can't 
do it separately. And I think we owe that to the people of 
Puerto Rico.
    The gentleman from Puerto Rico.
    Mr. Romero-Barcelo. Thank you, Mr. Chairman. I want to 
congratulate and congratulate the President on this statement. 
I think it is a very, very significant statement. It is going 
to be definitely an historical statement. The questions in the 
statement about the language clears a lot of the air. I am sure 
it will have a great impact in Puerto Rico. Anything that makes 
such a statement from the White House on Puerto Rico has a lot 
of meaning. And the peo-

ple understand that clearly and it helps in the debate so the 
people learn to understand where everyone is coming from. The 
fact that there are some people in this country that would like 
to impose a will and would like to carry us in a different path 
doesn't mean that the majority of the people of the United 
States or the majority of the Congressmen or Senators or the 
White House take those positions.
    And some of the other statements in your statement also are 
very, very positive and I think that now we have the proposal 
by the commonwealth supporters and we will soon have the other 
proposals, then we can discuss the alternatives. And I am sure 
that we can have something that will be fair, if not to 
everyone at least to the majority and to the objective 
observers.
    Thank you very much for your testimony. I have no 
questions.
    Mr. Farrow. Thank you, Congressman.
    The Chairman. The gentleman from American Samoa.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I certainly 
thank Mr. Farrow for his presentation this afternoon. Just one 
question. You know, we have--the people of Puerto Rico have had 
this experience in the plebiscite of 1993 where there was no 
clear majority. And you have expressed in your statement about 
the fact that whatever is to come about, whether it be from 
this plebiscite process, that there should be a majority. You 
know, there is nothing in the Constitution that says that the 
President has to be elected by a majority vote. What happens, 
and as you well know, Mr. Farrow, whenever you have three 
options it is a very, very difficult proposition to get a 
majority. What happens in the plebiscite if there is no 
majority?
    Mr. Farrow. Well, the legislation provides, and we think it 
is proper, that there be a majority requirement. In the event 
of no majority, that there be a reconsideration somewhere down 
the line. Our only question is when that reconsideration ought 
to occur, whether it ought to occur every four years or in a 
time determined by the government of Puerto Rico.
    Mr. Faleomavaega. You have also raised a question about 
that this four-year period might be too long. Do you have a 
better suggestion as to the time period? I felt four years is a 
fair statement for considering the referendums. If it triggers 
that process to take place, do you feel that four years is not 
sufficient time or is it too much time?
    Mr. Farrow. I think it will depend on the situation. It is 
very difficult to project right now what the results of 
referendum would be. And depending on how close those results 
are, the government of Puerto Rico might want to hold a 
referendum earlier or sometime later than that rather than set 
a specified time period. We think that is a matter the 
government of Puerto Rico ought to determine.
    Mr. Faleomavaega. So as much as you can say that the 
Administration definitely is fully committed to the proposition 
and the plebiscite should be held by next year, hopefully? Is 
that a fair statement? You are committed to that?
    Mr. Farrow. It is a fair statement. And further, the 
President looks forward, as I said, to implementing a majority 
decision during his term.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    The Chairman. Thank you, Jeff. I appreciate it.
    Mr. Farrow. Thank you, Mr. Chairman.
    The Chairman. I would just like to compliment all the 
witnesses today and the audience that conducted themselves 
admirably today. I apologize for the interruptions. I believe 
this has been a very beneficial hearing, and I deeply 
appreciate the Governor chairing this meeting in a bipartisan 
way. And hopefully we can continue this. The next hearings will 
take place in Puerto Rico. It is my intent to move this 
legislation. It is my intent to see it pass the House and be 
signed into law, but it also takes a lot of work, a lot of 
communication with everybody involved. And try to avoid the 
pitfalls of delay and impasse, because this is the period of 
time I want to get this done.
    I do thank you. Thank you very much. This meeting is 
adjourned.
    [Whereupon, at 4:17 p.m., the Committee was adjourned; and 
the following was submitted for the record:]

  2Statement by The Honorable Pedro Rossello, Governor of Puerto Rico

    Chairman Don Young; Ranking Democrat, Congressman George 
Miller; members of the Committee on Resources:
    My name is Pedro Rossello. Since 1993, I have been Governor 
of Puerto Rico. In that capacity, on two occasions, I presented 
statements to the 104th Congress that may be of interest to 
each of you.
    <bullet>On October 17, 1995, here in Washington, I 
addressed a hearing conducted jointly by this Committee's 
Native American and Insular Affairs Subcommittee and by the 
Subcommittee on the Western Hemisphere of the House Committee 
on International Relations.
    <bullet>Then, on March 23, 1996, I appeared before the 
Native American and Insular Affairs Subcommittee at a hearing 
conducted in San Juan.
    My October 1995 statement pertained to a November 1993 
political status consultation, organized by the Government of 
Puerto Rico with the full support of all three Puerto Rico 
political parties.
    My March 1996 statement pertained to H.R. 3024: a bill 
filed by Chairman Young, which bore the same title as the 
measure before us today.
    Because of their relevance, and because they may be 
particularly useful to members of this Committee who did not 
serve on the aforementioned Subcommittees of the last Congress, 
I shall be grateful if the Chairman will make copies of those 
statements available to every member of the Committee on 
Resources of this 105th Congress.
    Although I am the president of a political party, and 
although I do strongly advocate one specific solution to Puerto 
Rico's status dilemma, I wish to emphasize at the outset that 
my declarations at this hearing shall be made solely in my role 
as chief executive of the Government of Puerto Rico and on 
behalf of the people of Puerto Rico, as the recipient this past 
November of the largest electoral mandate granted to any 
gubernatorial candidate in Puerto Rico since 1964.
    In addressing you as Governor, and as the spokesperson for 
a strong mandate from the people to move toward the final 
definition and decision on our political status, I see it as my 
duty to concentrate exclusively on offering my assistance as 
you commence the profoundly important process of evaluating 
H.R. 856, the United States-Puerto Rico Political Status Act.
    For the past eight years, both the people of Puerto Rico 
and the United States Government have manifested a commendable 
commitment to addressing this issue seriously, responsibly and 
in an impressively non-partisan manner.
    In 1989, a pro-``commonwealth'' Governor enlisted the 
backing of all three Puerto Rico political parties in 
soliciting action from the Federal Government. That petition 
produced an earnest, positive response from a Republican 
President and a Congress controlled by Democrats. More than two 
years of dedicated effort resulted from that initiative. The 
effort fell short. But it did not fail. Rather, it left behind 
a valuable foundation upon which we have been building ever 
since.
    And so it was that my administration--led by a pro-
statehood Governor--succeeded four years ago in maintaining a 
united front of Puerto Rico political parties in resuming the 
quest for a solution to the status dilemma. And so it was too 
that--with a Democrat in the White House and Republican 
majorities on Capitol Hill--Washington has remained equally 
united, since 1995, in pursuit of a mutually satisfactory 
remedy to the universally acknowledged inadequacy of Puerto 
Rico's current relationship with the rest of our fellow 
citizens of the United States of America.
    President Bill Clinton reiterated his commitment at the 
beginning of this year. In a letter that was read aloud by his 
personal representative, during my second-term inauguration 
ceremony in January, the President wrote: ``I will work with 
you, the islands' other elected leaders, the Congress, and all 
concerned to establish a process that would enable the 
fundamental issue of Puerto Rico's political status to finally 
be resolved.''
    Here in the House, for their part, Chairman Young and 
Ranking Member Miller have mobilized a broad bipartisan 
coalition--with the solid backing of Speaker Newt Gingrich and 
the gentleman from Puerto Rico, Congressman Carlos Romero-
Barcelo.
    On the Senate side, Chairman Frank Murkowski visited Puerto 
Rico this past weekend, leading a bipartisan delegation from 
his Energy and Natural Resources Committee. The Senators held 
lengthy meetings with senior officials from the political 
parties representing Puerto Rico status options.
    In light of these developments, I can state for the record 
that the people of Puerto Rico are looking forward with 
enthusiasm to the imminent exercise by Congress of its 
constitutional responsibility to collaborate with us on 
converting the chronic conundrum of Puerto Rico's status into a 
shining star of statesmanship.
    I am convinced that together we can do it
    Through determination, persistence, unflagging effort and 
an unshakable allegiance to patriotic civility, we can do it.
    Moreover, we can do it expeditiously.
    I commend you, Mister Chairman, for having requested of 
each Puerto Rico political party that it submit by March 31 a 
proposed definition which it believes will be most appropriate 
for the status option it supports. It is my understanding that 
each of the parties intends to comply with that request.
    You acted expeditiously, Mr. Chairman, in filing H.R. 856.
    You acted expeditiously in scheduling this hearing.
    You acted expeditiously in requesting status definitions.
    And I would urge that we likewise expedite the entire 
process contemplated by this bill.
    A year ago this week, in my testimony regarding H.R. 3024, 
I proposed that the process be streamlined. Like that earlier 
bill, H.R. 856 envisions ``a transition plan of 10 years 
minimum which leads to full self-government for Puerto Rico 
consistent with the terms of this Act...''
    Nothing has transpired during the past 12 months to alter 
my outlook on this aspect of the legislation. Accordingly, I 
take this opportunity to urge once again that this bill's three 
stages--initial decision, transition and implementation--be 
consolidated into two stages.
    I feel certain that the transition and implementation 
stages can be combined in such a way as to eliminate any need 
for conducting the interim referendum that is stipulated by the 
bill under the provisions set forth in its transition stage.
    If the people of Puerto Rico do embrace full self-
government during the initial decision stage, then I see no 
reason why ten-or-more additional years must elapse before we 
are able to cast definitive ``yes-or-no'' votes on a 
Presidentially-submitted and Congressionally-approved 
implementation formula.
    A ``streamlining'' of this nature would save time, energy 
and money; it would facilitate completion of the entire 
process, with the utmost, focused attention to detail, during a 
time period that could easily be reduced to a maximum of four-
to-five years.
    But more than that, by expediting matters we can help to 
ensure that the United States-Puerto Rico Political Status Act 
achieves its purpose because--by expediting matters--we can 
greatly enhance the likelihood that the momentum of this 
historic undertaking will not be weakened by unforeseen events 
that could occur as we go forward.
    And furthermore, it would send a strong message to all that 
Congress is ready and committed to act.
    When I first offered this suggestion at the San Juan 
hearing of March 1996, my exact words were these: ``Ten years, 
I respectfully submit, is an inordinately long time. Ten years 
ago, there were two Germanys and a Berlin Wall; South Africa 
was still under apartheid; the North American Free Trade 
Agreement was merely a promising idea; and almost nobody had 
ever heard of the Internet. A ten-year minimum, I believe, is 
more time than we need.''
    Today, in March 1997, I stand by those words. I earnestly 
propose that a mechanism be designed that will allow the people 
of Puerto Rico and our fellow citizens throughout the United 
States to conclude, at the sunrise of the 21st century, an 
extremely significant item of unfinished business that has 
awaited this nation's undivided attention ever since the 
twilight hours of the 19th century.
    To that end and in that spirit, Mr. Chairman and members of 
the Committee, you can count on me. You can count on me to work 
with you; with your Congressional colleagues; with the 
President; and with the people of Puerto Rico. You can count on 
my good faith, my good will, and my unwavering commitment to 
the fundamental principle of civil rights and human dignity 
that this bill so eloquently embodies: the principle of liberty 
and justice for all.
    May God bless each and every person who participates in 
this noble endeavor.
    Thank you very much.

                                ------                                


 Statement of Senator Ruben Berrios-Martinez, President, Puerto Rican 
                           Independence Party

    For almost a century Puerto Ricans of all political 
persuasions have struggled--unsuccessfully--for the recognition 
of our full political rights as a people before a Congress that 
has, for the most part, been hostile or insensitive to our 
demands. Today--on the verge of the 21st century--it is a 
source of optimism that Congress finally begins to recognize 
its centennial obligation to decolonize Puerto Rico.
    But before H.R. 856 becomes an effective and acceptable 
instrument for the solution of Puerto Rico's status problem, 
certain conditions should be met and certain pitfalls avoided, 
some of which require major changes in the bill.
    1. The essential objective and nature of the bill must be 
maintained at all costs. This bill unambiguously faces and 
proposes a solution to the fundamental issue of sovereignty--
the issue of where will ultimate power reside--which is the 
crux of the Puerto Rican status problem. In other words, it 
proposes a process for the definitive solution of the status 
problem by promoting a decision between two paths; one, under 
US sovereignty, leading to statehood, and the other under 
Puerto Rican sovereignty, leading either to independence or 
free association. Territorial Commonwealth on the other hand is 
viewed as the problem to be outgrown and superseded.
    2. So long as the fundamental objective of the bill is 
preserved, the legitimate interests and demands of the 
participants in the status debate must be provided reasonable 
accommodation. This, of course, includes not only 
``independentistas'' and statehooders but, also thousands of 
Puerto Ricans who do not support either independence or 
statehood.
    In this context, while independence and free association, 
as modalities of Puerto Rican sovereignty, must continue to be 
grouped under the same heading on the proposed plebiscite 
ballot, their distinctiveness should nevertheless be clarified. 
Free association and independence are members of the same 
family; but they are first cousins, not identical twins.
    I propose therefore that the bill be amended to ``flesh 
out'' the free association and independence modalities within 
the ``separate sovereignty'' alternative, or as I prefer, the 
``Puerto Rican sovereignty'' alternative.
    If this proposal is accepted then it will not be necessary 
to include the territorial status quo as an option. Even the 
Popular Democratic Party rejects the option of an 
unincorporated territory subject to the power of Congress under 
the Territorial clause of the US Constitution. While we should 
all favor ``inclusiveness'', it would indeed be a perversion of 
that concept to include a colonial or territorial option that 
nobody favors.
    Territorial Commonwealth was included because the bill was 
attacked for excluding a substantial segment of Puerto Rican 
public opinion. But once the free association modality has been 
reformulated in such a way as to address the legitimate 
concerns of its proponents, there would be no need for its 
inclusion, and the bill would once more guarantee a majority 
vote for one of the two paths leading to full self government.
    3. This bill should at least reflect a sense of Congress 
regarding the truly critical questions which it would have to 
face and answer in the event of a statehood petition.
    Congress should not convey the impression that a mere 
majority vote in the plebiscite is the only condition it would 
require in order to grant statehood. I am convinced that if 
this bill is perceived in Congress--rightly or wrongly--as an 
implicit commitment to grant statehood after a majority vote by 
the Puerto Rican electorate, it may never become law. The 
reason is simple. Such commitment would run contrary to 
legitimate political and economic concerns of those members of 
Congress who, in the House or in the Senate, are uninclined to 
accept Puerto Rico as a state or who question the wisdom of 
such an implicit offer.
    Crucial questions regarding statehood for Puerto Rico 
arise, which should be addressed in this bill:
    *Is it the sense of Congress that statehood for Puerto Rico 
would be possible unless English becomes the primary or common 
language of Puerto Ricans?
    *Would statehood be a realistic option so long as Puerto 
Rico's per capita income remains--as it has for the past 50 
years--one third that of the United States and one half that of 
your poorest state, considering the repercussions of that 
reality on the federal treasury?
    *Is statehood conceivable without a solid and overwhelming 
political consensus in its favor in Puerto Rico far beyond a 
mere majority?
    *Is Congress willing to face a Caribbean Quebec if a 
minority for separate sovereignty should become a majority in 
the next generation?
    Needless to say, this Congress cannot anticipate the 
answers to these questions in a way that would bind a future 
Congress. The critical question, however, is a political one 
which only this Congress can answer: should Congress authorize 
a plebiscite with a statehood option, without first providing 
the people of Puerto Rico a clear sense as to what criteria it 
would use to evaluate a statehood petition?
    At a minimum. Congress should make clear that if the 
statehood alternative achieves a sufficient majority but 
Congress does not then act favorably on the petition within a 
reasonably short period of time then the statehood alternative 
should be deemed to have been rejected. Accordingly in order to 
achieve its primary objective, the bill should mandate that in 
such an eventuality the People of Puerto Rico should then 
choose between the remaining decolonizing alternatives, that is 
between independence and free association.
    4. Fairness and objectivity should be maintained regarding 
the status definitions as they might refer to the potential 
economic effects of the different alternatives. As regards this 
issue, the bill is unbalanced and unjust and should be amended.
    Congress has constitutional and international law 
obligations with Puerto Rico's decolonization, in addition to 
moral and political commitments after almost one hundred years 
of U.S. occupation. In this context, Congress should be 
explicit in its willingness to approve a smooth and fair 
transition towards independence, as well as regarding the 
creation of a reparations or development fund. Such a fund 
would indeed be a small price to pay in order to end the 
overgrowing dependence on the federal budget promoted by the 
status quo and which would certainly multiply with the two 
senators and seven representatives which statehood would 
entail. On previous occasions, both the House of 
Representatives and the Senate have demonstrated that such 
objectives can be attained.
    Free trade and economic cooperation are not the exclusive 
prerogative of statehood. On the contrary, mutually beneficial 
and common sense solutions are clearly available for 
independence in this age of globalization and regional economic 
arrangements. The bill should reflect these concepts in order 
to be fair and balanced.
    There are hundreds of thousands of Puerto Ricans who are 
now inclined towards statehood only because they have been led 
to think that a choice for independence would lead to economic 
penalties imposed by the United States through a regime of 
tariffs and trade restrictions. On the other hand they have 
been led to contemplate a statehood panorama of an eternal 
cornucopia of federal welfare funds guaranteed by two senators 
and seven representatives. It is up to Congress to dispel these 
myths by stating its sense as to what its trade and assistance 
policies would be towards an independent Puerto Rico.
    5. It is of the utmost importance that Congress face the 
matter of US citizenship under the Puerto Rican sovereignty 
alternative in a clear and realistic manner. It should begin 
its analysis by separating myth from fact.
    I am firmly convinced that the principal value that the 
immense majority of Puerto Ricans attach to their US 
citizenship is the right to travel freely to and from the 
United States. This should come as no surprise.
    The importance of Puerto Ricans' free transit into the 
United States, however, cannot be underestimated. For almost 
one hundred years--even before Puerto Ricans became US citizens 
in 1917--free transit and free trade have been part of the US-
PR relationship by virtue of US law and policy since 1900. More 
than two million Puerto Ricans live in the United States either 
permanently or temporarily and there is hardly anyone in Puerto 
Rico who does not have a close relative who lives in New York, 
Chicago, Philadelphia or other cities.
    It is within this historical context of free transit--
existing before and after the imposition of US citizenship--
that the majority of Puerto Ricans react with apprehension at 
the threat of losing that freedom to travel which they equate 
to US citizenship.
    As in the matter of trade and economic cooperation if this 
Congress expresses or implies that free transit is only 
possible under statehood it will be promoting an artificial pro 
statehood majority that has nothing to do with the spirit of 
patriotic commitment to the United States which should be the 
real basis of a serious pro statehood sentiment. As recently as 
this month the governor of Puerto Rico, in promoting this myth, 
insisted that regarding the plebiscite ``the decision that must 
be made is whether we want to be American citizens or not. That 
is the basic decision.''
    Loyalty to one's nation and freedom to travel to other 
nations are, as Americans well know, two different things. By 
separating the issue of free transit from the issue of 
citizenship you will have defused the artificial growth of the 
statehood movement.
    As far as we independentistas are concerned we aspire 
exclusively to our own Puerto Rican citizenship in an 
independent Puerto Rico. But as regards those Puerto Ricans 
born before independence who want to retain their US 
citizenship after independence, they should be allowed to 
retain it. In any case, if they were not allowed to do so, the 
US courts would have the final word on the matter.
    As regards Puerto Ricans born after independence, Congress 
would be wise to allow for free transit arrangements between 
both countries. I remind you that a very large percentage of 
the Puerto Rican nationality resides in the United States and 
that it was the US who, after the invasion of our nation, 
created and promoted free transit, and that at present there is 
free transit between Puerto Rico and the US; so surely the 
United States would not be worse off under independence than at 
present. If the European Community countries have successfully 
entered into such free transit arrangements without a similar 
99 years precedent, there is no reason why the United States 
should have any problem in reaching a similar arrangement with 
an independent Puerto Rico.
    6. The bill should be amended to substantially reduce the 
time frame provided for the full implementation of the 
different alternatives.
    In this respect, since the status alternatives require, by 
their very nature different procedures and conditions for their 
implementation, the temptation of false symmetry should be 
avoided. Independence, for example, being an unalienable right 
of the Puerto Rican people, should and could come into effect 
in a very reduced period of time. Once independence has been 
proclaimed, a transition period involving economic and other 
matters would be implemented over an extended period of time.
    On the other hand, statehood not being a right but a 
privilege to be granted at the will of Congress, it would 
necessarily require a different time frame which should be as 
short as practically possible. We believe that the more than 10 
years proposed in the bill should be drastically reduced. It 
would otherwise become a way of avoiding the difficult 
decisions that sooner or later Congress will have to face 
regarding statehood.
    7. The bill should guarantee that all the options have 
adequate and equal access to public funds in the plebiscite 
campaign; that a reasonable limit on spending for advertising 
beyond that provided for by public funds be imposed so as not 
to create an unfair advantage for any option; and that 
government funds and agencies are not improperly utilized to 
favor any option.
    8. H.R. 856 should be amended as to who will have the right 
to vote in the plebiscite.
    It should be obvious that if the plebiscite is not a 
general election to select public officials but a special 
election to advance the cause of self determination of the 
Puerto Rican People, only Puerto Ricans--and not merely 
residents of Puerto Rico--should have the right to vote. By 
Puerto Ricans I mean those born in Puerto Rico or of Puerto 
Rican parentage who reside in Puerto Rico or who, though 
residing outside have the intention to return to live in Puerto 
Rico. As an exception those non Puerto Ricans who have lived in 
Puerto Rico for a substantial period of time and who intend to 
remain should also have the right to participate.
    To allow non Puerto Rican residents of Puerto Rico to vote, 
or to exclude non resident Puerto Ricans, will undoubtedly have 
distorting effects on the election results and call into 
question the legitimacy of the outcome. No objective observer 
would seriously dispute, for example, that the overwhelming 
majority of the non-Puerto Rican residents would vote for 
statehood, either because they are Americans residing in Puerto 
Rico or because, though originally from other countries, they 
became US citizens by choice.
    The anomalies of our colonial condition are such, however, 
that one may clearly anticipate constitutional arguments as to 
the exclusion of non-Puerto Rican residents, and practical 
arguments as to the inclusion of Puerto Rican non-residents can 
also be anticipated. But these constitutional and practical 
obstacles are certainly not insurmountable to a Congress acting 
pursuant to its plenary powers under the territorial clause.
    Even if this committee were unwilling, for whatever reason, 
to agree that the plebiscite franchise be designed in 
accordance with our proposal, this does not mean that the bill 
should not recognize the distorting effect that the electoral 
franchise proposed in the bill implies.
    Needless to say, an imperfect plebiscite is a better option 
than no plebiscite at all, but this committee is by now advised 
that a revision of the bill's franchise provisions is both 
necessary and possible and that not to do so will weaken the 
reliability and legitimacy of the plebiscite results.

           *       *       *       *       *       *       *

    From my long experience with previous processes relating to 
Puerto Rico's status, I have no doubt that as the legislative 
process evolves, the issues I have raised today before this 
Committee will emerge as crucial issues, either in the House or 
the Senate.
    If Congress addresses these issues we are convinced that 
fair and equitable legislation will finally emerge. We are 
willing to work with this Committee to draft the necessary 
specific amendments to meet the objectives we have referred to.

           *       *       *       *       *       *       *

    Before concluding, I wish to set the record straight 
concerning the participation of the Puerto Rican Independence 
Party in this plebiscite process.
    We fully understand why the sponsors of the bill start from 
the premise that statehood would be a legitimate form of self 
government for Puerto Rico. After all, thirty six former 
territories have become states of the Union. In addition a 
large percentage of Puerto Ricans favor statehood and even 
international law admits integration, in certain circumstances, 
as a way out of colonialism.
    But the Puerto Rican Independence Party is convinced that 
integration to the United States as a state of the Union is not 
a valid solution to Puerto Rico's colonial problem.
    Puerto Rico is a distinct, mature, Spanish Speaking, Latin 
American, Caribbean nation. To argue that Puerto Rico is not a 
nation is as absurd as to argue that blacks in the US were not 
human beings before the abolition of slavery.
    For a nation such as Puerto Rico, statehood would be a 
dilution, if not an abdication, of our right to govern 
ourselves as Puerto Ricans, no matter how intensely we exercise 
our voting franchise. The problem of Puerto Rico is not a 
problem of the disenfranchisement of a minority or an issue of 
civil rights, as some people seem to believe. It is not a 
problem of individual rights it is a problem of national rights 
of the inalienable right of a nation, of a people, to govern 
themselves.
    Even Puerto Rican statehooders postulate our right as a 
people to our distinct identity --``Jibaro'' statehood, they 
call it--which in part accounts for their success at the polls. 
Puerto Ricans of all political persuasions proudly and 
forcefully proclaim and have even submitted for the 
Congressional Record that Puerto Rico's language and culture 
are not negotiable under any status. As Gandhi once said, we do 
not ``want [our] house to be walled in on all sides and [our] 
windows to be stifled. [We] want all the cultures of all lands 
to be blown about [our] house as freely as possible. But [we] 
refuse to be blown off our feet by any.''
    You should be aware, therefore, that the primary loyalty of 
Puerto Ricans is to Puerto Rico, not to any other nation, and 
that regardless of what this Congress may resolve or believe, 
we Puerto Ricans are determined to preserve and develop our 
distinct national identity as a people.
    For the US to accept as a state of the Union a distinct 
Spanish Speaking, Latin American nationality with half the per 
capita income of the poorest state, would run counter to its 
national interests, particularly when a substantial consensus 
regarding statehood is a practical impossibility in the 
foreseeable future. Quebec and Ireland are but contemporary 
reminders of the dangers that inevitably ensue when nations 
have attempted to absorb other nations. Nations by definition 
cannot give up their inalienable right to self determination 
and independence that is, their right to secede.
    Independence, on the other hand, which is the ultimate 
empowerment, would endow Puerto Rico with the political, fiscal 
and commercial flexibility indispensable in this day and age to 
insert ourselves into the globalized economy, attract foreign 
capital, strengthen our own, and thus fully develop our 
economic potential.
    For Puerto Rico, independence would be the tool necessary 
to break the cycle of impotence and dependence which has become 
endemic in our colonial relationship and which would only turn 
more acute under statehood. This condition of dependency has 
constrained our economic development and undermined our dignity 
and self esteem. Independence, in contrast with commonwealth or 
statehood, would mean the beginning of the end of the ever 
increasing drain on the federal budget. Moreover, it would be a 
source of incalculable good will for Latin America and the 
Caribbean; an indispensable condition for the development of a 
forward-looking US policy towards the region for the next 
century based on equality and cooperation.
    We are thus convinced that when Congress finally works its 
will, when this process comes to its end, the United States 
government will come to the conclusion that the only true 
option for both of our countries is independence.
    But we are not there yet and it is thus necessary that the 
process work its way. Let us, therefore, move ahead with the 
process.
    The relationship between colonizer and colonized denies the 
essential equality of nations in the same way that the relation 
between master and slave denies the essential equality of human 
beings. It denigrates the colonized and it demeans the 
colonizer. For the honor and respect of both our nations let us 
bring it to an end.

                                ------                                


Statement of Anibal Acevedo-Vila, President, Popular Democratic Party, 
                      Commonwealth of Puerto Rico

    Good Morning.
    I come before you today at the invitation of Chairman Young 
to attend these hearings with regard to H.R. 856, ``The United 
States-Puerto Rico Political Status Act''. Ever since the 
creation of the unique status of Puerto Rico--Commonwealth, 
which was crafted by the leadership of the Congress and Puerto 
Rico in a constructive process, and was overwhelmingly approved 
as a compact by the people of Puerto Rico and the United States 
in 1952--the Popular Democratic Party has actively participated 
in every status deliberation process.
    We represent the preferred status formula of the people of 
Puerto Rico, having won every status consultation ever 
undertaken. Our position has been supported by a majority of 
the people in all three status plebiscites, in 1952, in 1967 
and most recently in 1993.
    We believe in principles. We believe in democracy. We 
believe in constitutional governments and the everlasting 
premise that the rule of law requires respect from the 
government to commitments made by previous administrations, and 
a serious recognition by all of judicial precedents. We believe 
in the most fundamental of democratic principles: that all 
governments of the free world legitimize their condition as a 
government only with the consent of the governed.
    I commend the sponsors of this bill for their interest in 
establishing a procedure for the people of Puerto Rico to 
choose their final political status. I pledge the full 
cooperation of our party to that end. As in every process 
before, the basic principles of democracy, fairness and 
inclusiveness must always be present.
    We have made every effort to evaluate, study and analyze 
H.R. 856 and conclude that we cannot and will not support it as 
its stands. (Our position with regard to this bill and a future 
process of self-determination for Puerto Rico is fully spelled 
out in the two resolutions unanimously adopted by the General 
Council of our party, which I am enclosing as appendices to 
this statement and which should be made a part of the record.) 
Appendices C & D.
    The objective of this bill is right, but the means devised 
to accomplish it are wrong. This is not a balanced bill. This 
bill has a severe tilt. It is actually a statehood bill and as 
such is unacceptable.
    The bias which mars this bill is glaring and offensive. 
Commonwealth status, the preferred choice of the Puerto Rican 
people since its establishment in 1952, reaffirmed as recently 
as in the 1993 plebiscite called by the Statehood party itself, 
is pictured in dark colors and dismissed as a colonial status, 
unworthy of consideration. Should the people of Puerto Rico 
churlishly decide to continue backing it, further plebiscites 
must be held, until statehood, independence or free 
association, involving the loss of United States citizenship, 
is chosen. It being well known that the people of Puerto Rico 
want no pact on independence and take proper pride in their 
American citizenship, the result is, of course, pre-ordained 
for statehood.
    For the majority of the people of Puerto Rico that believe 
in autonomy and self-government with American citizenship as a 
bond with the United States, this bill offers no alternative. 
It will require that the more of 900,000 persons I represent 
that are against annexation as a state, choose between a 
colonial denigrating status or loosing our American 
citizenship. To vote in this plebiscite will force us to act 
against our political beliefs and our freedom of speech. It 
will violate the principle of equal protection and trample us 
upon our conscience.
    When Congress decided back in 1917 to offer American 
citizenship to the people of Puerto Rico, it was made 
completely disassociated from any thought of statehood and 
specifically contemplating that it be an element of future 
autonomous self-government developments for the island. To 
unilaterally change these assumptions now would confront Puerto 
Ricans with a conscience dilemma of no precedent in American 
History.
    With this bill as it stands, Statehood becomes the only 
available alternative. This anticipated result will be unfair 
both to Puerto Rico and the United States. The people of Puerto 
Rico would have to make a choice for statehood for the wrong 
reasons. Not based on patriotism and a real commitment to the 
Union, but because they have been left with no other real 
alternative. On the other hand, the U.S. Congress will have 
before it a petition for Statehood, and a request for action, 
without having considered properly the cultural, national, 
ethnic, linguistic, economic and social consequences of 
statehood. As you can see, this bill will not solve any 
problem, but rather create a bigger one.
    Let there be no doubt that we want to participate in a fair 
and democratic process. As Chairman Young stated in September 
17, 1990 with regard to another referendum bill for Puerto 
Rico: ``a referendum should only be authorized by the Congress 
if it is to be fair to all parties and the statuses they 
advocate.'' This should be the guiding principle in this 
process of enacting legislation. With all do respect, the bill 
under your consideration does not comply with the fairness 
standard you, Mr. Chairman, previously established.
    The assumptions of this bill, that it is not possible to 
have a non-colonial bilateral relationship, based a mutual 
consent with American citizenship as a bond between Puerto Rico 
and the United States, is against history, legal precedents and 
clearly unacceptable for us.
    We see the joint letter from Congressmen Young and Miller 
of March 3, 1997, giving the Popular Democratic Party the 
opportunity to present a new definition of Commonwealth before 
March 31, as a new approach and openness, to have a referendum 
``fair to all parties and the statuses they advocate'' and to 
revise the dispositions and assumptions of this bill which have 
until now made impossible any meaningful participation for us.
    A starting point in this process should be the express 
recognition of what the present relationship is. The creation 
of Commonwealth status was a great joint achievement of the 
government of the United States and the people of Puerto Rico. 
Public Law 600 was enacted on July 3, 1950 by Congress 
authorizing the people of Puerto Rico to draft and adopt a 
Constitution. Recognizing the sovereignty of the people of 
Puerto Rico to establish its own Constitution, Congress clearly 
stated in Public Law 600 that: ``fully recognizing the 
principle of government by consent, this act is now adopted in 
the nature of a compact'', conditioning its effectiveness and 
the perfectioning of the compact on it first being approved by 
the people of Puerto Rico in a referendum.
    Public Law 600 was overwhelmingly approved by the people. A 
Constitution was adopted on a second referendum and approved by 
the Congress on July 3, 1952. In Public Law 447, by which 
Congress accepted the Commonwealth Constitution, it is clearly 
stated that Public Law 600 had been adopted as a compact 
between Congress and Puerto Rico. The Constitution of the 
Commonwealth of Puerto Rico, adopted by the People and approved 
by Congress clearly recognizes the sovereignty of the people 
and the compact between Puerto Rico and the United States 
states:
    ``Section 1. The Commonwealth of Puerto Rico is hereby 
constituted. Its political power emanates from the people and 
shall be exercised in accordance with their will, within the 
terms of the compact agreed upon between the people of Puerto 
Rico and the United States of America.
    ``Section 2. The government of the Commonwealth of Puerto 
Rico shall be republican in form and its legislative, judicial 
and executive branches as established by this Constitution 
shall be equally subordinate to the sovereignty of the people 
of Puerto Rico.''
    Based on these actions, the United States Government made a 
solemn representation to the United Nations, on the basis of 
which Puerto Rico was struck out from the list of non self-
governing peoples in 1953. At that time, the United States 
government made clear statements before the United Nations with 
regard to the new status of Puerto Rico of a bilateral compact 
that can only be changed by mutual consent:
    ``The previous status of Puerto Rico was that of a 
territory subject to the full authority of the Congress of the 
United States in all governmental matters. The previous 
constitution of Puerto Rico was in fact a law of the Congress 
of the United States, which was called an Organic Act. Congress 
only could amend the Organic Act of Puerto Rico. The present 
status of Puerto Rico is that of a people with a constitution 
of their own adoption, stemming from their own authority, which 
only they can alter or amend. The relationships previously 
established by a law of Congress, which only Congress could 
amend, have now become provisions of a compact of a bilateral 
nature whose terms may be changed only by common consent''.
    On November 27, 1953 the General Assembly of the United 
Nations approved Resolution 748 VIII which specifically 
declares that: ``In the framework of their Constitution and of 
the compact agreed upon with the United States of America, the 
people of the Commonwealth of Puerto Rico have been invested 
with attributes of political sovereignty which clearly identify 
the status of self-government attained by the Puerto Rican 
people as that of an autonomous political entity''.
    The United States Supreme Court has repeatedly held that 
Puerto Rico is to be deemed ``sovereign over matters not ruled 
by the [United States] Constitution''; that ``the purpose of 
Congress in the 1950 and 1952 legislation was to accord to 
Puerto Rico the degree of autonomy and independence normally 
associated with a State of the Union''; that ``Puerto Rico 
occupies a relationship to the United States that has no 
parallel in our history''; and that ``Puerto Rico, like a 
state, is an autonomous political entity'' [Calero-Toledo v. 
Pearson Yacht Leasing Co., 416 US 663, 672-673 (1974); 
Rodriguez v. Popular Democratic Party, 457 US 1, (1982); 
Posadas v. Tourism Co., 478 US 328 (1986); Examining Board v. 
Flores de Otero, 426 US 572, (1976)]. While sitting in the 
Court of Appeals for the First Circuit, Judge, now Justice, 
Breyer stated in a landmark case [Cordova v. Chase Manhattan 
Bank, 649 F. 2d 36, (1981)]:
    ``In sum, Puerto Rico's status changed from that of a mere 
territory to the unique status of Commonwealth, and the federal 
government's relations with Puerto Rico changed from being 
bound merely by the territorial clause, and the rights of the 
people of Puerto Rico as the United States citizens, to being 
bound by the United States and Puerto Rico Constitutions, 
Public Law 600, the Puerto Rican Federal Relations Act and the 
rights of the people of Puerto Rico as United States 
citizens''.
    Of the various of cases decided by Federal Courts touching 
upon Commonwealth status, opponents to this option single out 
the case of Harris vs. Rosario, 446 U.S. 651 (1980) to 
establish that Congress may, at any time, unilaterally alter or 
abolish Commonwealth. However, the point of law before the 
Court in Harris vs. Rosario dealt with the question of whether 
it was constitutional for an act of Congress to deny Puerto 
Rico residents benefits under the AFDC program otherwise 
available to that citizen if residing in the mainland. To 
justify unequal treatment between the Puerto Rico residents and 
those of the several states in its brief discussion the Supreme 
Court made reference to the territorial clause of the U.S. 
Constitution.
    However, there was no claim that the Commonwealth compact 
required that Congress must extend to Puerto Rico, in equal 
terms, all federal aid programs. Therefore, the holding in 
Harris vs. Rosario in no way invalidates the compact by virtue 
of which Commonwealth was created. Moreover, in all the cases 
after Harris in which the Supreme Court has confronted an issue 
regarding the nature of Commonwealth, the Court has validated 
the main principles of our present status. (See Rodriguez v. 
PDP, supra, 1982; Posadas v. Tourism Co., supra, 1986). (For 
further discussion of Harris see Appendices B.)
    The definition of Commonwealth contained on H.R. 856 denies 
these precedents, presents Commonwealth as a classic colonial 
status and for the first time proclaims the revocability of the 
American citizenship all Puerto Ricans enjoy since 1917. Under 
these circumstances, Commonwealth followers which I represent, 
have no place to vote on the ballot proposed by this bill. It 
will force us to choose between a colonial alternative that 
goes against our beliefs and constitutional rights or, on the 
other side, deprive our children and grandchildren of the 
American citizenship. Two alternatives clearly unacceptable.
    History shows that full autonomy and American citizenship 
are not mutually exclusive concepts. Moreover, American 
citizenship has always been the bond for a permanent union 
entirely disassociated from statehood.
    This principle was clearly outlined by President Taft in 
his 1912 State of the Union address, advocating in favor of a 
bill pending in Congress to grant American citizenship to all 
Puerto Ricans, where he stated:
    ``I believe that the demand for citizenship is just, and 
that it is amply earned by sustained loyalty on the part of the 
inhabitants of the island. But it must be remembered that the 
demand must be, and in the minds of most Puerto Ricans is, 
entirely disassociated from any thought of statehood. I believe 
that no substantial approved public opinion in the United 
States or in Puerto Rico contemplates statehood for the island 
as the ultimate form of relations between us. I believe that 
the aim to be striven for is the fullest possible allowance of 
legal and fiscal self-government, with American citizenship as 
the bond between us; in other words, a relation analogous to 
the present relation between Great Britain and such self-
governing colonies as Canada and Australia. This would conduce 
to the fullest and most self-sustaining development of Puerto 
Rico, while at the same time it would grant her the economic 
and political benefits of being under the American flag''.
    As to the legal problems that conceivably could be raised, 
by granting American citizenship, Felix Frankfurter, when he 
was serving at the War Department, wrote in 1914 and is cited 
in Mora v. Torres, 113 F.Supp. 309, 319 (District of Puerto 
Rico, 1953), waiving aside sham constitutional objections:
    ``The form of the relationship between the United States 
and unincorporated territory is solely a problem of 
statesmanship.
    ``History suggests a great diversity of relationships 
between a central government and dependent territory. The 
present day demands upon inventive statesmanship is to help 
evolve new kinds of relationships so as to combine the 
advantages of local self-government with those of a 
confederated union. Luckily, our Constitution has left this 
field of invention open''.
    Congressional and official actions after the enactment of 
Commonwealth have been consistent with these principles and 
precedents that now this bill intents to unilaterally revoke. 
There is ample evidence, moreover, that Congress has expressly 
recognized the non-territorial character of Commonwealth 
Status. The report of 1964 of the federally created United 
States Puerto Rico Commission on the Status of Puerto Rico 
(Public Law 88-271) states:
    ``The Commission's mayor conclusion is that all three forms 
of political status--the Commonwealth, Statehood, and 
Independence--are valid and confer upon the people of Puerto 
Rico equal dignity with equality of status and of national 
citizenship.
    ``The Commonwealth relationship was established through 
bilateral agreement. It is clear that the U.S. Government 
entered into a solemn agreement with the Puerto Rican people in 
1952 and that the agreement, referred to in the legislation as 
the compact, bears permanent legal consequences.
    ``A solemn undertaking of such profound character between 
the Federal Government and a community of U.S. citizens is 
incompatible with the concept of unilateral revocation. It is 
inconceivable that either the United States or Puerto Rico 
would, by an act of unilateral revocation, undermine the very 
foundation of their common progress: the fundamental political 
and economic relationships which were established on the basis 
of mutuality.
    ``The key to the continuation and development of the 
relationship between Puerto Rico and the mainland is U.S. 
citizenship. This citizenship carries with it basic personal 
and institutional protections which cannot be encroached upon 
by the Legislature of Puerto Rico or the Congress of the United 
States''.
    Other Congressional documents are consistent with these 
precedents. The basic principles regarding Commonwealth, that 
this bill pretends to deny--a bilateral relationship based on 
mutual consent with American citizenship as one of its 
components--have been recognized in all the bills that the 
Congress has seriously considered to further develop 
Commonwealth in the last 25 years. For example:
    --H.R. 11200-1 introduced in Congress in 1975 to implement 
the result in favor of Commonwealth in the 1967 referendum and 
approved by the House Sub-Committee of Insular Affairs. It 
defined Puerto Rico as an autonomous body politic organized by 
their own, free and sovereign will, joint in permanent union 
with the United States with American citizenship.
    --S. 712 approved by the Senate Energy Committee in August, 
1989, recognizing the bilaterality of the relationship and the 
permanence of the American citizenship.
    --S. 244 was also considered by the Senate Energy Committee 
in 1991. It recognized Puerto Rico's autonomy, bilateral 
compact, mutual consent and, U.S. citizenship as a bond of 
permanent union between the United States and Puerto Rico. 
Final Committee vote was 10-10, although major concerns to the 
Commonwealth definition were not reported.
    --H.R. 4765 approved by the Insular Affairs Sub-Committee, 
by the Interior Committee and unanimously by the House of 
Representatives in August 10, 1990, allowing the people of 
Puerto Rico to vote for a New Commonwealth.
    So far, I have been talking about the historic precedents 
that clearly show that the assumptions under which this bill 
has been drafted are wrong. Now is time to talk about the 
future. The Chairman, Mr. Don Young, and the ranking Democrat, 
Mr. George Miller, have graciously asked me to submit a 
definition of Commonwealth.
    The definition I am about to present is made recognizing 
the sovereignty of the People of Puerto Rico to enter into a 
new relationship with the United States consistent with the 
principles of dignity, political autonomy and permanent union 
that gave birth to the present Commonwealth status. With minor 
changes in order to adjust it to the implementation process 
required by H.R. 856, the Popular Democratic Party believes 
that it would be adequate to work with the definition of a New 
Commonwealth adopted by this Committee in 1990 which was 
included in the report to H.R. 4765 of the 101st. Congress 
approved by the Sub-Committee of Insular Affairs, by the full 
Committee of the Interior, and unanimously by the full House on 
October 10, 1990.
    Eleven members of this Committee, including Chairman Young 
and Congressman Miller, were members of that Committee and 
voted in favor of the definition I will now present. The New 
Commonwealth should be defined as follows:
    ``(A) The new Commonwealth of Puerto Rico would be joined 
in a union with the United States that would be permanent and 
the relationship could only be altered by mutual consent. Under 
a compact, the Commonwealth would be an autonomous body politic 
with its own character and culture, not incorporated into the 
United States, and sovereign over matters covered by the 
Constitution of Puerto Rico, consistent with the Constitution 
of the United States.
    ``(B) The United States citizenship of persons born in 
Puerto Rico would be guaranteed and secured as provided by the 
Fifth Amendment of the Constitution of the United States and 
equal to that of citizens born in the several states. The 
individual rights, privileges and immunities provided for by 
the Constitution of the United States would apply to residents 
of Puerto Rico. Residents of Puerto Rico would be entitled to 
receive benefits under Federal social programs equally with 
residents of the several States contingent on equitable 
contributions from Puerto Rico as provided by law.
    ``(C) To enable Puerto Rico to arrive at full self-
government over matters necessary to its economic, social, and 
cultural development under its constitution, a Special 
Constitutional Convention would submit proposals for the entry 
of Puerto Rico into international agreements and the exemption 
of Puerto Rico from specific Federal laws or provisions 
thereof. The President and the Congress, as appropriate, would 
consider whether such proposals would be consistent with the 
vital national interests of the United States in the transition 
plan provided for in Section 4 of this Act. The Commonwealth 
would assume any expenses related to increased responsibilities 
resulting from these proposals.''
    This definition describes the minimum content of our 
aspirations. By offering a definition which was the subject of 
serious study, was actively supported by Chairman Young and 
Congressman Miller among others, and met with the approval of 
this Committee and of the whole House a few years ago we mean 
to show our desire to facilitate the work of this Committee and 
bring about a plebiscite in which Commonwealth supporters may 
participate with a clear conscience.
    By using the mechanism of a Constitutional Convention, 
which is already included in Section 4(b) (1) (B) of H.R. 856, 
to implement a vote in favor of the New Commonwealth, we would 
adapt it to the implementation mechanism conceived by this 
bill.
    The Popular Democratic Party is looking with enthusiasm at 
the future. It is in the process of reorganizing its leadership 
and currently involved in a healthy generational transition 
that will guarantee a strong and rejuvenated party for years to 
come. The definition I have presented today fully complies with 
the principles contained in a document adopted last week by the 
Youth Organization of the Popular Democratic Party.
    Commonwealth as an autonomic ideal for the future is the 
only status alternative in Puerto Rico that harmonizes those 
aspirations and goals of the modern world by protecting our 
identity and simultaneously guaranteeing our relationship with 
the United States, with a common market, common citizenship, 
common defense and common currency.
    We believe that modern tendencies show that the ideas that 
will prevail in the new century will be those similar to the 
basic principles of Commonwealth of national reaffirmation and 
political and economic integration among the peoples of the 
world.
    Thank you.
                                ------                                


                              APPENDICES A

   2A NOTE ON THE POWER OF CONGRESS TO ENTER INTO A COMPACT WITH THE 
                         PEOPLE OF PUERTO RICO

    The Supreme Court of the United States has relied upon two 
sources to sustain Congress' power with respect to territories: 
the inherent and implied powers of the United States as a 
sovereign and the territorial clause, Article IV, Section 3, 
Clause 2 of the United States Constitution. American Insurance 
Co. v. Canter, 26 US 511, 542-43 (1828). Under both powers 
Congress can make contracts or compacts binding upon other 
Congresses.
    The general power to make binding compacts and agreements 
is a necessary corollary of sovereignty. United States v. 
Bekins 304 US 27, 51-52 (1936). In Perry v. United States, 294 
US 330, 352, 253-54 (1935), regarding the gold clause in the 
bonds of the United States, the Court plainly stated that ``the 
right to make binding obligations is a competence attaching to 
sovereignty''. A Joint Resolution of Congress that attempted to 
override the obligation created by the bond was accordingly 
held to be beyond Congressional power. See also: Union Pacific 
R.R. Co. v. United States, 99 US 700, 719 (1870), where the 
federal government contracted with states to grant them federal 
lands on certain conditions, the Court holding that such 
agreements had to be honored by future Congresses.
    Binding compacts and agreements can also be made under the 
territorial clause. The power of Congress to contract is 
included within the power to ``dispose'' referred to in that 
clause. See: United States v. Gratiot, 30 US (14 Pet) 526, 537-
538 (1840), regarding the lease of mineral rights on public 
lands and holding that Congress could dispose partially, as 
well as totally of the property and territory of the United 
States. See also: Ashwander v. T.V.A. 297 US 288 (1936).
    The binding nature of contracts entered into pursuant to 
the territorial clause includes contracts made with the people 
of a territory. See Stearns v. Minnesota, 179 US 223 (1900), 
concerning a contract made between the United States and the 
territory of Minnesota relating to the grant of certain federal 
lands to the territory in trust. Such an action was held 
binding on future Congresses.
    Compacts made pursuant to the territorial clause may deal 
with governmental rights. The Northwest Ordinance of 1787 
provides the classic example. The Northwest Ordinance stated 
that several of its provisions ``shall be considered as 
articles of compact between the original States, and the people 
and States in the said territory, and forever remain 
unalterable unless by common consent''. The Northwest Ordinance 
was adopted by the Continental Congress under the Articles of 
Confederation and ratified by the First Congress under the new 
Constitution by Act of August 7, 1789, 1 Stat. 50. Story was of 
the opinion that the Ordinance bound Congress in the exercise 
of its otherwise absolute power under the territorial clause. 2 
Story on the Constitution [Bigelow ed., 1891] sec. 1328.
    Congress may relinquish or dispose of part of its 
territorial powers and retain others. The admission of a 
territory as a state is an example of total disposal. So is the 
Tydings-McDuffie Act of 1934, 48 Stat. 761, which granted 
independence to the Philippines. The Northwest Ordinance of 
1787 represents an example of partial relinquishment or 
limitation of Congressional rights under the territorial 
clause. There is no authority for the proposition that the 
United States is forced by its Constitution to opt only for 
total relinquishment of its powers under the territorial 
clause. Independence and statehood are not the only ways out of 
territorial status. As pointed by Felix Frankfurter in his days 
at the Bureau of Insular Affairs at the War Department (see Mr. 
Acevedo Vila's statement before this Committee today), the 
field is constitutionally open to inventive statesmanship.
    The validity of the compact entered into in 1952 between 
the people of Puerto Rico and the government of the United 
States was duly recognized by United States representatives at 
the United Nations in 1953. (See Mr. Acevedo Vila's statement 
for the appropriate quote).
    At various times, although there have been occasions to the 
contrary, the United States Department of Justice has admitted 
the constitutional possibility of a compact between the people 
of Puerto Rico and the government of the United States. On 
April 2, 1962, it stated that the more reasonable conclusion 
would be ``to read the Constitution as not restricting 
Congress' power to construct such political relationships with 
the territories as it may consider necessary in the light of 
particular instances, including one in which it permanently 
divests itself of part of its territorial powers''. (J. Trias 
Monge, Historia Constitucional de Puerto Rico, Rio Piedras, 
Editorial de la Universidad de Puerto Rico, 1983, vol. 4, p. 
184).
    The United States-Puerto Rico Commission on the Status of 
Puerto Rico, established by Congress in 1964, 78 Stat. 17, 
concluded in its 1966 report that ``All three status 
alternatives--the Commonwealth, Statehood, and Independence--
are within the powers of the people of Puerto Rico and the 
Congress to establish under the Constitution''. Report of the 
United States-Puerto Rico Commission on the Status of Puerto 
Rico, 1966, p. 6.
    On May 12, 1975, the United States Department of Justice, 
being consulted by the White House as to the constitutionality 
of the proposed Compact of Permanent Union between Puerto Rico 
and the United States (H.R. 11200 and H.R. 11201, 121st 
Congress, 1st Sess.) concluded that ``it is possible for 
Congress to bind future Congresses with respect to Puerto Rico 
by means of a `compact'. This may be viewed either as the 
vesting of certain rights, see, e.g., Downes v. Bidwell, 182 US 
244, 261-71 (1901), or as the granting of a certain measure of 
independence which once granted cannot be retrieved. Thus, 
specifically, Article 21 of the proposed Compact, requiring 
mutual agreement for amendment to the Compact, would, in our 
belief, be constitutional. Indeed, its explicit statement would 
appear to be an improvement over the situation under the 
present Compact where there is some question as to the ability 
of Congress to change its provisions''. (President Ford's 
Library, Norman E. Ross Files, Ad Hoc Committee, folders 2-3, 
letter dated May 12, 1975 from A. Mitchell McConnell, Acting 
Assistant Attorney General, Legislative Affairs, written as an 
answer to the request of James M. Cannon, Assistant to the 
President for Domestic Affairs).
    As respects court opinions, the question as to the power of 
Congress to enter into a binding compact with the people of 
Puerto Rico has not yet been directly at issue, but many 
rulings of the Supreme Court of the United States and the Court 
of Appeals for the First Circuit are incompatible with the 
argument that for Congress to enter into a binding compact 
would be constitutionally impossible. Among such rulings are 
the recognition that Puerto Rico is sovereign over matters not 
ruled by the Constitution of the United States; that Puerto 
Rico has been accorded the degree of autonomy and independence 
normally associate with States of the Union; that Puerto Rico 
occupies a relationship to the United States that has no 
parallel in American history; and that, accordingly, upon the 
establishment of Commonwealth status, Puerto Rico ceased to be 
a territory of the United States subject to the plenary power 
of Congress. (See the note on Harris v. Rosario for the 
appropriate citations).
                                ------                                


                             4APPENDICES B

                      2A NOTE ON HARRY v. ROSARIO

    Harris v. Rosario, 446 US 651 (1981), held in a two-
paragraph per curiam opinion, citing Califano v. Torres, 435 US 
1 (1978), that Congress was empowered to treat Puerto Rico 
differently than a state in granting aid to families with 
dependent children. The Court briefly referred to the 
territorial clause as the basis for that power. The Court, it 
should be noted, did not face in Harris the question whether 
Congress retained plenary power to legislate for Puerto Rico 
and accordingly said nothing about that. In order to address 
such a momentous issue a full-dress opinion would naturally 
have been required, rather than the summary action taken. The 
Court just ruled in Harris that Congress can under the 
territorial clause treat Puerto Rico differently than a state 
as respects the application of aid programs. The power of 
Congress to do so has, of course, never been challenged by the 
government of Puerto Rico, as it actually provides one of the 
constitutional bases for the unique nature of Commonwealth 
status. The interpretation of Harris advanced by critics of 
Commonwealth status simply misses the substantial distinction 
between the power of Congress to treat Puerto Rico differently 
than a state and the power to legislate for the unincorporated 
territories basically at its pleasure.
    Harris does not, therefore, support the understanding of 
its meaning propound by critics of Commonwealth status. Such an 
interpretation of Harris runs counter to other decisions of the 
United States Supreme Court issued both before and after 
Harris.
    Should the construction put on Harris by critics of 
Commonwealth status to be correct, why is it that neither the 
United States Supreme Court nor the Court of Appeals most 
familiar with Puerto Rican matters, that for the First Circuit, 
not only has ever failed to follow such an interpretation, but 
actually ruled to the contrary?
    Contrary to the bizarre interpretation of Harris favored by 
critics of Commonwealth status, these are some of the 
statements issued by the United States Supreme Court and the 
Court of Appeals for the First Circuit on the status change 
represented by the establishment of the Commonwealth:
    <bullet>``We readily concede that Puerto Rico occupies a 
relationship to the United States that has no parallel in our 
history...'' Examining Board v. Flores de Otero, 426 US 572 
(1972).
    <bullet>``Puerto Rico is to be deemed sovereign over 
matters not ruled by the Constitution''. Calero Toledo v. 
Pearson Yacht Leasing Co., 416 US 663 (1974); Rodriguez v. 
Popular Democratic Party, 457 US 1 (1982); Alfred L. Snapp & 
Son Inc. v. Puerto Rico, 458 US 592 (1982), Posadas de Puerto 
Rico Assc'n v. Tourism Co., 478 US 328 (1986).
    <bullet>``The purpose of Congress in the 1950 and 1952 
legislation was to accord to Puerto Rico the degree of autonomy 
and independence normally associated with States of the 
Union''. Examining Board v. Flores de Otero, supra.
    <bullet>``Puerto Rico, like a state, is an autonomous 
political entity''. Rodriguez v. Popular Democratic Party, 
supra.
    <bullet>``The theme that consistently runs throughout the 
legislative history of Puerto Rico's attainment of Commonwealth 
status is that Commonwealth represents the fulfillment of 
increasing self-government over local affairs by the people of 
Puerto Rico...In sum, Puerto Rico's status changed from that of 
a mere territory to the unique status of Commonwealth. And the 
federal relations with Puerto Rico changed from being bounded 
merely by the territorial clause, and the rights of the people 
of Puerto Rico as United States citizenship, to being bounded 
by the United States and Puerto Rico Constitutions, Public Law 
600, the Puerto Rican Federal Relations Act and the rights of 
the people of Puerto Rico as United States citizens''. Cordova 
& Simonpietri, Inc. v. Chase Manhattan Bank, 649 F2d 3 6 (1st 
Cir. 1981).
    <bullet>``Thus, in 1952, Puerto Rico ceased being a 
territory subject to the plenary powers of Congress''. United 
States v. Ouinones, 758 Fed. 2d 40 (1st Cir. 1985).
    There is accordingly no basis in law for the proposition 
that Harris establishes that Puerto Rico is still an 
unincorporated territory of the United States subject to the 
plenary power of Congress under the territorial clause.

                                ------                                


    Statement of Luis A. Ferre, Former Governor of Puerto Rico, New 
                           Progressive Party

    Chairman Young and Members of the House Natural Resources 
Committee:
    Good Afternoon!
    My name is Luis A. Ferre.
    I have advocated statehood for Puerto Rico during my adult 
life, which extends today to 93 years.
    I served as Governor of Puerto Rico from 1969 to 1973 and I 
appear before you as Founding President of the New Progressive 
Party, committed to achieve statehood for Puerto Rico, which 
won the 1996 election with a majority vote of 1,006,331 or 
51.4% for Governor of Puerto Rico, a majority of the Senate 
with l9 seats out of 28, a majority of the House with 37 out of 
54 seats, 54 mayors of a total of 78 municipalities and a vote 
of 973,654, or majority for Resident Commissioner to Congress.
    The New Progressive Party stands firmly behind the Young 
Bill, H.R. 856. We are all happy, indeed, that you have all 
subscribed H.R. 856, which finally opens the road for Puerto 
Rico to make a decision on its ultimate political status in the 
dignified manner that becomes the United States Congress and 
the people of the United States, including statehood as an 
alternative, which was the implicit understanding under which 
the people of Puerto Rico welcomed the American forces of 
General Nelson Miles in 1898.
    Upon landing, General Nelson Miles published a proclamation 
which read in part, ``Our military forces have not come to make 
war on the people of the country--but, on the contrary, to 
bring protection,-- promote your prosperity, and bestow the 
immunities and blessings of our enlightenment and liberal 
institutions and government.''
    This proclamation was considered, by our political leaders 
and the Puerto Rican people, as a moral commitment by the 
United States to accept Puerto Rico, eventually, as a state of 
the Union, with full United States citizenship. Accordingly, 
both political parties that participated in the elections of 
1900, under the leadership of the two most important and 
respected leaders, Barbosa and Munoz Rivera, included statehood 
in their platforms, and gave their full support to you 
assumption of our destiny on an equal political basis and moral 
responsibility.
    Unfortunately, and to everybody's disappointment, Congress 
enacted the Foraker Bill to establish the first civil 
government, in 1900, which did not grant United States 
citizenship to Puerto Ricans, acting in contradiction to the 
historical precedent of accepting territories only to become 
states. In spite of this disappoinunent, the people of Puerto 
Rico did not lose their confidence in the ultimate spirit of 
justice and moral responsibility of the United States and 
persisted in their demands for United States citizenship, as a 
step to ultimate statehood.
    We are now approaching one hundred years from the date of 
the signature of the Treaty of Paris, which bestowed upon 
Congress the power to determine the political destiny of Puerto 
Rico, as at last outlined, with options for full self-
government, including statehood, in Young Bill H.R. 856.
    It took Congress 19 years to grant United States 
citizenship, under the Jones Act, and to establish an elected 
Senate. It took congress 50 years to provide for an elected 
Governor. It took an additional four years to allow us to draft 
and approve our own state-like Constitution in 1952, through an 
elected Constitutional Convention to which I had the honor of 
being elected as a statehood advocate and spokesman.
    In 1950, Congress authorized the people of Puerto Rico to 
vote in a Referendum to accept or reject Law 600, which 
provided for the adoption of the local Constitution, as well as 
to other amendments to the Jones Act of 1917. The Federal 
Relations Act remained unchanged, maintaining Puerto Rico, as a 
non-incorporated Territory under the Territorial Clause of the 
United States Constitution and the full sovereignty of 
Congress.
    We voted in favor of the Constitution drafted by the 
Convention under the clear understanding that the Commonwealth 
(E.L.A.), as defined therein, was to be a transitory status 
that kept the way open for Puerto Rico to achieve statehood or 
independence, at a future date, if the people so decided.
    Several attempts were made afterwards to interpret and 
modify Law 600, which were rejected by Congress.
    In 1964, and to clarify the meaning of Law 600, under which 
the Constitution of Puerto Rico was granted, the United States-
Puerto Rico Status Commission as appointed. I was appointed 
member of the Status Commission on behalf of the statehood 
position.
    During the Commission proceedings, I was able to argue 
against the misleading campaign of the advocates of 
Commonwealth status, that statehood for Puerto Rico was not 
attainable and that it would be economically disastrous for the 
Island and an economic burden to the United States, assuming 
the position that I had been sustaining since November 23, 
1949, when I testified before the sub-committee of the 
Committee on Labor and Education of the House of 
Representatives of the United States, that to the contrary, 
Puerto Rico could assume the full economic responsibilities of 
statehood and it would be in the long run an asset to the 
United States, while the territorial status of Commonwealth 
would perpetually be a burden.
    And I added and repeat today, that if we are American 
citizens, then we must be given the tools that our fellow 
American citizens in Continental United States have to solve 
their problems; and these tools are equal rights under 
statehood. Only by having two Senators and six Congressmen who 
can be on the alert all the time and who have the power to 
protect our interests, can the American citizens of Puerto Rico 
give their economy the necessary impetus to solve their 
problems.
    Finally, the Status Commission Report came out with the 
following conclusion amongst others: ``Economic studies 
indicate, that sustained economic growth, under the present 
status and continuation of the special arrangements will make 
statehood with adequate but not extraordinary or unprecedented 
provisions for transition, fully possible, without severe 
risks.''
    ``With respect to the nature of the compact agreed upon 
under Law 600, the Supreme Court of the Untied States is the 
final interpreter, and has not expressed itself, as yet, on 
these matters.'' This was in 1966. Since then, it has expressed 
itself in several instances, in particular, in the case of 
Harris vs. Rosario, in which it ruled that Congress had the 
authority to discriminate against the United States citizens of 
Pueblo Rico, since Puerto Rico was held under the Territorial 
Clause of the Constitution.
    Let me add some political considerations for the admission 
of Puerto Rico as a state, that I expressed before the Sub-
Committee on Interior and Insular Affairs of the House of 
Representatives of the United States Congress on December 7, 
1959, and which I think are still pertinent today.
    ``The admission of Puerto Rico as a state would greatly 
enhance the position of the United States in world affairs. It 
would be the logical conclusion of a process which started in 
1898, when Puerto Rico came under the American flag. Puerto 
Rico before the year 1900 had the old European authoritarian 
social structure. This structure has gradually evolved into a 
democratic society under the American influence, which began by 
teaching our youth the American principles of individual 
liberty, equality of opportunity and respect for human dignity, 
through the school system and the political institutions, which 
were established after the year 1900.''
    ``This has been, to my mind, the most significant change 
that Puerto Rico has undergone under the American flag. The 
successful achievement of our economic wellbeing is, therefore, 
a challenge to the American citizens of Puerto Rico and to our 
fellow citizens of the Mainland; a challenge to show the world 
that the American way is the way to both economic success, 
social improvement and political freedom, which can usefully 
serve as a pattern to solve the vaster problems of other 
underprivileged countries of the world. A challenge of great 
political and human potentialities, which may be of great world 
significance.''
    ``With respect to the relations of the United States and 
Latin America, statehood for Puerto Rico would have still 
greater significance. It would serve to improve and solidify 
the position of America as a friend and partner, for it would 
be the best proof that our Good-neighbor policy is not a mere 
diplomatic posture, but that it is an honest and sincere 
expression of respect of North America for Latin America. It 
would make Latin America feel, that through Puerto Rico and 
through its representation in Congress, their problems and 
aspirations would be better understood, because of our common 
cultural origin and tradition.''
    ``As Americans identified with the political and social 
philosophy of America and its institutions of law, we would be 
able to better interpret our foreign policy to them and help 
the United States to succeed in bringing better understanding 
and cooperation in the common problems of our hemisphere.''
    And at the present moment, the need to maintain and further 
develop the commercial interchange with Latin American, which 
is our natural market, when we are loosing the European market 
to United Europe and the Pacific markets to Japan and China, is 
essential to our success and prosperity.
    The growth of the statehood forces have been overwhelming 
since 1968. In 1964, the Pro-commonwealth Party had 487,280 
votes or 59.4% of the vote and the Pro-statehood Party had 
284,627 or 34.6%. In the last election of 1996, there was a 
complete reversal. The Statehood Party obtained 963,536 votes, 
or 51.3%, and the Pro-commonwealth Party 855,960 votes, or 
45.5%, which shows a clear growing trend for statehood.
    We feel, therefore, that Puerto Rico is ripe to become a 
state after almost a hundred years of successful democratic 
apprenticeship and to assume its full political rights and 
responsibilities. During all this Century, more than 200,000 
Puerto Ricans have served with distinction in all the wars that 
United States has been involved with more than 6,000 casualties 
and in several cases with higher casualties than some states. 
More than 2,000 Puerto Ricans soldiers served in the Gulf War, 
amongst whom was a grandson of mine in the 1st Armored 
Division. Four, such as Fernando Luis Garcia, who gave their 
lives, heroically, in the line of duty, have been condecorated 
with the Congressional Medal of Honor.
    Other distinguished leaders who have, also, served the 
Nation are: Admiral Horacio Rivero, in 1968, Commander in Chief 
of NATO Forces in Southern Europe and later Ambassador to 
Spain; Vice Admiral Diego Hernandez, who was in command of the 
Mediterranean Fleet; Major General Pedro del Valle, commanded 
the U. S. Marine Corps, First Division in the Pacific; General 
William A. Navas, Jr., who is deputy in Command of the National 
Guard. Dr. Antonia Novello, served as U. S. Surgeon General. 
and Dr. Enrique Mendez, Jr., as Deputy Surgeon General of the 
U. S. Army.
    The real test for Puerto Rican statehood should be how much 
we share common values with fellow citizens of the 50 states, 
and how much Puerto Ricans believe in, honor, and defend the 
Constitution of the United States. A look at the myriad ways 
Puerto Ricans have served the United States over the last 99 
years is enough to pass the test.
    President Clinton has just appointed Mrs. Aida Alvarez to 
his Cabinet, as head of Small Business Administration.
    Puerto Rico is participating, successfully and with 
distinction, in Mainstream American to enrich its economy and 
its culture. There are about 2,000,000 Puerto Ricans living 
throughout the Nation, doing constructive and creative work as 
factory workers and professionals, in all fields of activity: 
Thousands of physicians and engineers, thousands of teachers 
and professors, in schools and universities.
    In the arts and humanities, our rhythms and melodies have 
contributed to enrich American music: Justino Diaz and Pablo 
Elvira have been great voices at the Metropolitan Opera; our 
great actors, like Jose Ferrer and Raul Julia, have been 
American favorites.
    We are contributing to enrich our cultural patrimony 
through Museum collections. Today you can see on loan at the 
National Gallery of Art in Washington, the painting, Flaming 
June, by Lord Leighton, which is the key painting and 
masterpiece of the Victorian Exhibition.
    In the area of civil government, amongst many others, Judge 
Juan Torruella, chief Justice of the U. S. First Circuit of 
Appeals; Judge Jose Cabranes is member of the United States 2nd 
Circuit of Appeals.
    In the area of sports, we have contributed with many 
baseball players, amongst whom, Roberto Clemente has been 
included in the Hall of Fame; Charles Pasarell, in 1969, was #1 
tennis player in the United States, and now, Gigi Fernandez a 
tennis champion; as well as, Chi Chi Rodriguez, a golf 
professional.
    And last, but not least, to show how much Puerto Rico is 
embedded in American life, it was the Puerto Rican judge of the 
Southern District of New York, Sonia Sotomayor, who as a 
fearless jurist, a couple of years ago, decided to issue an 
injunction that could break the deadlock in the baseball 
strike, and by doing so, sent the baseball players back to give 
Americans, after more than a year, the enjoyment of one of 
their favorite sports. Nobody could be part of America, more 
than this competent jurist of 40 years of age. She was the true 
image of the freedom and respect of law America stands for.
    Mr. Chairman, I think that time has come to Congress to 
live up to the commitment of equality, under which we were 
brought into its fold. It is time to do justice to more than 
3.6 million disenfranchised American citizens of Puerto Rico. 
We congratulate you for taking the proper step, with H.R. 856, 
to comply with your moral duly, as it becomes the United Slates 
Congress and our fellow citizens of the United States.

                                ------                                


  Statement of Jeffrey L. Farrow, Co-Chair of the President's Working 
                          Group on Puerto Rico

    Mr. Chairman and distinguished Members:
    Thank you for inviting the Clinton Administration to 
testify on--
    (1) the general idea of authorizing the people of Puerto 
Rico to express their preference regarding their islands' 
relationship to the United States before the end of 1998 and
    (2) the bill that the Chairman and other Members have 
sponsored to provide a process leading to full self-government 
for the Commonwealth, H.R. 856.
    Let me begin by expressing appreciation for the interest 
and initiative of Chairman Young and the other primary sponsors 
of H.R. 856 in Puerto Rico's political status dilemma: It is a 
matter of transcendent importance, concerning the political 
rights of millions of U. S. citizens and a major factor in 
determining the approach to many of the serious economic and 
social challenges faced in the islands.
    It is also, however, extremely complex and sensitive, 
involving much of the range of Federal policy, central 
questions of identity, a century of history, the interests of 
political parties that are based on conflicting visions of what 
the best status would be, and differences so intense that they 
hinder action on the issue itself and other issues as well.
    President Clinton is dedicated to supporting the people of 
Puerto Rico's decision of what status their islands should 
have. He has pledged to back statehood or independence if 
Puerto Ricans vote for either one and to do his best to make 
the Commonwealth arrangement work better for them if they want 
to continue it.
    He has also, though, recognized that the frustrating debate 
is likely to persist until the Federal Government clarifies 
what the options really are and how they can be implemented: 
The differing status aspirations that Puerto Ricans have long 
discussed largely hinge on fundamental Federal decisions that 
have not been made.
    The President has, therefore, favored Puerto Ricans making 
a choice in concert with congressional action in a process that 
is developed together with their representatives.
    Establishing a process that would enable this matter to 
finally be resolved is his highest priority regarding the 
islands. And he is fully committed to working with you and 
others in the Congress, with Puerto Rico's elected leaders, and 
with all concerned to establish it as soon as possible.
    The President's position is that the Federal Government 
should--
    (1) provide the people of Puerto Rico with options that are 
serious and fair responses to their diverse, expressed 
aspirations and
    (2) commit to act on implementing an option that is 
authorized by a majority vote in the islands.
    He very much hopes that such a process will be underway 
next year .. . the centennial of the U. S. acquisition of the 
islands. He looks forward to our entering the new millennium 
having concluded the debate and implementing the will of the 
Puerto Rican people.
    To facilitate enactment of the law that is needed, the 
Administration offers the following comments on H.R. 856 and 
urges the Committee to consider them.

    Options

    The bill would provide Commonwealth, nationhood, and 
statehood options.
    Democratic principles require that the expressed 
aspirations of Puerto Ricans be central to the development of 
the options (which must also be viable from the Federal 
perspective). The President regards this as an integral part of 
a sound process.
    We, therefore, view Chairman Young's agreement with Senior 
Democrat Miller to give Puerto Rico's major political parties 
until March 31st to submit alternatives to the options in the 
bill and to seriously consider their proposals as a very 
constructive step and we appreciate the role that Governor 
Rossello and Resident Commissioner Romero-Barcelo also played 
in it being taken. The parties are each recognized as the 
leading advocates for one of the three status formulas that 
substantial numbers of Puerto Ricans have supported: 
Commonwealth, statehood, and independence.
    The Administration encouraged such an outreach and strongly 
supports the procedure that was agreed upon. Consequently, we 
would like to work with the Committee in fashioning the 
options--considering the proposals of the parties and others as 
well as U. S. necessities--after the parties have had this 
opportunity to advance their ideas to you.

    Referenda

    The bill would ostensibly require--
    (1) a referendum before 1999 and
    (2) further referenda at least every four years thereafter 
in the event of: no option obtaining a majority; a majority for 
the Commonwealth option, or Puerto Rican rejection of Federal 
status implementation legislation.
    Rather than suggest a mandate, it would be more appropriate 
to simply provide a process for and facilitate a status choice. 
This is the approach that was used in past legislation on the 
islands' political development. (Public Laws 81-600 and 82-447, 
which helped establish the governing arrangement for Puerto 
Rico, including the Commonwealth Constitution and the Puerto 
Rican Federal Relations Act; Public Law 88-271, which 
established a joint Federal-Commonwealth status commission; and 
the status process bill that the House passed in 1990.)
    We also suggest giving the Government of Puerto Rico 
flexibility on calling additional votes. Further votes might 
not be desired by Puerto Ricans so often and in such a case the 
call for revoting at least every four years would be a 
disruptive burden. Additionally, if Puerto Ricans were to 
reject Federal statehood or nationhood implementation 
legislation, it probably would not make sense for them to vote 
again absent further Federal action.

    Transition and Implementation

    The bill would call for a plan for a transition of at least 
10 years in the event of a majority for either nationhood or 
statehood.
    Since the measures that would need to be taken have not 
been specified and would change from time to time, we recommend 
that the length of a transition be set in the transition plan 
prepared in consultation with Puerto Rico's leaders. Congress 
would still have its say over the duration since the plan would 
require congressional (as well as Puerto Rican) approval.
    A more fundamental problem is that H.R. 856 would require 
that a law be enacted at the end of a ``transition'' to 
nationhood or statehood--in addition to beforehand--in order to 
actually implement a status change.
    The Administration favors prompt, final action on 
implementing a status change if chosen by Puerto Ricans. The 
purpose of a transition should be to permit significantly 
different policies to be implemented on an orderly basis. A 
further decision and, possibly, further requirements at the end 
of a ``transition'' could make the period only a partial 
transition or, even, overturn the status choice. Rejection or 
new conditions after substantial fiscal and program changes had 
been made could be very problematic. The Federal Government and 
Puerto Ricans should have greater assurance of actually 
implementing a status before heading down the path toward it.

    English Language Provisions

    The bill includes several provisions regarding the use of 
the English language that should be mentioned.
    One would establish a policy of English being the ``common 
language of mutual understanding'' in the United States.
    Such a policy is unnecessary and could create divisiveness. 
We are also concerned that it could be used to question 
statehood as an option for Puerto Rico. The language that most 
of the islands' U. S. citizens have always used should not be a 
barrier to full participation in the Federal system if they 
want it.
    Another provision would call for measures to enhance 
English education in public schools in a transition to 
statehood.
    We understand it to intend measures that would supplement 
educational practice in the islands, consistent with local 
control of schools.
    Finally, there are provisions that suggest an intent to 
make English the official language of the Federal Government 
and a need to use English--including that Puerto Ricans should 
use it ``to enjoy the full rights and benefits of their 
citizenship.''
    As you may be aware, the President indicated his intent to 
veto a bill last year, H.R. 123, that would have required the 
Federal Government to conduct most of its official business in 
English only. Legislative statements on a need to use English 
could be used by others to promote goals which are 
disharmonizing and diversionary. They could also unduly 
influence the Puerto Rico status decision. And, of course, 
Puerto Ricans should be able to continue to enjoy their 
citizenship rights and benefits whether they continue to use 
Spanish or not.

    Problematic Statements

    The bill would also make some other statements or 
suggestions which would not be part of the procedure for 
resolving the status issue that are problematic. These 
provisions relate to the current situation and have contributed 
to controversy about the bill in Puerto Rico.
    History has given us the conflicting facts and ambiguities 
that have fueled the islands' divisive and distracting status 
debate for decades. Rather than litigate them now when there is 
a general consensus on what needs to be done to resolve the 
dilemma, we think it would be more advisable to simply 
concentrate on resolving it: establishing a process that 
includes--
    (1) providing the people of Puerto Rico with options that 
can end the debate and
    (2) providing for Federal action on implementing their 
choice.
    Mr. Chairman, it is time for the Federal Government to meet 
its responsibilities regarding the Puerto Rico status question 
and provide such a process; Puerto Ricans have been asking for 
the United States to act for years. H.R. 856 provides a basis 
from which to act in the House. Working together and with 
others, we can ensure that our great country lives up to its 
ideals in the case of our 3.7 million fellow citizens in the 
islands. It is of vital importance to their future that we do.
    The Administration's priority is to get a law enacted that 
will make it possible to finally and fairly resolve the 
situation. We will be flexible within the principles that the 
President has espoused so that agreement can be reached. All of 
us who are committed to settling the issue should not let this 
opportunity pass.

                                ------                                


Statement of Governor Carl T.C. Gutierrez, Chairman, Guam Commission on 
                           Self-Determination

    The Guam Commission on Self-Determination strongly supports 
H.R. 856 and urges its swift passage. Guam and Puerto Rico have 
a strong historical bond: both territories were acquired by the 
United States as a result of the Treaty of Paris ending the 
Spanish-American War in 1898. Now, almost 100 years later, both 
territories eagerly await a new relationship with the United 
States appropriate for the twenty-first century.
    However, while each territory desires and deserves a new 
relationship with the United States, those relationships will 
by definition be different. H.R. 856 embodies the choices 
available to Puerto Rico regarding its future status, and the 
people of Guam are fully supportive of the people of Puerto 
Rico having a relationship with the United States that reflects 
the will of their people.
    Unlike Puerto Rico, statehood is not an option for Guam in 
the foreseeable future. Because statehood is not an option for 
Guam, any comparisons between Guam's status efforts and Puerto 
Rico's efforts are not helpful. Those who would link the two 
efforts do a disservice to both territories. The only 
similarity is that we have both waited a very long time to 
resolve our status issues, and we are both mutually supportive 
of the efforts of our peoples to achieve political dignity. We 
have our own answer to the question of a new relationship 
between our people and the United States, an answer that is 
appropriate for Guam and is consistent with the choices that we 
have at this time. We endorse a process that calls for 
consideration of Guam's status as a separate question for this 
Committee and for the Congress--we would prefer that attention 
then be given to what is unique about Guam and Guam's quest.
    We sincerely commend Chairman Young, Ranking Member Miller 
and the bipartisan cosponsors of H.R. 856 for your commitment 
to a process of self-determination for the people of Puerto 
Rico. We also want to thank the Chairman for his commitment to 
hold hearings on Guam's status after the Committee has 
concluded its consideration of Puerto Rico.
    From the Pacific to the Caribbean, we join together as two 
peoples linked by a common history and a common journey, the 
quest for our inalienable rights to self-determination. The 
Congress's commitment to this process marks a defining moment 
in this 98 year journey. We look forward to working with the 
Committee on Resources to realize this historic opportunity and 
we fully support the Chairman's efforts in redefining Puerto 
Rico's relationship with the United States. Across two seas, 
from the east and from the west, a question echoes in Chamorro, 
Spanish and English, ``Is there a place for us in this 
community?''

                                ------                                


        Statement of Fred M. Zeder II, Rancho Mirage, California

    Mr. Chairman:
    In 1982 I was appointed by President Ronald Reagan with 
Senate confirmation to serve as Ambassador in the post of 
President's Personal Representative for Micronesian Status 
Negotiations. In that capacity I concluded status treaties 
which had been under discussion for over a decade, and by the 
end of 1983 on behalf of the United States I signed the Compact 
of Free Association with the Republic of the Marshall Islands, 
the Republic of Palau, and the Federated States of Micronesia.
    From 1983 to 1986 I also represented the Reagan 
Administration in Congressional hearings which led to approval 
of the Compact of Free Association Act (P.L. 99-239), effective 
January 14, 1986. On November 3, 1986, President Reagan issued 
Proclamation 5564, ending the U.N. trusteeship in the Pacific 
islands based on implementation of the Compact. At that time I 
returned to the private sector, after initiating measures to 
decommission the National Security Council interagency office 
which successfully had supported fulfillment of my negotiating 
mission and Presidential instructions.
    I hardly need remind you of those events. As the Ranking 
Minority member on the Interior and Insular Affairs Committee 
during that period, you asked many of the tough questions that 
the Administration and the island governments needed to answer 
in order to persuade Congress to approve the Compact. Because 
you addressed these issues based on principle without allowing 
partisanship unduly to influence your position, in my view 
there is no one better prepared to provide stewardship in 
Congress regarding the matter of self-determination for Puerto 
Rico.
    In this regard, I have had the opportunity to review 
materials concerning the definition of free association which 
were submitted to the Committee during hearings in 1996 on H.R. 
3024. In order to correct clever but misleading interpretations 
presented to the Committee regarding the legislative history of 
the Compact for associated republics in the Pacific, the 
following subjects are addressed below:
    Status of Puerto Rico Compared to Trust Territory
    Citizenship in Trust Territory Compared to Citizenship of 
Persons Born in Puerto Rico
    Comparison of Decolonization Processes for Trust Territory 
and Puerto Rico
    Basis for U.S. Sovereignty in the Commonwealth Territories
    Nationality and Citizenship in Associated Republics
    Separate Nationality and Citizenship as Required Elements 
of Separate Sovereignty
    Summary of Governing Principles of Citizenship for 
Associated Republic Status (Free Association)
    While there are important similarities and analogies to be 
drawn between the decolonization process for Puerto Rico and 
that resulting from the Micronesian status negotiations, there 
also are fundamental structural differences between Puerto 
Rico's current status and that of the trusteeship for the 
Pacific islands. The distinctions which must be drawn in this 
respect have profound legal and political significance in 
defining options for Puerto Rico. The following discussion is 
based on the existing Congressionally approved precedents, 
which establish how applicable international law and practice 
regarding free association can be implemented consistent with 
the U.S. constitutional process.

    Status of Puerto Rico Compared to Trust Territory

    In the case of the Federated States of Micronesia, the 
Republic of the Marshall Islands and the Republic of Palau, the 
status of their peoples while still within the former trust 
territory had been determined and controlled by the U.S. 
Congress under a Trusteeship Agreement with the United Nations. 
In one sense, the Trusteeship Agreement was merely an 
internationally approved form of plenary U.S. governmental 
authority over the trust territory as provided by the U.N. 
Charter. This Congressional authority was implemented not on 
the basis of U.S. sovereignty, but rather under the trusteeship 
agreement as a treaty between the U.S. and the U.N. to which 
the U.S. became a party through the foreign affairs powers in 
article II, section 2 of the U.S. Constitution, as well as 
relevant provisions of article I, section 8.
    As such, the power of the federal government over the trust 
territory was equivalent to--and in some respects arguably even 
greater than--the power of Congress under article IV, section 
3, clause 2 of the Constitution to govern the unincorporated 
territories over which the U.S. acquired actual sovereignty 
under the Treaty of Paris. For under Article 3 of the 
Trusteeship Agreement the U.N. had agreed that the U.S. would 
``have full power of administration, legislation and 
jurisdiction over the territory...and may apply to the trust 
territory, subject to any modifications which the administering 
authority may consider desirable, such of the laws of the 
United States as it may deem appropriate...''
    Under this virtually unrestricted power, analogous to the 
broad powers of Congress over the U.S. territories under the 
Territorial Clause, the U.S. made many Federal laws applicable 
to the trust territory, and also created a trust territory 
government under a separate body of trust territory law which 
legalized less-than-equal citizenship status for trust 
territory citizens--even in comparison to those with full U.S. 
citizenship living and working in the trust territory itself. 
Puerto Ricans are familiar with the fact that the legal and 
political rights of all U.S. citizens residing in Puerto Rico 
are less than when those citizens reside in one of the states, 
but in the trust territory the U.S. citizens residing there had 
preferences, legal rights, privileges and benefits that the 
trust territory citizens did not enjoy.
    This was possible because U.N. trusteeship status existed 
under international law, rather than U.S. sovereignty. 
Consequently, those born in the trust territory never had U.S. 
citizenship, and the U.S. Constitution did not apply directly 
or of its own force. Even the ``fundamental rights'' doctrine 
of the Insular Cases did not apply directly to the trust 
territory because it was not ``Territory or other Property 
belonging to the United States'' for purposes of article IV, 
section 3, clause 2 as construed by the Supreme Court in that 
line of cases. Although there had been some confusion about 
this during the trusteeship period, the non-applicability of 
the Territorial Clause to the trust territory was confirmed by 
Congress in approving the negotiated free association treaty, 
and by the federal courts in cases which include Juda v. United 
States, 6 Cl. Ct. 441 (Cl. Ct. 1984).

    Citizenship in Trust Territory Compared to Citizenship of 
Persons Born in Puerto Rico

    Under the U.N. Trusteeship Agreement people born in the 
trust territory were given the status of ``citizens of the 
Trust Territory of the Pacific Islands.'' This is another 
aspect of U.S. trusteeship treaty implementation in the Pacific 
islands that is analogous to the exercise of actual sovereignty 
by the U.S. in Puerto Rico pursuant to which the people of 
Puerto Rico were given the status of ``citizens of Puerto 
Rico'' under the Foraker Act between 1900 and 1917.
    Rather than being a form of indigenous nationality and 
citizenship arising from an exercise of the inherent 
sovereignty of the people, in the case of both Puerto Rico and 
the trust territory these territorial citizenship arrangements 
were conferred in an exercise of U.S. authority which was 
predicated on the non-self-governing status of the territorial 
populations concerned. The only difference is that in the case 
of Puerto Rico the source of the authority for classification 
of territorial citizens was the Territorial Clause, and in the 
case of the trust territory the source of that authority was 
the U.N. Trusteeship Agreement as a treaty.
    In both cases discriminatory citizenship classifications 
and measures based thereon adopted by Congress or the Executive 
Branch of the U.S. federal government--which would not 
withstand constitutional scrutiny if applied to U.S. citizens 
in one of the states of the union--were held by the federal 
courts to be permissible as long as the territorial status 
continued. This remains true in Puerto Rico even though the 
Foraker Act citizenship has been replaced with statutory U.S. 
citizenship under the Jones Act, now codified at 8 U.S.C. 1402. 
See, Harris v. Rosario, 446 U.S. 651 (1980).
    Although the inhabitants of the trust territory were never 
given the legal status of U.S. citizenship, in both the case of 
Puerto Rico and the trust territory it was clear that the 
decolonization process would not be completed until each 
territory got out from under the less-than-equal citizenship 
prescribed by the U.S. in the exercise of plenary powers over 
less-than-fully-self-governing peoples. For the currently 
federated Micronesian islands, the Marshalls and Palau that 
meant ending the application of the Trusteeship Agreement, 
which was accomplished in 1986 for the Marshallese and 
Micronesians, and in 1993 for Palau. In the case of Puerto Rico 
it means ending application of the Territorial Clause.

    Comparison of Decolonization Processes for Trust Territory 
and Puerto Rico

    Understanding decolonization of the trust territory under 
U.N. auspices is instructive with respect to decolonization for 
Puerto Rico and the nature of the commonwealth structure of 
self-government as long as Puerto Rico remains under the 
Territorial Clause. For example, it is interesting to note that 
even after the people of the trust territory had exercised 
self-determination to create local constitutional govern-

ments in the 1978-1981 period, the U.S. retained the ultimate 
authority granted under Article 3 of the U.N. Trusteeship 
Agreement. This, again, is analogous to the retention by the 
Congress of Territorial Clause authority after Puerto Rico 
established its constitution under P.L. 600 in 1952.
    In the case of Puerto Rico, failure to complete the 
decolonization process begun in 1952 precludes full extension 
of the U.S. Constitution or equal citizenship and full self-
government within the federal constitutional system. Thus, if 
full equality and the related benefits of U.S. federalism are 
desired by the people of Puerto Rico, the decolonization 
process needs to be completed in favor of full political 
integration to realize that desire.
    Similarly, if the people of Puerto Rico desire a completely 
separate identity and existence apart from the U.S.--not just 
social and cultural distinctness but separation in the legal 
and political sense of another constitutional nationality like 
Cuba or the Philippines--it is necessary to complete the 
decolonization process begun in 1952 in favor of independence 
or free association. For just as the U. S. had to end the 
trusteeship before the world would fully recognize the status 
of the associated republics under the Compact of Free 
Association, international recognition of Puerto Rico as an 
independent or free associated nation should not be expected 
until and unless Congress exercises its Territorial Clause 
power in conjunction with an exercise by the President of the 
foreign policy power by approving as a treaty an agreement 
ending U.S. sovereignty, nationality and citizenship in Puerto 
Rico.
    To illustrate the point, even after the Marshall Islands 
called itself a ``Republic'' under its own constitution in 
1978, the U.S. and the community of nations, including 
international organizations, did not recognize it as a nation 
or a legal government in the international sense because the 
status of the government was established under the Trusteeship 
Agreement, which remained in force and continued the virtually 
plenary authority of Congress. Only in 1986 when the U.S. acted 
to effectively end the application of the U.N. trusteeship to 
the Marshall Islands, so that the treaty relationship between 
the U.S. and the free associated nations under the Compact of 
Free Association replaced the U.N. Trusteeship Agreement as the 
legal basis for the status of these new nations, did the 
international community generally begin to recognize that the 
decolonization process was complete for these territories, 
including the Republic of the Marshall Islands.
    This demonstrates the need under both international law and 
the U.S. constitutional process to complete decolonization 
based on a valid self-determination process and accepted 
definitions in order successfully to implement a permanent 
status--be it integration or separate sovereignty--that will be 
recognized by the world as a form of full self-government and 
not merely a more politically correct form of colonialism. 
Thus, there is a need for Puerto Rico to become fully 
integrated or a separate sovereign in order to end application 
of the Territorial Clause and become fully self-governing under 
a recognized definition of that term.

    Basis for U.S. Sovereignty in the Commonwealth Territories

    Perhaps also of interest in relation to the situation in 
Puerto Rico, another part of the Pacific islands trust 
territory, the Northern Mariana Islands, did not adopt the free 
association separate sovereignty model of independence. 
Instead, the Northern Mariana Islands adopted the Puerto Rico 
model of an unincorporated territory with statutory U.S. 
citizenship and a structure of local constitutional self-
government under the ``commonwealth'' label.
    As a result, U.S. sovereignty was extended to the Northern 
Mariana Islands based on approval of the commonwealth status by 
the voters there in a 1976 plebiscite, rather than by a treaty 
of cession as in the case of Puerto Rico. This was the legal 
basis upon which application of the Trusteeship Agreement was 
terminated and the Territorial Clause became applicable to the 
NMI--which is now an unincorporated territory based on the 
consent to the people.
    Thus, establishment of the commonwealth structure of local 
constitutional self-government with the consent of the people 
in the CNMI also changed the political status of that island 
territory from being part of an international trusteeship to 
territorial status under U.S. sovereignty. The result is a 
status virtually the same as that which Pueno Rico has due to 
the extension of U.S. sovereignty under the Treaty of Paris 
combined with approval of the commonwealth structure of local 
constitutional self-government by the voters of Puerto Rico in 
1952.
    The historical ironies of this decolonization process are 
profound. For the Northern Mariana Islands are only 100 miles 
from Guam, which was ceded to the U.S. under the Treaty of 
Paris along with the Philippines, Puerto Rico and Cuba. 
However, instead of coming under U.S. sovereignty along with 
neighboring Guam, essentially by historical accident the 
Northern Marianas became a League of Nations mandate 
administered by the Japanese.
    The Japanese mandated area was in the larger geographic 
region known as ``Micronesia,'' and included both the Eastern 
Carolines and the Western Carolines--islands chains now 
comprised within the associated republics of the Marshall 
Islands, Palau and the Federated States of Micronesia. Because 
of its cession to the U.S. under the Treaty of Paris, Guam was 
not included in the Japanese mandate.
    The Japanese abused the League of Nations mandate by using 
the islands to perpetrate illegal international aggression, 
among other things staging elements of the attack on Pearl 
Harbor from the Marshall Islands. Upon being invaded and 
occupied by Japan during WWII, Guam temporarily was governed 
for the first time under the same power that ruled the rest of 
the Micronesian islands within the mandated area. Much of the 
famous ``island-hopping'' campaign of WWII took place within 
the Japanese mandate area, and both Guam and the Northern 
Marianas were liberated from Japanese totalitarianism in some 
of the bloodiest fighting of WWII.
    However, the Northern Marianas were not ceded to the U.S. 
by Japan at the end of WWII, as nearby Guam and the other 
Treaty of Paris territories had been at the end of the Spanish 
American War. Instead, because they had been under the League 
of Nations mandate system, the Northern Marianas and the rest 
of the Micronesian islands were placed under the new U.N. 
trusteeship system and administered by the United States. Guam 
was restored to unincorporated territorial status under the 
Treaty of Paris.
    The technical legal title of the trusteeship treaty between 
the U.N. and the U.S. was ``Trusteeship Agreement for the 
Former Japanese Mandated Islands.'' Politically, this meant the 
islands were part of an internationally supervised 
decolonization process. However, as a practical and legal 
matter the trusteeship treaty with the U.N. conferred on the 
United States powers of administration in the Northem Mariana 
Islands and the rest of the trust territory at least comparable 
to--and, again, arguably greater than--those which it had 
regarding the Treaty of Paris territories over which the U.S. 
had sovereignty resulting from cession by Spain after losing a 
war with the United States.
    Thus, notwithstanding the advent of the international 
trusteeship system, the U.S. ended up governing the Northern 
Marianas and other islands it occupied after the allies 
defeated Japan in WWII, just as it ended up governing the 
Treaty of Paris territories after the defeat of Spain in 1898. 
However, both the Treaty of Paris territories still under U.S. 
sovereignty and the trust territory were designated ``non-self-
governing'' areas subject to decolonization consistent with 
Article 73 of the U.N. Charter.
    In the case of the Northern Marianas, the U.S. addressed 
its obligations regarding decolonization by supporting the 
self-determination process leading to the new commonwealth 
structure of local constitutional self-government established 
for the CNMI in 1976. This new constitutional status was 
formally implemented along with the Compact of Free Association 
under Presidential Proclamation 5564 on November 3, 1986. This 
was sufficient to persuade the U.N. to accept the U.S. 
determination to cease reporting to the U.N. on the CNMI, just 
as the new constitutional status of the Commonwealth of Puerto 
Rico in 1952 was deemed sufficient by the U.N. in 1953 for the 
U.S. to stop reporting on Puerto Rico.
    While the Puerto Rican and CNMI commonwealth models adopted 
with approval of the peoples concerned represent sufficient 
self-government to end reporting to the U.N., the form of local 
self-government established in each case is still subject to 
the Territorial Clause power of Congress and does not 
constitute a form of full self-government based on equality. 
Therefore the ultimate fulfillment of the decolonization 
process has not been completed.
    Thus, the CNMI self-determination process under the U.N. 
trusteeship system has produced for the Northern Marianas the 
same unincorporated territory status as neighboring Guam, the 
very result which might have obtained had it been ceded to the 
U.S. along with Guam in 1898. Despite the fact Guam has been 
part of a different political order than the CNMI throughout 
most of this century, the common Chamorro culture and language 
continue to thrive today in both territories.
    Some people believe Guam and the CNMI should be reunited to 
their pre-colonial condition of inter-relationship, and that 
whether the ultimate status of the islands is full integration 
with the U.S. or separate sovereignty it should be as one 
people. That is a matter to be resolved through the self-
determination process regarding the ultimate status of Guam and 
the CNMI. Interestingly, Guam is still under an orgamc act 
without a local constitution, but as a result of the combined 
self-determination process for political status and 
establishment of a local constitution in 1976 the CNMI has a 
degree of local self-government comparable to that of Puerto 
Rico.

    Nationality and Citizenship in the Associated Republics

    Turning now to the question of citizenship implications of 
free associated nation status, under Section 141 of the Compact 
of Free Association citizens of the Freely Associated States 
are non-immigrant aliens under U.S. immigration and nationality 
law, but there is a waiver of visa requirements so that they 
may enter, reside and be employed in the U.S. during the period 
of free association. This visa waiver arrangement is not a 
constitutional right, but a privilege under a treaty which is 
unilaterally terminable by the U.S. or the free associated 
nations.
    Any period of residence in the U.S. under this visa waiver 
does not count toward naturalization in the United States, and 
eligibility for naturalization must be established on a basis 
other than birth or citizenship in the trust territory or one 
of the associated republics to emerge therefrom. Similarly, in 
the case of a U.S. territory such as Puerto Rico which chooses 
separate sovereignty, it is clear for reasons discussed below 
that neither birth in the former U.S. territory, statutory U.S. 
citizenship based thereon due to birth in a U.S. territory, nor 
relationship to a person with such statutory citizenship will 
provide a basis for naturalization in the U.S. following 
establishment of separate sovereignty.
    Against this background, the Committee must carefully 
scrutinize the characterizations--in materials submitted during 
hearings on H.R 3024 in San Juan on March 23, 1996--regarding 
the testimony on the Pacific islands free association pact by a 
former State Department officer, James D. Berg. Mr. Berg was 
assigned to my NSC staff during the hearings on the Compact, 
and I can speak with authority about the meaning of his 
testimony during questioning by former Congressman John 
Seiberling.
    In this regard, Congressman Seiberling's questions, as 
quoted at page 5-6 of the legal memorandum attached to the 
testimony of the PROELA witness presented to the Committee at 
its hearing on H.R 3024 on March 23, 1996, correctly noted that 
Section 172 of the Compact of Free Association does not address 
the issue of dual nationality or citizenship. See, Hearing 
Report, Subcommittee on Native American and Insular Affairs, 
Committee on Resources, H.R 3024, San Juan, Puerto Rico, March 
23, 1996, p. 136-137. However, since the official section-by-
section analysis relating to this provision of the treaty 
included a background explanation which addressed the issue of 
dual citizenship, Congressman Seiberling asked and Mr. Berg 
answered the question regarding dual citizenship as recorded in 
the hearing and included in the material submitted to the 
Committee.
    The statement regarding dual citizenship in the section-by-
section analysis quoted on page 3 of the PROELA testimony 
(Hearing Report p. 127), and Mr. Berg's reiteration of that 
statement in response to Mr. Seiberling's question, correctly 
states U.S. law regarding dual citizenship. Specifically, 
consistent with 8 U.S.C. 1481 and the U.S. Supreme Court ruling 
in Afroyim v. Rusk, a person who has U.S. nationality based on 
birth or naturalization in the United States does not 
automatically lose U.S. nationality by acquiring citizenship of 
another country.
    It is well-established under U.S. law and practice that a 
person with citizenship conferred under and protected by the 
U.S. Constitution based on birth or naturalization in a state 
must renounce that status voluntarily and with the intention to 
relinquish U.S. nationality in order for loss of nationality 
and citizenship to occur. However, the Afrovim case would not 
apply to termination of statutory U.S. nationality and 
citizenship under the Supreme Court's ruling in the case of 
Rogers v. Bellei.
    This is especially clear where the citizenship issues 
arises in the context of the law of state succession upon 
establishment of separate sovereignty based on an act of self-
determination by the people of Puerto Rico. In that 
circumstance, there would not be the same due process issues 
that would arise if Congress simply terminated the statutory 
citizenship of persons who already had acquired it based on 
birth in an unincorporated territory, especially if Congress 
provided for an election between retention of statutory 
citizenship rights or transfer of allegiance and citizenship to 
the new sovereign. Under the Supreme Court's decision in Bellei 
there would be none of the 14th Amendment issues that would 
arise in a case where the nationality and citizenship of a 
person born or naturalized in one of the States of the Union is 
involved.
    Because the Federated States of Micronesia, Republic of the 
Marshall Islands and Republic of Palau have separate 
sovereignty and are foreign countries under the Compact of Free 
Association, a U.S. citizen who acquires dual citizenship in 
those nations will be treated under U.S. law in the same manner 
as a U.S. citizen who acquires a second citizenship in any 
other foreign country. Thus, no special dual citizenship 
arrangements were made under the Compact of Free Association, 
and existing U.S. law governs this matter without modification 
related to the Compact of Free Association.
    It would be misleading to suggest that the exchange between 
Mr. Berg and Mr. Seiberling provides support for the view that 
the free association status established under the Compact of 
Free Association created any new or special right, or that the 
background explanation on this issue in the section-by-section 
analysis simply can be converted into a provision of law 
governing the nationality and citizenship status of the people 
of Pueno Rico should they exercise their right of self-
determination in favor of separate sovereignty.
    If the people of Puerto Rico vote to establish separate 
Puerto Rican sovereignty, the procedures for transition to 
separate nationality will be determined by Congress and subject 
to approval by the people of Puerto Rico. All parties will be 
required to take into account, among other things, the 
international law of state succession. Based on U.S. and 
international practice, Congress presumably will provide for 
U.S. sovereignty, nationality and citizenship to be terminated 
in favor of separate Puerto Rican sovereignty, nationality and 
citizenship.
    The PROELA proposal that virtually 100 percent of the 
population of Puerto Rico could keep the current U.S. 
nationality and statutory citizenship status granted under the 
Treaty of Paris and the Territorial Clause, and at the same 
time also acquire separate Puerto Rican nationality and 
citizenship under a new government-to-government treaty 
relationship establishing separate sovereignty, is legally 
inconsistent and politically incompatible with separate 
sovereignty for Puerto Rico. The idea that under separate 
sovereignty the people of Puerto Rico would acquire a 
citizenship right superior to the current limited statutory 
citizenship--that is to say a guaranteed and enforceable right 
comparable to the 14th Amendment citizenship protected by the 
U.S. Constitution under the Afroyim case--is even more 
implausible.
    This would amount to an upgrade from the current statutory 
citizenship status of person born in Puerto Rico under 8 U.S.C. 
1402, based on a vote by the people of Puerto Rico to terminate 
U.S. sovereignty in Puerto Rico in favor of separate 
sovereignty. As discussed below, there are political, legal and 
constitutional reasons why that simply is not going to happen 
under any circumstances.

    Separate Nationality and Citizenship as Required Elements 
of Separate Sovereignty

    While it is possible that some temporary exceptions and 
special rights for people with current statutory territorial 
citizenship may be part of the transition process for Puerto 
Rico if the people choose separate sovereignty, the general 
result will be that the people of Puerto Rico will become 
nationals and citizens of Puerto Rico and U.S. nationality and 
citizenship conferred during the territorial period will end. 
In the case of the Compact of Free Association for the 
Federated States of Micronesia and the Republic of the Marshall 
Islands, Congress granted special temporary immigration status 
for the citizens of the free associated nations when the 
separate sovereignty status was implemented. However, this 
arrangement is terminable by the U.S., and under this 
terminable arrangement the citizens of these associated 
republics are alien non-immigrants under U.S. law.
    Based on existing U.S. policy and practice regarding free 
association, as well as Congressionally determined principles 
which constitute precedent in these matters, establishment of 
full and effective separate nationality is a necessary element 
of separate sovereignty and nationhood itself. Once separate 
Puerto Rican nationality and citizenship is established, the 
eligibility of Puerto Rican citizens for U.S. nationality and 
citizenship status will be determined and controlled by U.S. 
law.
    Similarly, U.S. citizens born in a state of the union with 
14th Amendment protection who are eligible under Puerto Rican 
law to acquire Puerto Rican citizenship will not lose their 
status as U.S. nationals by acquiring Puerto Rican nationality, 
unless they also renounce U.S. nationality with that intention. 
But persons born in Puerto Rico with statutory U.S. citizenship 
under 8 U.S.C. 1402 will lose their statutory U.S. citizenship 
if they do not elect to keep it, or if they acquire or have 
Puerto Rican nationality and citizenship once separate 
sovereignty is established. This is because the U.S. has a 
legitimate interest in limiting statutory U.S. citizenship 
conferred during the territorial era once separate sovereignty 
is established.
    This must be reflected in any decolonization measure 
approved by Congress, especially because given the size of the 
Puerto Rican population in the U.S. and in Pueno Rico--creation 
of automatic mass dual citizenship at the time of establishing 
separate nationality would undermine both U.S. and Puerto Rican 
sovereignty.

    Summary of Governing Principles of Citizenship for 
Associated Republic Status (Free Association)
    There are many other important points that I could make 
about the decolonization process for U.S. administered trust 
territory in the Pacific, and this really has been the bare 
minimum necessary to set the record straight on a very complex 
historical and political process. Again, in my judgment this 
was necessary given the liberties that have been taken with the 
truth by some of the proponents of free association for Puerto 
Rico.
    Free association may be a solution for Puerto Rico's 
status, but the people there will never be given a chance to 
make that decision for themselves unless it first is defined 
accurately and honestly.
    Ironically, the hardest thing about decolonization seems to 
be that there are always people who do not trust the people to 
determine their own destiny. So there often is an attempt to 
stack the deck by defining the choices based on political and 
economics gimmicks that favor one political group over another, 
instead of using straightforward definitions based on the basic 
structure of the actual status options.
    This actually results in delay of self-determination and 
decolonization, because those who think the people are not wise 
enough to choose between accurate and realistic options try to 
manipulate the ballot language. In the case of Palau, for 
example, the attempt to promote the anti-nuclear agenda that 
was part of the ``politics of the moment'' back in 1982 delayed 
Palau's Compact of Free Association for years. This forced the 
U.S. to terminate the trusteeship for the Marshall Islands, the 
Federated States of Micronesia and the Commonwealth of the 
Nonhern Mariana Islands and leave Palau behind as a U.N. trust 
territory.
    That was a difficult and unwelcome political and diplomatic 
task for the U.S. during the last years of the Cold War era--
but it was a challenge the U.S. faced up to and overcame out of 
our commitment to self-determination and decolonization for the 
people of those two new sovereign nations who had decided to 
take a stand as allies of America. In the case of the Marshall 
Islands, the decision to implement the Compact and thereby 
ensure U.S. access to Kwajalein was an important element of the 
strategic defense initiative which contributed to the end of 
the Cold War.
    As for Palau, its Compact of Free Association eventually 
entered into force, but by then the Cold War was over. 
Ironically, while pursuing a short-sighted anti-nuclear agenda 
largely at the urging of non-Palauans with an anti-U.S. agenda, 
Palau missed its chance to participate more fully in the 
success of President Reagan's strategy to end of the 
uncontrolled superpower nuclear arm's race.
    To help Congress avoid the same kind of mischief in the 
final stage of the decolonization process for Puerto Rico, 
perhaps it would be useful for me to try to state the clear 
citizenship implications of free association for Puerto Rico in 
the most succinct and plain language possible:
    For Puerto Rico to be a nation in the legal and political 
sense, it must separate from the U.S. legally and politically. 
Separation of sovereignty, nationality and citizenship is 
necessary if the relationship between the U.S. and Puerto Rico 
is to be governed by a bilateral pact under which Puerto Rico 
has the status of independence or free association. The very 
term ``bilateral pact'' in this context means two separate 
nations exercising separate sovereignty to create a pact of 
association.
    The current ``commonwealth'' status of Puerto Rico, though 
it is translated into Spanish as something akin to ``Free 
Associated State,'' is not free association as recognized by 
the U.S. or the international community. Free association based 
on a bilateral pact requires separate sovereignty, nationality 
and citizenship.
    The Congress of the United States has the constitutional 
power to terminate the current statutory citizenship of persons 
born in Puerto Rico if separation of sovereignty occurs. That 
which Congress creates by statute it can end by statute, as 
long as due process and equal protection rights of those 
affected are respected.
    The irrevocable citizenship which U.S. citizens born or 
naturalized in the states have under the 14th Amendment does 
not extend to persons who have statutory U.S. citizenship based 
on birth in Puerto Rico as an unincorporated territory. The 
statutory U.S. citizenship which Congress conferred on people 
born in Puerto Rico in 1917 is not full, equal, guaranteed, or 
irrevocable constitutional citizenship.
    That means that except as Congress in its discretion may 
provide the ``dual citizenship'' rules that apply to a person 
with full U.S. citizenship who acquires another nationality do 
not apply to person with statutory citizenship based on birth 
in Puerto Rico. If the people of Puerto Rico exercise self-
determination in favor of separate sovereignty and nationality 
they must expect their U.S. citizenship will come to an end.
    So in the most simple terms, there is a choice to be made 
between U.S. nationality and Puerto Rican nationality. Upon 
recognition of a separate sovereign nation of Puerto Rico, in 
order to give effect to that new status the Congress will 
require an election between retention of statutory U.S. 
citizenship and the new Puerto Rican nationality and 
citizenship. Mass dual citizenship would frustrate the 
succession of state process and undermine the national 
sovereignty of both nations.
    In order for a bilateral pact to establish a free 
association status and relationship to the U.S. based on 
international law, the pact would have to replace common 
nationality and citizenship with separate nationality and 
citizenship, in which the citi-

zens of each nation will be aliens when present in the 
sovereign territory of the other.
    While special residence, travel and employment exceptions 
can be made to the immigration laws, citizens of Puerto Rico 
will have the status of non-immigrant aliens for purposes of 
U.S. law under a free association treaty. Even such limited 
special rights or privileges, like the overall relationship of 
free association, will be terminable at will by either of the 
governments concerned acting unilaterally in the exercise of 
its sovereignty.
    Birth in Puerto Rico or relationship to a person with U.S. 
citizenship due to birth in Puerto Rico will not provide a 
basis for acquisition or continuation of U.S. citizenship by 
naturalization.
    These are not arbitrary requirements. For without adherence 
to these principles free association consistent with the U.S. 
political system would become merely another form of 
colonialism in which persons with common citizenship but 
residing in different jurisdictions have less than equal 
rights.
    In addition, based on the precedents established by the 
U.S. in its relations with the associated republics of the 
Pacific, it is clear the U.S. Congress will never approve an 
arrangement in which virtually 100% of the population of a 
foreign nation has U.S. citizenship.
    This would usurp and undermine U.S. sovereignty, as well as 
make a mockery of Puerto Rican nationality and a fraud of 
Puerto Rican sovereignty. As clever as some may try to be in 
arguing that such mass dual citizenship is possible, the 
Congress quite properly will be even more determined and 
resourceful in protecting U.S. sovereignty by preventing mass 
dual citizenship.
    If Puerto Rico is to make free association the vehicle of 
full self-government, it must face reality and not simply try 
to transform the ambiguity of the last fogy years into a new 
false doctrine or poetical status myth. Those who truly believe 
in separate Puerto Rican sovereignty will realize that dual 
citizenship is not compatible with the goal of separate 
nationhood for Puerto Rico.
    Like independence, free association means leaving the U.S. 
political union to become a member of the international 
community. Even if you have a special close relationship under 
a free association treaty it is temporary and can be terminated 
at any time.
    In order to support this summary I am attaching hereto a 
brief background paper describing free association in a more 
generic way as it relates to the self-determination process in 
Puerto Rico.
    This letter and the attachments are due, again, to my 
concern that in Puerto Rico and the record before Congress 
there is accurate information available about true legal nature 
and political effects of the decolonization process which the 
U.S. successfully implemented with respect to the former Trust 
Territory of the Pacific Islands.
    In closing, I wish you every success in your attempt to 
reverse the effects of decades of anachronistic territorial 
administration in Puerto Rico in a way that enables the people 
to redeem their dignity by making a determined choice between 
real options that can be implemented free of perverse 
ambiguities. Only in that way will the citizenry of the island, 
in the same manner as all the citizens in this nation, be 
enabled to realize their human and cultural potential, and 
protect their God-given liberty.
    Whether that is accomplished through integration leading to 
statehood, independence, or independence with free association 
(associated republic status), history calls on the Congress and 
the people of Puerto Rico to end the current temporary status 
and achieve full self-government as the new century begins.

                                ------                                


 UNDERSTANDING FREE ASSOCIATION AS A FORM OF SEPARATE SOVEREIGNTY AND 
  POLITICAL INDEPENDENCE IN THE CASE OF DECOLONIZATION OF PUERTO RICO

                    By Ambassador Fred M. Zeder, II

    Consistent with relevant resolutions of the U.N. General 
Assembly, Puerto Rico's options for full self-government are: 
Independence (Example: Philippines); Free Association (Example: 
Republic of the Marshall Islands); Integration (Example: 
Hawaii). See, G.A. Resolution 1514 (1960); G.A. Resolution 1541 
(1960); G.A. Resolution 2625 (1970).
    For purposes of international law including the relevant 
U.N. resolutions international conventions to which the U.S. is 
a party, the current status of Puerto Rico is best described as 
substantial but incomplete integration. This means that the 
decolonization process that commenced in 1952 has not been 
fulfilled.
    As a matter of U.S. domestic constitutional law, a 
territory within U.S. sovereignty which has internal 
constitutional self-government but is not fully integrated into 
the national system of political union on the basis of equality 
remains an unincorporated territory, and can be referred to as 
a ``commonwealth.'' (Example: Puerto Rico and the Northern 
Mariana Islands).
    For purposes of U.S. constitutional law, independence and 
free association are status options which are created and exist 
on the international plane. Thus, instead of the sovereign 
primacy of Congress under the territorial clause, the sources 
of constitutional authority with respect to nations with 
separate sovereignty include the article II, section 2 treaty-
making power and the applicable article I, section 8 powers of 
Congress such as that relating to nationality and immigration 
law.
    Relations between the U.S. and a nation which is 
independent or in free association are conducted on the basis 
of international law. Thus, independence and free association 
are status options which would remove Puerto Rico from its 
present existence within the sphere of sovereignty of the 
United States and establish a separate Puerto Rican sovereignty 
outside the political union and federal constitutional system 
of the United States.
    Instead of completing the integration process through full 
incorporation and statehood, either independence or free 
association would ``dis-integrate'' Puerto Rico from the United 
States. This would terminate U.S. sovereignty, nationality and 
citizenship and end application of the U.S. Constitution in 
Puerto Rico. In other words, the process of gradual integration 
which began in 1898, and which was advanced by statutory U.S. 
citizenship in 1917 and establishment of constitutional 
arrangements approved by the people in 1952, would be 
terminated in favor of either independence or free association.
    Under either independence or free association the U.S. and 
Puerto Rico could enter into treaties to define relations on a 
sovereign-to-sovereign basis. Free association as practiced by 
the U.S. is simply a form of independence in which two 
sovereign nations agree to a special close relationship that 
involves delegations of the sovereign powers of the associated 
to the United States in such areas as defense and other 
governmental functions to the extent both parties to the 
treaty-based relationship agree to continue such arrangements.
    The specific features of free association and balance 
between autonomy and interdependence can vary within well-
defined limits based on negotiated terms to which both parties 
to the arrangement have agreed, but all such features must be 
consistent with the structure of the agreement as a treaty-
based sovereign-to-sovereign relationship. In U.S. experience 
and practice, even where free association has many features of 
a dependent territorial status the sources and allocation of 
constitutional authority triggered by the underlying separation 
of sovereignty, nationality and citizenship causes the 
relationship to evolve in the direction of full independence 
rather than functional re-integration.
    Free association is essentially a transitional status for 
peoples who do not seek full integration, but rather seek to 
maintain close political, economic and security relations with 
another nation during the period after separate sovereignty is 
achieved. Again, this could be accomplished by treaty between 
independent nations as well. Thus, free association is a form 
of separate sovereignty that usually arises from the 
relationship between a colonial power and a people formerly in 
a colonial status who at least temporarily want close ties with 
the former colonial power for so long as both parties agree to 
the arrangements.
    Free association is recognized as a distinct form of 
separate sovereignty, even though legally it also is consistent 
with independence. Specifically, free association is consistent 
with independence because, as explained below, the special and 
close bilateral relationship created by a free association 
treaty or pact can be terminated in favor of conventional 
independence at any time by either party.
    In addition, the U.S. and the international community have 
recognized that a separate nation can be a party to a bilateral 
pact of free association and be an independent nation in the 
conventional sense at the same time. For example, the Republic 
of the Marshall Islands is party to the Compact of Free 
Association with the United States, but has been admitted to 
the United Nations as an independent nation.
    Thus, the international practice regarding free association 
actually is best understood as a method of facilitating the 
decolonization process leading to simple and absolute 
independence. Essentially, it allows new nations not prepared 
economically, socially or strategically for emergence into 
conventional independence to achieve separate nationhood in 
cooperation with a former colonial power or another existing 
nation.
    Under international law and practice including the relevant 
U.N. resolutions and existing free association precedents, free 
association must be terminable at will by either party in order 
to establish that the relationship is consistent with separate 
sovereignty and the right of self-determination is preserved. 
This international standard, also recognized by the U.S., is 
based on the requirement that free association not be allowed 
to become merely a new form of internationally accepted 
colonialism.
    Specifically, free association is not intended to create a 
new form of territorial status or quasi-sovereignty. It is not 
a ``nation-within-a-nation'' relationship or a form of 
irrevocable permanent union, but is, again, a sovereign-to-
sovereign treaty-based relationship which is either of limited 
duration or terminable at will by either party acting 
unilaterally.
    In other words, both parties have a sovereign right to 
terminate the relationship at any time. The free association 
treaty may provide for the terms and measures which will apply 
in the event of unilateral termination, but the ability of 
either party to do so can not be conditioned or encumbered in 
such a manner that the exercise of the right to terminate the 
relationship effectively is impaired or precluded.
    For that reason, the territory and population of each 
nation involved must be within the sovereignty, nationality and 
citizenship of that nation, and the elements and mechanisms of 
the free association relationship must be defined consistent 
with that requirement. Separate and distinct sovereignty and 
nationality must be established at the time of decolonization 
and preserved under the relationship or the ability of either 
party to terminate will be impaired.
    Thus, the major power may grant to people of the free 
associated nation special rights normally associated with the 
major power's own citizenship classifications, such as open 
immigration and residence rights.
    However, these arrangements are subject to the same 
terminability as the overall relationship, and thus may be 
either for a limited duration or subject to unilateral 
termination by either party at any time.
    Consequently, there can be no permanent mass dual 
nationality because this would be inconsistent with the 
preservation of the underlying separate sovereignty. Any 
special rights or classifications of the major power extended 
to the people of a free associated nation are more in the 
nature of residency rights and do not prevent either nation 
from exercising separate sovereignty with respect to the 
nationality its own population.
    Upon termination of the free association relationship by 
either party, any such classifications or special residency 
rights will be subject to unilateral termination as well. Both 
during and after any period of free association, the people of 
each of the two nations will owe their allegiance to and have 
the separate nationality of their own country. Any attempt to 
deviate from these norms of international law and practice 
would undermine the sovereignty of both nations, as would 
impair the right of self-determination which must be preserved 
to ensure the relationship is based on consent rather than 
coercion.
    In summary, the United States recognizes each of the three 
U.N. accepted status options for Puerto Rico to achieve full 
self-government. One of those options, integration, is within 
U.S. sovereignty and the federal political union, the other 
two, independence and free association, exist without U.S. 
sovereignty, nationality and citizenship.
    Obviously, Puerto Rico can not act unilaterally to 
establish a new status. This is so not only because of U.S. 
sovereignty and the authority of Congress under the territorial 
clause, but also because Puerto Rico seeks the agreement of the 
U.S. to the terms under which any of these options would be 
implemented. This means Congress must agree to the terms under 
which a new status is defined and implemented.
    There is no right on the part of Puerto Rico unilaterally 
to define its relationship with the United States. Nor would it 
be consistent with U.S. commitments to respect the right of 
self-determination for non-self-governing people under U.S. 
administration to dispose of the territory of Puerto Rico in a 
manner which does not take into account the freely expressed 
wishes of the residents.
    Thus, as the two parties which must define and carry out a 
future relationship based on consent and the right of self-
determination which each must exercise, Congress, on behalf of 
the United States, and the people of Puerto Rico, acting 
through their constitutional process, must decide whether 
decolonization will be completed through completion of the 
process for integration into union or separation and nationhood 
apart from the U.S. for Puerto Rico.

[GRAPHIC] [TIFF OMITTED] T0445.001

[GRAPHIC] [TIFF OMITTED] T0445.002

[GRAPHIC] [TIFF OMITTED] T0445.003

[GRAPHIC] [TIFF OMITTED] T0445.004

[GRAPHIC] [TIFF OMITTED] T0445.005

[GRAPHIC] [TIFF OMITTED] T0445.006

[GRAPHIC] [TIFF OMITTED] T0445.007

[GRAPHIC] [TIFF OMITTED] T0445.008

[GRAPHIC] [TIFF OMITTED] T0445.009

[GRAPHIC] [TIFF OMITTED] T0445.010

[GRAPHIC] [TIFF OMITTED] T0445.011

[GRAPHIC] [TIFF OMITTED] T0445.012

[GRAPHIC] [TIFF OMITTED] T0445.013

[GRAPHIC] [TIFF OMITTED] T0445.014

[GRAPHIC] [TIFF OMITTED] T0445.015

[GRAPHIC] [TIFF OMITTED] T0445.016

[GRAPHIC] [TIFF OMITTED] T0445.017

[GRAPHIC] [TIFF OMITTED] T0445.018

[GRAPHIC] [TIFF OMITTED] T0445.019

[GRAPHIC] [TIFF OMITTED] T0445.020

[GRAPHIC] [TIFF OMITTED] T0445.021

[GRAPHIC] [TIFF OMITTED] T0445.022

[GRAPHIC] [TIFF OMITTED] T0445.023

[GRAPHIC] [TIFF OMITTED] T0445.024

[GRAPHIC] [TIFF OMITTED] T0445.025

[GRAPHIC] [TIFF OMITTED] T0445.026

[GRAPHIC] [TIFF OMITTED] T0445.027

[GRAPHIC] [TIFF OMITTED] T0445.028

[GRAPHIC] [TIFF OMITTED] T0445.029

[GRAPHIC] [TIFF OMITTED] T0445.030

[GRAPHIC] [TIFF OMITTED] T0445.031

[GRAPHIC] [TIFF OMITTED] T0445.032

[GRAPHIC] [TIFF OMITTED] T0445.033

[GRAPHIC] [TIFF OMITTED] T0445.034

[GRAPHIC] [TIFF OMITTED] T0445.035

[GRAPHIC] [TIFF OMITTED] T0445.036

[GRAPHIC] [TIFF OMITTED] T0445.037

[GRAPHIC] [TIFF OMITTED] T0445.038

[GRAPHIC] [TIFF OMITTED] T0445.039

[GRAPHIC] [TIFF OMITTED] T0445.040

[GRAPHIC] [TIFF OMITTED] T0445.041

[GRAPHIC] [TIFF OMITTED] T0445.042

[GRAPHIC] [TIFF OMITTED] T0445.043

[GRAPHIC] [TIFF OMITTED] T0445.044

[GRAPHIC] [TIFF OMITTED] T0445.045

[GRAPHIC] [TIFF OMITTED] T0445.046

[GRAPHIC] [TIFF OMITTED] T0445.047

[GRAPHIC] [TIFF OMITTED] T0445.048

[GRAPHIC] [TIFF OMITTED] T0445.049

[GRAPHIC] [TIFF OMITTED] T0445.050

[GRAPHIC] [TIFF OMITTED] T0445.051

[GRAPHIC] [TIFF OMITTED] T0445.052

[GRAPHIC] [TIFF OMITTED] T0445.053

[GRAPHIC] [TIFF OMITTED] T0445.054

[GRAPHIC] [TIFF OMITTED] T0445.055

[GRAPHIC] [TIFF OMITTED] T0445.056

[GRAPHIC] [TIFF OMITTED] T0445.057

[GRAPHIC] [TIFF OMITTED] T0445.058

[GRAPHIC] [TIFF OMITTED] T0445.059

[GRAPHIC] [TIFF OMITTED] T0445.060

[GRAPHIC] [TIFF OMITTED] T0445.061

[GRAPHIC] [TIFF OMITTED] T0445.062

[GRAPHIC] [TIFF OMITTED] T0445.063

[GRAPHIC] [TIFF OMITTED] T0445.064

[GRAPHIC] [TIFF OMITTED] T0445.065

[GRAPHIC] [TIFF OMITTED] T0445.066

[GRAPHIC] [TIFF OMITTED] T0445.067

[GRAPHIC] [TIFF OMITTED] T0445.068

[GRAPHIC] [TIFF OMITTED] T0445.069

[GRAPHIC] [TIFF OMITTED] T0445.070

[GRAPHIC] [TIFF OMITTED] T0445.071

[GRAPHIC] [TIFF OMITTED] T0445.072

[GRAPHIC] [TIFF OMITTED] T0445.073

[GRAPHIC] [TIFF OMITTED] T0445.074

[GRAPHIC] [TIFF OMITTED] T0445.075

[GRAPHIC] [TIFF OMITTED] T0445.076

[GRAPHIC] [TIFF OMITTED] T0445.077

[GRAPHIC] [TIFF OMITTED] T0445.078


</pre></body></html>
